APPENDIX A
FILED: October 9, 2019
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 19-1943 (L)
(2:10-md-02187)
In re: C.R. BARD, INCORPORATED, Pelvic Repair
System Products Liability Litigation
-----------------------------MAZIE SLATER KATZ & FREEMAN, LLC
Appellant
v.
COMMON BENEFIT FEE AND COST
COMMITTEE
Appellee
No. 19-1944
(2:12-md-02325)
In re: AMERICAN MEDICAL SYSTEMS,
INCORPORATED, Pelvic Repair System Products
Liability Litigation
------------------------------

1a

MAZIE SLATER KATZ & FREEMAN, LLC
Appellant
v.
COMMON BENEFIT FEE AND COST
COMMITTEE
Appellee

No. 19-1945
(2:12-md-02326)
In re: BOSTON SCIENTIFIC CORPORATION,
Pelvic Repair System Products Liability Litigation
-----------------------------MAZIE SLATER KATZ & FREEMAN, LLC
Appellant
v.
COMMON BENEFIT FEE AND COST
COMMITTEE
Appellee

2a

No. 19-1947
(2:12-md-02327)
In re: ETHICON, INC., Pelvic Repair System
Products Liability Litigation
-----------------------------MAZIE SLATER KATZ & FREEMAN, LLC
Appellant
v.
COMMON BENEFIT FEE AND COST
COMMITTEE
Appellee

No. 19-1948
(2:12-md-02387)
In re: COLOPLAST CORP., Pelvic Support System
Products Liability Litigation
------------------------------

3a

MAZIE SLATER KATZ & FREEMAN, LLC
Appellant
v.
COMMON BENEFIT FEE AND COST
COMMITTEE
Appellee

No. 19-1949
(2:13-md-02440)
In re: COOK MEDICAL, INC., Pelvic Repair System
Products Liability Litigation
-----------------------------MAZIE SLATER KATZ & FREEMAN, LLC
Appellant
v.
COMMON BENEFIT FEE AND COST
COMMITTEE
Appellee

4a

No. 19-1950
(2:14-md-02511)
In re: NEOMEDIC PELVIC REPAIR SYSTEM
PRODUCTS LIABILITY LITIGATION
-----------------------------MAZIE SLATER KATZ & FREEMAN, LLC
Appellant
v.
COMMON BENEFIT FEE AND COST
COMMITTEE
Appellee

ORDER

Upon review of submissions relative to the
motion to dismiss, the Court grants the motion.
Entered at the direction of Judge Agee with
the concurrence of Judge King and Judge Diaz.
For the Court
/s/ Patricia S. Connor, Clerk
5a

APPENDIX B
IN THE UNITED STATES DISTRICT COURT FOR
THE SOUTHERN DISTRICT
OF WEST VIRGINIA
CHARLESTON DIVISION
IN RE: ETHICON, INC.,
PELVIC REPAIR SYSTEM
PRODUCTS LIABILITY
LITIGATION

MDL NO. 2327

THIS DOCUMENT RELATES TO ALL CASES
PRETRIAL ORDER # 342
MEMORANDUM OPINION AND ORDER
(Re: Allocation Order)
(Filed Jul. 25, 2019)
I am in receipt of the Fee and Cost
Committee’s
(“FCC”)
Final
Written
Recommendation, with the External Review
Specialist’s Recommended Allocation for distribution
of the common benefit fund. [ECF Nos. 7640,
7640-1]. These recommendations have been made in
response to this court’s Order finding that a 5%
holdback of the plaintiffs’ total recoveries was
reasonable for compensating plaintiffs’ attorneys for
common benefit work (“Fee Award Order”). PTO
# 327 [ECF No. 7519]. I hereby INCORPORATE BY
REFERENCE my Fee Award Order entered on
January 30, 2019. I have carefully reviewed the
FCC’s Final Written Recommendation and the
External Review Specialist’s suggested modifications
to the FCC’s recommendation, as well as the very
6a

few objections thereto. I FIND the recommended
distribution to be fair and reasonable. I hereby
ADOPT and INCORPORATE BY REFERENCE the
FCC’s Final Written Recommendation as submitted
by the FCC, and as adjusted after consideration by
the Honorable Daniel J. Stack, Retired, External
Review Specialist, pursuant to the protocol agreed to
by the parties and ordered by me. I OVERRULE
each of the objections [ECF Nos. 7709, 7712, 7715,
7718, 7733, 7747] and ORDER the distribution as
recommended in Judge Stack’s modification to the
FCC’s Final Written Recommendation. [ECF No.
7640-1 at 30-35]. I ORDER the chairman of the FCC
to direct the accounting firm holding the fund to
distribute monies to pay expenses and MDL
assessments
according
to
Judge
Stack’s
“Recommended Allocation of Expenses” and to
disperse the remaining money on deposit as of July
25, 2019, according to Judge Stack’s “Recommended
Allocation of Fees.” [ECF No. 7640-1 at 30-35]. The
common benefit fund is held by Smith Cochran &
Hicks in seven different MDL accounts, which taken
together are considered by me, and referred to by
the FCC, as the common benefit fund.
This
extraordinarily
large
group
of
multidistrict litigation required unprecedented
coordination and cooperation among and between
the leadership counsel and those other lawyers who
performed work for the common benefit of each of
the individual plaintiffs. I entered the Order
Establishing Criteria for Applications to . . . MDL
Fund to Compensate and Reimburse Attorneys for
Services Performed and Expenses Incurred for MDL
Administration
and
Common
Benefit
and
Appointment of Common Benefit Fee and Cost
7a

Committee (“Appointment Order”) on January 15,
2016, which “identif[ied] a process and committee”
(the FCC) for determining common benefit fund
allocations. PTO # 211 [ECF No. 1845]. I hereby
INCORPORATE BY REFERENCE the Appointment
Order that I entered on January 15, 2016. The FCC,
tasked with making fee award recommendations for
common benefit work, included lawyers in law
firms representing or substantially responsible for
the resolution of approximately 75% of the more than
100,000 cases filed in the seven MDLs assigned to
me.
Members of the FCC were major contributors
to, and claimants of, the monies contributed to the
common benefit fund. Their diverse and competing
interests offered a large measure of mutually
assured fairness to the process. The lawyers
appointed to the FCC were known to me to be the
most active in the broadest range of cases across the
seven MDLs. That is, the composition of the FCC
significantly contributed to a process that was
structurally designed for transparency and equitable
distribution of common benefit fund monies.
I entered the Fee Committee Protocol
(“Protocol Order”), PTO # 262, on June 23, 2017,
which established more specific procedures assuring
procedural fairness in making claims against the
common benefit fund [ECF No. 4044]. I hereby
INCORPORATE BY REFERENCE the Protocol
Order that I entered on June 23, 2017. That Order
specified the tasks required of each attorney
claimant, set a December 21, 2016 cut-off date
(“cut-off date”) for submitting common benefit time
and expense records, outlined the procedural steps
8a

for making claims, and provided structural steps to
guide the FCC’s performance of its duties. Id.
The procedural guidance to claimants assured
fairness by offering multiple opportunities for each
claimant to refine their claims, to object to
preliminary conclusions, to advocate for changes,
and to object to the penultimate recommendation of
the FCC. Finally, each firm was entitled to pursue
their objections by requesting a further evaluation
from the External Review Specialist, Judge Stack,
appointed by me. Each firm was then afforded the
opportunity to object to the External Review
Specialist’s final recommendation by appealing to
me.
The substantive determinations as to the
recommended allocation of monies made by the
FCC, as adjusted by Judge Stack, followed guidance
that I provided in part C of the Protocol Order. [ECF
No. 4044 at 5-8]. Of course, the task of allocating the
common benefit fund among claimants required an
individualized analysis that was, as I had
directed, guided by more subjective factors. That
guidance principally focused on the extent to which a
claimant’s work contributed to the overall resolution
of the mesh litigation. The FCC and Judge Stack
properly gave great weight to the quality and impact
of each claimant’s efforts.
The self-audited time and expense records of
law firms seeking common benefit compensation
were submitted and carefully reviewed by two
members of the FCC and then further reviewed by
the entire FCC. These reviews were guided by my
court orders and were accompanied by presentations
to every member of the FCC. I would note that MDL
9a

leadership was also recommended for compensation
and was treated the same as all of the non-FCC
claimant firms. The process was exhaustive. Over
900,000 hours were claimed as time spent for the
common benefit. After the complete review process,
the FCC approved roughly 679,000 hours for
compensation. [ECF No. 7640 at 17].
The Final Written Recommendation of the
FCC was then sent to the External Review Specialist,
Judge Stack, for the purposes of ensuring procedural
fairness and providing a finalized recommendation
to this court. Although Judge Stack received these
finalized materials from the FCC after a nearly twoyear review by the FCC, he was already familiar with
the litigation from “assist[ing] the FCC in its duties of
evaluating the time and expenses submitted for
consideration in this MDL, and [from] aid[ing] the
FCC in any way [that was] appropriate in
performing the work of the FCC and in furtherance
of the directive and mandates” this court established
in its Protocol Order. [ECF No. 7640-1]. Judge Stack
“was able to evaluate the nature and quantity of
the work performed by each applicant firm in
considering each applicant firm’s contribution to the
outcome of the litigation[ ]” because he was present
for each firm’s presentations to the FCC. Id. at 13.
Eight firms objected to the FCC’s Final
Written Recommendation as submitted to Judge
Stack. These objectors were provided another
opportunity to be heard by the External Review
Specialist. Judge Stack heard from each remaining
objecting firm and considered their concerns with
the entire process. Judge Stack permitted and
considered “additional materials and arguments
advanced beyond what had been presented
10a

previously.” [ECF No. 7640-1 at 14]. During the
process, Judge Stack resolved the objections of half
of the firms, leaving only four objectors out of 94
firms seeking common benefit compensation.
After
Judge
Stack
finished
his
recommendation,
the
Final
Written
Recommendation as adjusted by Judge Stack was
then provided to the court. There were only four
remaining objectors and one objection by a nonlawyer. As I stated in the Participation Agreement
referenced in the Fee Award Order, only MDL
lawyers and lawyers who signed the agreement are
eligible for common benefit compensation. Therefore,
the one non-lawyer objection [ECF No. 7733] is
DENIED.
The four remaining objectors focus upon the
structure and results of the allocation process which
they agreed to several years ago. The objectors
have had many opportunities to object, including to
the FCC, the External Review Specialist, and me.
Having considered each of their objections, I find
that they are entirely without merit. All of the
remaining objections [ECF Nos. 7709, 7712, 7718,
7747] are DENIED.
Because most of the required and useful
common benefit work was completed before the cutoff date for time and expense submissions as stated
in the Protocol Order [ECF No. 4044 at 2], and
because I have sufficient knowledge of the MDLs’
history to make allocations for all of the common
benefit work performed, the FCC recommends that I
allocate all future common benefit money collected
after the entry of this order according to the same
percentages. However, because there was some
11a

minimal, but necessary work performed after the
cut-off date, the FCC recommends that I withhold
30% of all money collected after entry of this order to
be evaluated for common benefit compensation at a
later time. I agree.
Therefore, the court ORDERS that all
expenses and MDL assessments noted in the
External
Review
Specialist’s
“Recommended
Allocation of Expenses” be dispersed to each firm
according to the “Total Expense and MDL
Assessment” column of the recommendation. [ECF
No. 7640-1 at 32-35]. The court also ORDERS that
all of the common benefit money on hand as of
July 25, 2019, after subtracting the expenses and
assessments mentioned above, be dispersed
according to the External Review Specialist’s
“Recommended Allocation of Fees” for each firm as
listed under the “External Review Specialist’s
Recommendation Allocation” column of the
recommendation. [ECF No. 7640-1 at 30-31]. For all
future common benefit money received after July 25,
2019, the court ORDERS that the common benefit
fund’s accounting firm, Smith Cochran & Hicks,
disperse 70% of the received money on a quarterly
basis according to the External Review Specialist’s
“Recommended Allocation of Fees” percentages that
are listed under the “External Review Specialist’s
Recommended
Allocation”
column
of
the
recommendation. [ECF No. 7640-1 at 30-31]. The
first quarterly payments shall be made with monies
on deposit as of January 1, 2020 and shall be paid by
Smith Cochran & Hicks by January 15, 2020, and
quarterly thereafter. Finally, the court ORDERS
that the remaining 30% be held in the common

12a

benefit fund for a final evaluation of common benefit
compensation until a further order of the court.
The court DIRECTS the Clerk to file a copy of
this order in 2:12-md-2327. It shall be the
responsibility of the parties to review and abide by
all pretrial orders previously entered by the court.
The orders may be accessed through the CM/ECF
system
or
the
court’s
website
at
www.wvsd.uscourts.gov.
ENTER: July 25, 2019
/s/ Joseph R. Goodwin
JOSEPH R. GOODWIN
UNITED STATES
DISTRICT JUDGE

13a

APPENDIX C
FILED: November 5, 2019
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 19-1943 (L)
(2:10-md-02187)
In re: C.R. BARD, INCORPORATED, Pelvic Repair
System Products Liability Litigation
-----------------------------MAZIE SLATER KATZ & FREEMAN, LLC
Appellant
v.
COMMON BENEFIT FEE AND COST
COMMITTEE
Appellee
No. 19-1944
(2:12-md-02325)
In re: AMERICAN MEDICAL SYSTEMS,
INCORPORATED, Pelvic Repair System Products
Liability Litigation
-----------------------------14a

MAZIE SLATER KATZ & FREEMAN, LLC
Appellant
v.
COMMON BENEFIT FEE AND COST
COMMITTEE
Appellee

No. 19-1945
(2:12-md-02326)
In re: BOSTON SCIENTIFIC CORPORATION,
Pelvic Repair System Products Liability Litigation
-----------------------------MAZIE SLATER KATZ & FREEMAN, LLC
Appellant
v.
COMMON BENEFIT FEE AND COST
COMMITTEE
Appellee

15a

No. 19-1947
(2:12-md-02327)
In re: ETHICON, INC., Pelvic Repair System
Products Liability Litigation
-----------------------------MAZIE SLATER KATZ & FREEMAN, LLC
Appellant
v.
COMMON BENEFIT FEE AND COST
COMMITTEE
Appellee

No. 19-1948
(2:12-md-02387)
In re: COLOPLAST CORP., Pelvic Support System
Products Liability Litigation
------------------------------

16a

MAZIE SLATER KATZ & FREEMAN, LLC
Appellant
v.
COMMON BENEFIT FEE AND COST
COMMITTEE
Appellee

No. 19-1949
(2:13-md-02440)
In re: COOK MEDICAL, INC., Pelvic Repair System
Products Liability Litigation
-----------------------------MAZIE SLATER KATZ & FREEMAN, LLC
Appellant
v.
COMMON BENEFIT FEE AND COST
COMMITTEE
Appellee

17a

No. 19-1950
(2:14-md-02511)
In re: NEOMEDIC PELVIC REPAIR SYSTEM
PRODUCTS LIABILITY LITIGATION
-----------------------------MAZIE SLATER KATZ & FREEMAN, LLC
Appellant
v.
COMMON BENEFIT FEE AND COST
COMMITTEE
Appellee
ORDER
The petition for rehearing en banc was
circulated to the full court. No judge requested a poll
under Fed. R. App. P. 35. The court denies the
petition for rehearing en banc.
For the Court
/s/ Patricia S. Connor, Clerk

18a

APPENDIX D
IN THE UNITED STATES DISTRICT COURT FOR
THE SOUTHERN DISTRICT OF WEST VIRGINIA
CHARLESTON DIVISION

IN RE: C.R. BARD, INC., PELVIC
REPAIR MDL SYSTEM PRODUCTS
LIABILITY LITIGATION
MDL No. 2187
IN RE: AMERICAN MEDICAL SYSTEMS,
INC. PELVIC REPAIR SYSTEMS
PRODUCTS LIABIILITY LITIGATION
MDL No. 2325
IN RE: BOSTON SCIENTIFIC CORP.,
PELVIC REPAIR SYSTEM PRODUCTS
LIABILITY LITIGATION
MDL No. 2326
IN RE: ETHICON, INC., PELVIC
REPAIR SYSTEM PRODUCTS
LIABILITY LITIGATION

MDL No. 2327

IN RE: COLOPLAST CORP., PELVIC
REPAIR SYSTEM PRODUCTS
LIABILITY LITIGATION
MDL No. 2387

19a

IN RE: COOK MEDICAL, INC.,
PELVIC REPAIR SYSTEM
PRODUCTS LIABILITY
LITIGATION

MDL No. 2440

IN RE NEOMEDIC PELVIC REPAIR
SYSTEM PRODUCT LIABILITY
LITIGATION
MDL No. 2511

This Document Relates To All Cases
Recommended Allocation of Common Benefit Fees
and the Reimbursement of Shared Expenses and
Held Costs by the Court Appointed
External Review Specialist
COMES NOW, The Honorable Daniel J. Stack,
Retired, as External Review Specialist1 (as identified
in the Order Granting Motion to Appoint the Hon.
Daniel J. Stack Ret., as External Review Specialist
(the “Appointment Order”) and in accordance with
the Fee Committee Protocol2 (the “Protocol”) issue
Appointed by Court Order entered October 13, 2017: Bard
MDL 2187 [ECF No. 4663], AMS MDL 2325 [ECF No. 5112],
BSC MDL 2326 [ECF No. 4422], Ethicon MDL 2327 [ECF No.
4783], Cook MDL 2440 [ECF No. 592], Coloplast MDL 2387
[ECF No. 1572], Neomedic MDL 2511 [ECF No. 177].
1

Bard MDL 2187 PTO 257 [ECF No. 4020], AMS MDL 2325
PTO 244 [ECF No. 4346], BSC MDL 2326 PTO 166 [ECF No.
2

20a

my Recommended Allocation in accordance with
Section F of the Protocol as follows:
The Court having entered its Memorandum
Opinion and Order (Re: Petition for an Award of
Common Benefit Attorneys’ Fees and Expenses)
(S.D. W. Va. Jan. 30, 2019), which was entered in
each of the seven MDLs, (hereinafter referred to as
“Fee Petition Order”) establishing the common
benefit fund, this Recommended Allocation sets forth
the basis for my recommendation that the Court
award payment from the common benefit fund for
payment of fees in the percentages shown in Exhibit
1 to this Recommended Allocation and award
payment of costs from the common benefit fund in
the amounts shown in Exhibit 2 to this
Recommended Allocation.
In making this Recommended Allocation, I
rely upon the time and expense submissions made
by firms seeking common benefit funds and/or
expenses (hereinafter may be referred to as
“applicant firms”), the Common Benefit Orders of
this Court, the Final Written Recommendation of the
Common Benefit Fee and Cost Committee, including
the Declaration of Henry Garrard and the other
material supplied therewith,3 my observation of
3968], Ethicon MDL 2327 PTO 262 [ECF No. 4044], Cook MDL
2440 PTO 81 [ECF No. 503], Coloplast MDL 2387 PTO 133
[ECF No. 1437], Neomedic MDL 2511 PTO 38 [ECF No. 172].
Available to me for my evaluation of applicant firms were: (1)
attorney biographies provided by applicant firms, (2) the
original time submission made by each applicant firm to the
Court appointed CPA, (3) the deliberation undertaken by the
Common Benefit Fee and Cost Committee (the “FCC”), my
conversations, written correspondence self-audited time
submission made by each applicant firm to the Court appointed
3

21a

and participation in the review and meetings with
applicant firms, and applicable law.4 In delivering
this Recommended Allocation to the Court, I request
that the FCC provide to the Court for its
consideration, in camera, all of the same materials
that were made available to me.
I.

BACKGROUND

In relating the history of the transvaginal
mesh litigation, I reviewed and incorporate by
reference the lengthy historical narrative of the
litigation by the FCC and the factual and procedural
history of the FCC’s activities set forth in the
CPA, (4) the affidavit provided by each applicant firm
accompanying its self-audited time, (5) the letter to each
applicant firm reflecting the FCC’s initial review of time
submissions including Exhibits identifying time found not
compensable by the FCC at that time, (6) the materials provided
by applicant firms in response to the FCC’s initial review
including affidavits provided by applicant firms, (7) the
expense submissions provided by each applicant firm, where
applicable, (8) the letter to each applicant firm reflecting FCC’s
revised time and expense review after the FCC’s consideration
of the materials received from applicant firms including the
Exhibits detailing individual line items of time and expense not
accepted by the FCC at that time, (9) the transcripts of the inperson meetings conducted among the FCC, myself and those
firms seeking an in- person opportunity to be heard by the FCC,
(10) the FCC’s Preliminary Written Recommendation delivered
to each firm and the two Exhibits attached thereto, and (11)
the FCC’s Final Written Recommendation including all
Exhibits.
A copy of the Final Written Recommendation of the Common
Benefit Fee and Cost Committee Concerning the Allocation of
Common Benefit Fees and the Reimbursement of Shared
Expenses and Held Costs delivered by the FCC which includes
the Declaration of Henry Garrard is attached hereto as Exhibit
3 and is incorporated by reference.
4

22a

Declaration of Henry Garrard which is included with
the attached FCC’s Final Written Recommendation
(Exhibit 3). The pelvic mesh multi-district litigations
(“MDLs”) pending before this Court began with the
Judicial Panel on Multidistrict Litigation’s order
consolidating cases involving the Avaulta line of
pelvic organ prolapse repair devices sold by C.R.
Bard, Inc. (“Bard”) in 2010 and ultimately led to the
consolidation of seven multidistrict litigations
(“MDLs”) in the Southern District of West Virginia. 5
The MDL Panel sent four additional MDLs to this
Court in 2012, another in 2013, and a seventh MDL
in 2014.6 The pelvic mesh litigation coordinated
before this Court ultimately grew to include more
than 104,836 filed cases, comprising one of the
largest mass tort litigations in history.
As explained in the Plaintiffs’ Proposed
Counsel Organizational Structure, which was
submitted to the Court on March 17, 2012, the
common medical, scientific and legal claims and
theories, common defenses, and common experts, as
well as the presence of numerous plaintiffs
In re Avaulta Pelvic Support Sys. Prods. Liab. Litig. (later
expanded to include a range of other pelvic repair mesh
devices sold by Bard, and renamed the C.R. Bard, Inc. Pelvic
Repair Sys. Prod. Liab. Litig.), 746 F.Supp.2d 1362, MDL No.
2187 (J.P.M.L. 2010).
5

In re American Med. Sys., Inc., et al., Pelvic Repair Systems
Prods. Liab. Litig., 844 F.Supp.2d 1359, MDLs Nos. 2325,
2326, 2327 (J.P.M.L. 2012) (3 separate MDLs); In re Coloplast
Corp. Pelvic Repair Support Sys. Prods. Liab. Litig., 883
F.Supp.2d 1348, MDL 2387 (J.P.M.L. 2012); In re Cook
Medical, Inc., Pelvic Repair Sys. Prods. Liab. Litig., 949
F.Supp.2d 1373, MDL 2440 (J.P.M.L. 2013); In re Neomedic
Pelvic Repair Sys. Prods. Liab. Litig., 999 F.Supp.2d, MDL
6

2511 (J.P.M.L. 2014).

23a

implanted with different defendants’ products, called
for a singular “cross-MDL” Plaintiffs’ leadership
structure. The Plaintiffs’ lawyers involved in the
litigation foresaw the challenge that lay ahead and
assembled a Plaintiffs’ Steering Committee (“PSC”)
of 61 attorneys from law firms across the country,
who were ultimately appointed and assigned by the
Court the responsibility of marshaling resources and
leading this sprawling litigation under a unified
leadership structure.
As envisioned and directed by the Court, the
Court-appointed
PSC,
Coordinating
Co-Lead
Counsel, Executive Committee, and Co-Lead
Counsel coordinated and collaborated across MDL
lines to plan the litigation strategy, develop theories
and confront legal issues, identify experts, and
ultimately bear the cost and expend the labor
necessary to develop the general liability cases
against numerous products made and sold by a
variety of corporate defendants. This singular PSC
and leadership structure enabled such coordinated
development of litigation strategy and theories and
allowed the work product from one MDL to be
utilized across product and manufacturer lines. As
the Court found in its Fee Petition Order entered in
each of the seven MDLs, “[t]his singular PSC worked
and collaborated across MDL lines to develop the
litigation strategy and theories of liability, depose
experts, and absorb the massive litigation costs.” Id.
at 5. Important legal decisions by the Court and by
counsel impacted all MDLs due to the commonality of
the products and issues involved. This single, unified
leadership structure was also necessary to avoid
potential conflicts and cross-purpose work. Further,
the Court found that absent the cross-MDL
24a

leadership structure, “all of the progress and
efficiencies in these MDLs would have been
impossible.” Fee Petition Order at 6. As anticipated,
the time, effort and expense of simultaneously
pursuing and developing multiple legal theories
against a range of products manufactured and sold
by a disparate group of defendants, was enormous.
Prosecuting multiple MDLs simultaneously
before one court presented unique logistical and
procedural difficulties and taxed the resources of the
firms leading this litigation. To address the economic
disparity between the parties, the PSC firms were
required to expend tens of millions of dollars to
prosecute this massive litigation. The PSC firms
contributed a total of $17,825,000 in common benefit
assessments, which were used to fund the litigation
generally.
“Held costs” in the amount of
$28,986,811.38 were recognized by the FCC as
incurred for the common benefit, which have not yet
been reimbursed out of the MDL fund. An additional
amount of approximately $12,000,000 has been paid
from the common benefit fund as costs associated
with general expert fees, special master fees, data
warehousing and management fees, and to the
Court-appointed accountant overseeing the MDL
fund. These costs continue to be incurred and to be
paid from the common benefit fund.
In addition to the costs incurred, through
December 21, 2016, ninety-four law firms submitted
more than 900,000 hours of time for common
benefit consideration, and the Court-appointed FCC
has recognized a total of 679,191.20 of those hours as
being for common benefit.

25a

In order to provide a mechanism to
compensate attorneys who performed work for the
common benefit of all plaintiffs in this complex
litigation and to reimburse those attorneys for
common benefit expenses, this Court entered orders
establishing a five percent (5%) assessment upon the
gross monetary recovery in every case.7 In addition,
this Court set forth the procedures to be employed
for reporting common benefit time and expenses.8
This Court Ordered that all time and
expenses must be (a) for the common benefit, (b)
appropriately authorized, (c) timely submitted, and
(d) approved by this court.9 All applicant firms were
ordered to maintain contemporaneous time and
expense records and submit the records every six (6)
weeks. Standardized forms were provided for
recordkeeping, and all time and expense
submissions were delivered to the Court appointed
CPA.
On January 15, 2016, this Court entered its
Pretrial Order Establishing Criteria for Applications
to the MDL Fund to Compensate and Reimburse
Attorneys for Services Performed and Expenses
Bard MDL 2187 PTO 84 [ECF No. 634], AMS MDL 2325 PTO
77 [ECF No. 833], BSC MDL 2326 PTO 52 [ECF No. 508],
Ethicon MDL 2327 PTO 62 [ECF No. 747], Cook MDL 2440
PTO 12 [ECF No. 44], Coloplast MDL 2387 PTO 32 [ECF No.
124], Neomedic MDL 2511 PTO 21 [ECF No. 79].
7

Bard MDL 2187 PTO 54 [ECF No. 365], AMS MDL 2325 PTO
20 [ECF No. 303], BSC MDL 2326 PTO 17 [ECF No. 212],
Ethicon MDL 2327 PTO 18 [ECF No. 282], Cook MDL 2440
PTO 11 [ECF No. 43], Coloplast MDL 2387 PTO 6 [ECF No.
15], Neomedic MDL 2511 PTO 20 [ECF No. 78].
8

9

Id.

26a

Incurred for MDL Administration and Common
Benefit and Appointment of Common Benefit Fee
and Cost Committee in each of the related MDL’s (the
“FCC Order”).10 The FCC Order appointed nine
individuals to serve as members of the Common
Benefit Fee and Cost Committee for purposes of
recommending an allocation of a singular common
benefit fund. Under the FCC Order and the Protocol,
the FCC was to review the submissions of applicant
firms and to provide a recommendation regarding the
allocation of common benefit funds. The Protocol
further provided the framework under which I, as
External Review Specialist, was to assist the FCC in
performing
its
duties,
review
the
FCC’s
recommendation, hear objections, and provide this
Recommended Allocation. The primary focus of the
FCC’s and my review was always the quality and
value of the work performed. Specifically, this Court’s
FCC Order provided “the over-arching guideline that
the FCC must consider is the contribution of each
common benefit attorney to the outcome of the
litigation.”
I was directed by the Appointment Order to
“assist[] the FCC in its duties of evaluating the time
and expenses submitted for consideration in this
MDL, and to aid the FCC in any way appropriate in
performing the work of the FCC and in furtherance
of the directives and mandates” of the Protocol. I was
further directed by the Appointment Order to
Bard MDL 2187 PTO 207 [ECF No. 1744], AMS MDL 2325
PTO 204 [ECF No. 204], BSC MDL 2326 PTO 136 [ECF No.
1289], Ethicon MDL 2327 PTO 211 [ECF No. 1845], Coloplast
MDL 2387 PTO 85 [ECF No. 441], Cook MDL 2440 PTO 71
[ECF No. 414], and Neomedic MDL 2511 PTO 23 [ECF No.
85].
10

27a

“exercise the duties set forth in [the Protocol],
including meeting with firms submitting requests for
fees or expenses to the FCC, attempting to resolve
objections [to the FCC’s recommendation], if any,
and submitting to this Court a written
recommendation as to a fair allocation of the
Common Benefit Fund.” That work has now been
completed.
II.

EXPERIENCE AND METHODOLOGY OF
THIS REPORT
A.

Methodology of Review of the Work
Performed

I am impressed by the robust due process
safeguards utilized by the FCC in its execution of its
duties under the Protocol. Applicant firms were
presented with several opportunities to interact
with the FCC in the review and evaluation of time
and expense submissions. Applicant firms were first
presented the opportunity to perform a “self-audit”
of their time and expense submissions. The selfaudited time and expense submissions provided
applicant firms the opportunity to clarify and correct
entries prior to consideration by the FCC. After the
opportunity for self-audit, the FCC then evaluated
the time for each applicant firm along with review of
each applicant firm’s initial affidavit and attorney
biographies.
This
review
resulted
in
a
communication sent to each applicant firm reflecting
the initial review of time submissions. The applicant
firms received a spreadsheet indicating those
individual time entries where the FCC found that
the work was not for the common benefit and a
separate spreadsheet indicating those individual
time entries where the FCC had questions regarding
28a

the common benefit of the work performed. The FCC
requested that applicant firms respond to those
individual time entries identified by the FCC and
provide information that would substantiate the
common benefit of the time entry, thus presenting a
second opportunity for applicant firms to provide
additional information for consideration by the FCC.
The FCC received those responses along with
additional affidavits from the applicant firms. Each
applicant firm was required by the Protocol to
include in their affidavit a sworn discussion of how
the firm “made a substantial common benefit
contribution to the outcome of the litigation” as
follows:
a. The consistency quantum, duration, and
intensity of the firm’s commitment to the
litigation;
b. The level of experience, reputation, and
status of each attorney and firm, including
partner participation by the firm;
c. The firm’s membership and/or leadership
on the [PSC] and/or Executive Committee;
d. The firm’s participation and leadership in
discovery (motions, depositions);
e. The firm’s participation and leadership in
law and briefing matters;
f. The firm’s participation and leadership in
science and expert matters;
g. The firm’s participation and leadership in
document review;
h. The firm’s activities in preparation for,
support of or conduct of bellwether trials or
29a

other trials which impacted proceedings on
a common benefit level . . . [including] an
explanation . . . of why the Firm believes
such work should be considered as common
benefit. For example, whether and how
such work benefitted the MDL plaintiffs
generally; the status of settlements in the
particular MDL in which the work was
performed at the time such work was
performed, and whether the case-specific
work
assisted
in
bringing
about
settlements with the defendant in that
MDL. Each Firm requesting common
benefit reimbursement for work done in
any State Court case shall provide an
explanation in their affidavit of why the
Firm believes such work should be
considered as common benefit;
i. The firm’s participation and leadership
in settlement negotiations, drafting of
settlement documentation and closing
papers, and administration of settlement
agreements
(excluding
individual
representations);
j. Where common benefit work occurred;
k. The . . . members of the firm [that] held
leadership positions in groups that engaged
in common benefit work (describe position
and group);
l. The firm’s participation in ongoing
activities, such as the Fee and Cost
Committee,
Settlement
Claims
Administration,
or
Court-Appointed

30a

Committees and Leadership, which are
intended to provide common benefit;
m. [Explanation of] whether counsel in the
firm were or were not involved in the
litigation prior to the formation of the
MDL, and the time and expenses incurred
during such time period;
n. The firm made the following, significant
contributions to the funding of the
litigation (include all assessments made to
the MDL) and the amount of any sums
reimbursed and date(s) of reimbursement;
o. The members of the firm who were PSC
members, group members, or Executive
Committee members whose commitment to
the litigation did not ebb; and
p. The other relevant factors which the Fee
Applicant requests be considered by the
Court.

See Protocol at 6; see also Ex. 4 to Protocol, Fee
Affidavit in Connection With Request for
Allocation of Aggregate Common Benefit and Costs
Award.
The FCC then communicated to each
applicant firm the FCC’s decision based upon its
review of the responsive information received from
the applicant firm. The FCC invited each applicant
firm to appear for an in-person meeting with the
FCC thereby, which is the third opportunity
applicant firms were presented to provide additional
information for consideration by the FCC. Of the
ninety-four applicant firms, twenty-seven appeared
before the FCC for an in-person meeting. After
31a

conducting these in-person meetings, the FCC
prepared and delivered its Preliminary Written
Recommendation. Applicant firms were given an
opportunity to object in writing to the Preliminary
Written Recommendation – their fourth opportunity
to provide information and share concerns with the
FCC – and twenty-four chose to do so. The FCC
received and evaluated those written objections in
preparing its Final Written Recommendation. Under
the Protocol, parties had the opportunity to object to
the Final Written Recommendation, which was the
fifth opportunity that applicant firms had to present
facts and argument to the FCC and to receive
feedback from the FCC. Eight firms objected to the
FCC’s Final Written Recommendation.
In preparing this Recommended Allocation, I
familiarized myself with the history of this litigation
and the contributions of the applicant firms through
review of the materials submitted by those firms and
through observation of and assistance in the FCC’s
evaluation of the materials submitted by those
firms. I attended an in-person meeting with co-lead
counsel for each of the related pelvic mesh MDLs to
discuss the quality and value of the applicant firms’
contribution to the common benefit. I also reviewed
the materials submitted by each of the applicant
firms, including their affidavits and biographical
information for attorneys seeking common benefit
reimbursement for their work.
In addition, I
received and considered the applicant firms’
responses to the FCC’s initial review, as well as the
applicant firms’ objections to the FCC’s Preliminary
Written Recommendation.
For those twenty-seven applicant firms who
sought to meet with the FCC in-person to further
32a

discuss their contribution to the litigation following
the FCC’s Initial Review of the time and expense
submissions, I attended each of their presentations
to the FCC, and I considered the information
provided during these presentations in making my
recommendation. As noted above, 70 of the 94 firms
accepted
the
FCC’s
Preliminary
Written
Recommendation without objection. I considered the
contentions and information contained in the
objections made by twenty-four applicant firms to
the FCC’s Preliminary Written Recommendation.
While I did not participate in the FCC’s allocation
decision, the opportunity to review the applicant
firms’ objections and to observe the FCC’s
deliberations was most informative and helpful. I
joined in the delivery of the FCC’s Preliminary
Written Recommendation for purposes of attesting
to the FCC’s adherence to the requirements of the
Protocol and the Fee Order consistent with my
charge under the Protocol. I also reviewed and
considered the Final Written Recommendation of the
FCC, including the factual background of the
common benefit process provided in the provided in
the [sic] Declaration of Henry Garrard and the firmspecific paragraphs addressing the contribution of
each firm that the FCC proposed to receive common
benefit funds. I found that the methodology utilized
by the FCC was fair and in accordance with the law
and directions of this Court. In summary, prior to
issuing its Final Written Recommendation, the FCC
provided ample opportunities for the firms to
advocate for their contribution to the common benefit
of the litigation, including through providing for a
period of self-audit prior to submission for review,
written responses to the initial review performed by
33a

the FCC, an opportunity to provide a detailed
affidavit addressing the nature and value of the
applicant firm’s contribution to the common benefit,
an opportunity to be heard by the FCC, and a
written objection to the Preliminary Written
Recommendation.
In accordance with the Court’s directive in the
Order appointing me as External Review Specialist,
I provided assistance to the FCC in evaluating the
time and expenses submitted for consideration as
common benefit. I observed the FCC’s painstaking
process of reviewing the time and expense
submissions from 94 different firms, which is
explained in detail in the Final Written
Recommendation, and which consumed several
months. The total individual time entries across the
94 firms exceeded over 900,000 hours in entries. I
observed the several FCC meetings where the time
and expense submission of each applicant firm, as
well as each firm’s contributions to and participation
in the litigation, was discussed and analyzed. 11 I
was struck by the significant differences in the
quality of record-keeping among the various
applicant firms.
From my involvement in the
Importantly, it is clear to me based on my personal
observations of and participation in the FCC’s deliberations
that all applicant firms were subject to, and reviewed under,
the same rules and analysis regarding the common benefit
time, including the FCC firms. For example, issues such as
whether to compensate law clerk time arose, and the decision to
disallow common benefit time for law clerks impacted each and
every law firm, including without exception the FCC member
firms. The same set of rules and guidelines for the evaluation
of common benefit time and expenses were applied with equal
force to all applicant firms, regardless of whether they were
represented on the FCC or not.
11

34a

process of review of the applicant firms’ submissions,
I observed significant problems with the timekeeping
records submitted by certain of the applicant firms
including some of the firms that remain as objectors.
Some firms submitted obviously excessive time
submissions, inadequate descriptions of the task
performed, duplicative submissions, work that
conferred little or no common benefit, individual
case work, and various inaccuracies and instances
of non-compliance with the Protocol. The FCC
addressed these submissions through its review
process that resulted in the elimination of more than
200,000 hours from consideration. Many of the firms
clearly did not comply with the Court’s directive to
self-audit their time, which complicated the FCC’s
review process.
Based on my observation of and assistance in
the FCC’s review of the time and expense
submissions, as well as my attendance at each of the
applicant firms’ presentations and review of the
affidavits and materials submitted by the applicant
firms, I was able to evaluate the nature and quantity
of the work performed by each applicant firm in
considering each applicant firm’s contribution to the
outcome of the litigation.
Of the twenty-four objections to the FCC’s
Preliminary Written Recommendation, sixteen of
those objections were ultimately resolved. Eight
firms objected to the FCC’s Final Written
Recommendation. I find it particularly instructive
that of the 94 firms who submitted common benefit
time for consideration, and of twenty-four firms that
objected to the FCC’s Preliminary Written
Recommendation, and the eight firms that objected to
the Final Written Recommendation, only four firms
35a

remain as objectors. The multiple opportunities to
give and receive feedback and the FCC’s
demonstrated willingness to hear and give due
consideration to the positions of those applicant
firms who made objections and to adjust its
recommended allocation where appropriate is
evidence of the allocation process working as the
Court intended. See, In re Vioxx Prods. Liab. Litig.,
802 F.Supp.2d 740, 774 (E.D.La.2011) (J. Fallon)
(“The Court interprets this ongoing development of
the FAC’s and the Special Master’s recommended
allocations as an indication that the allocation
process was working properly. The effectiveness of
this [allocation] process in this case is supported by
the fact that only 4 out of the 108 common benefit
fee applicants continue to maintain their
objections.”). As shown in Exhibit 1 to this
Recommended Allocation, the proposed allocation of
common benefit funds to applicant firms changed
from
the
FCC’s
Preliminary
Written
Recommendation
to
its
Final
Written
Recommendation in response to information received
by the FCC through its review and objection process.
Based on the information I received through the
objections to the Final Written Recommendation, I
made further changes in allocation to certain
applicant firms.
I have personally spoken or met with each of
the eight firms that objected to the FCC’s Final
Written Recommendation, and I have considered
their arguments and submissions in making this
Recommended Allocation. The opportunity to meet
with each of the firms objecting to the Final Written
Recommendation was very helpful and informative,
and it afforded me an additional opportunity to ask
36a

questions and to evaluate any additional materials
and arguments advanced beyond what had been
presented previously, and it provided another
opportunity for the objecting firms to ask questions
of me and to receive feedback from me.
Certain of the eight firms that objected to the
FCC’s Final Written Recommendation did work
primarily, if not exclusively, in the State Courts of
New Jersey and have based their objection, in part,
on an agreement entered between MDL leadership
and certain New Jersey counsel. These objectors
argue that because of this agreement, all of their
time submitted should be considered as common
benefit. These objectors also assert that the FCC’s
recommendations regarding allocation of funds do
not accurately reflect the value of their common
benefit contribution. I reviewed the agreement
entered between MDL leadership and the New
Jersey counsel and have considered that agreement
in light of the Court’s Protocol and Fee Order. My
recommendation regarding allocation of common
benefit fees and expenses takes into consideration
the contribution of those who participated in the
New Jersey litigation as well as those who
participated in related litigation in other state court
venues. I further note that state court trials were
subject to the same analysis by the FCC, regardless
of the identity of trial counsel and irrespective of
whether the time was expended by Plaintiffs’
leadership, Participating Counsel, or member firms
of the FCC. Arguments that there were different
“rules” for the FCC members and other applicant
firms are simply without merit and factually
incorrect.

37a

Certain of the firms objecting to the FCC’s
Final Written Recommendation complain that they
are unable to adequately respond to or assess the
FCC’s recommended allocation without first
receiving discovery from the FCC regarding its
deliberations. Contrary to the suggestion of these
objectors, I have observed the FCC’s process to be
open and transparent. The FCC provided ample
information and explanation regarding its process
and its analysis both in writing and in person to each
of the objecting firms. The FCC’s process provided
applicant firms with meaningful opportunities to
object and to be heard. These objectors have also had
the opportunity to be heard by me, and again I have
taken their objections into consideration in making
my recommendation. I find it noteworthy that
sixteen of the twenty-four firms that objected to the
FCC’s Final Written Recommendation were able to
resolve their objections without discovery from the
FCC. As the FCC has pointed out in response to one
objecting firm’s requests for discovery from the FCC,
each of which were denied by the Court, discovery in
connection with fee motions is rarely permitted and
should never result in a second major litigation. See,
e.g., In re Genetically Modified Rice Litig., 764 F.3d
864, 872 (8th Cir. 2014). Moreover, as the FCC
pointed out in its response to one of the several
motions to compel discovery filed by the same firm,
the FCC has already provided much of the
information that the firm sought to discover and
certain of the requested information was not in the
FCC’s possession. Finally, it is not the FCC’s or my
obligation to demonstrate why any particular time
submission was not considered for the common
benefit. To the contrary, it is the burden of the
38a

applicant firm who claims entitlement to common
benefit to prove its compliance with the Court’s
Common Benefit Orders as well as to prove how and
the extent to which its work benefited the litigation.
See, In re Volkswagen “Clean Diesel” Marketing,
Sales Practices, and Prods. Liab. Litig., 2019 WL
274036, *5-*9 (9th Cir. Jan. 22, 2019).
One common theme of the eight firms’
objections to the Final Written Recommendation is
that their work was improperly undervalued by the
FCC while other firms would receive too much money
for their work under the FCC’s recommendation. It
is inevitable that law firms that have devoted
significant time and effort to this litigation will view
the value of their own work, and that of others,
differently. It would be unrealistic to expect that
every lawyer (or judge) would reach the same
conclusion regarding the value of every applicant
firm’s work. In Diet Drugs, 2003 WL 21641958 *10*11, the court made an observation that I find
particularly instructive here, stating “[w]ith so much
money at stake and so much time invested by skilled
attorneys on valuable common benefit work, it is not
surprising that disputes exist concerning the proper
method and dollar amount of the individual
allocations. We emphasize, however, that the
allocation of fees is not an exact science.” The court
in In re Motor Fuel Temperature Sales Practices
Litig., 2016 WL 4445438, *13 (D.Kan.2016), made a
similar observation, stating that “[i]n determining
reasonable attorneys’ fees, the essential goal ‘is to do
rough justice, not to achieve auditing perfection.’”
Because many of the relevant factors in the
allocation decision process are inherently subjective,
39a

Judge Fallon noted in Vioxx that “some subjectivity is
unavoidable in allotting common benefit fees.” 802 F.
Supp. 2d at 774. None of the applicant firms could
dispute the truism that not all hours are entitled to
equal reimbursement. As Judge Fallon explained,
“there is a hierarchy of value for work that tends to
have a greater impact on the litigation and generates
more ‘common benefit.’ Such work deserves greater
compensation.” Id. at 772. Judge Fallon explained
further that “in the real and imperfect world of
litigation it is an accepted fact that not all work
hours are entitled to the same compensation rate.
The nature of the work, the skill and experience of
the party doing the work, and the result achieved all
factor into the appropriate allocation. How these
factors are weighed injects an unavoidable amount
of subjectivity in the analysis. The best that can be
done to assure the validity of the analysis is to base
the subjectivity quotient on sufficient facts and
experience, and to invite input from those affected.”
Id. at 774 (emphasis added).
The common benefit allocation process is
intended to provide meaningful input and feedback,
the ultimate goal of which is not to achieve
perfection but rather a result that is fair and
reasonable. Diet Drugs, 2003 WL 21641958 at *6
(noting that applicants had the opportunity to object
to their proposed fee allocation, meet with the fee
committee and discuss their objections, suggest
revisions before a final recommended allocation was
determined, and, if still dissatisfied, seek relief from
the court). As outlined above, the common benefit
allocation
process
here
provided
multiple
opportunities to object and to be heard. Where
appropriate, adjustments have been made in light of
40a

the feedback and information provided for certain of
the applicant firms.
Based upon my review of the objections and
my meetings and discussions with the objecting
firms, it is apparent that some of the objecting firms
are seeking credit for much of the same work. For
example, three of the objecting firms claim that
they deserve more credit than others for the
development or the success of the Ethicon litigation.
Some of these objecting firms worked on the same
trials together and some claim to have developed
some of the same experts and the same litigation
theories and strategy. Certain of these objecting
firms claim that their work that resulted in an early
New Jersey State Court trial verdict provided
substantial benefit to the litigation. However,
another objecting firm argues that the New Jersey
verdict was only of limited value compared to
subsequent trial(s) in which their firm was involved
because the New Jersey verdict addressed only
failure to warn and not design defect. The point of
this observation is not to decide which of these firms
is right or wrong about who deserves the most credit
for the development or success of this litigation. I
have no doubt about the sincerity of these firm’s
beliefs that their contributions were more significant
than those of one another or those of other firms.
However,
these
competing
objections
only
emphasize the point made by several courts in the
common benefit context: the allocation process
necessarily involves a certain level of subjectivity,
and different people could analyze the same work
and come to different conclusions regarding the
value of that work in terms of its benefit to the

41a

litigation overall as to who deserves the most credit
for that work.
Contrary to the urging of certain of the
objecting firms, I am not required to and I did not
attempt to employ any “lodestar” calculation in
making my recommended allocation. Glaberson v.
Comcast Corp., 2016 WL 6276233 (E.D.Pa. 2016) (“a
mathematical application of a ratio of the firms’
lodestars is not mandated” in the allocation of
common benefit attorneys’ fees). It is telling that the
firms advocating for a lodestar approach were among
the most abusive of the Court- ordered time reporting
requirements, submitting excessive time, inadequate
descriptions of work performed, time that provided
minimal to no common benefit and duplicate billings
for the same task, among other violations. Citing to
Judge Fallon’s Vioxx opinion, the Special Master in
Deepwater Horizon observed that “[m]echanically
calculating hours and allocating fees solely on that
basis would incentivize padded hours and diminish
the work that truly moved the litigation towards its
conclusion.” (In re: Oil Spill by the Oil Rig

“Deepwater Horizon” in the Gulf of Mexico, on Apr.
20, 2010, 2:10-md-2179, Doc. 23574-1 (Special

Master’s Recommendation Concerning the Allocation
of Common Benefit Fees) (Oct. 24, 2017), p. 8
(emphasis added)). I similarly find that multiplying
the number of hours submitted by an hourly rate
would only serve to reward firms that abused the
process and would not adequately account for the
wide variations in the value of the benefit of the
work performed by the applicant firms.
While the hours submitted by the various
firms was considered as a part of my analysis, I
reviewed the submitted time and applicant
42a

presentations and materials not to calculate a
“lodestar” but rather in light of the Court’s
overarching instruction to “evaluat[e] what work
and expenses furthered the common benefit of the
litigation.” (Fee Committee Protocol, p. 10). See also,

In re Thirteen Appeals Arising Out of San Juan
Dupont Plaza Hotel Fire Litig., 56 F.3d 295, 307 (1st
Cir.1995) (“While the time logged is still relevant to
the court’s inquiry – even under the [percentage of
fund] method, time records tend to illuminate the
attorney’s role in the creation of the fund, and, thus,
inform the court’s inquiry into the reasonableness of
a particular percentage….”); In re Copley
Pharmaceutical, Inc., Albuterol Prods. Liab. Litig.,
50 F.Supp.2d 1141, 1149-50 (D.Wyo.1999) (“[t]he
value of time expended with appropriate
adjustments may provide a rough starting point for
assessing the respective roles of counsel, but it
should not be used rigidly as a precise measure to
the exclusion of other intangible factors.”).

In addition to the number of hours submitted,
my review of the work performed considered
additional factors in order to determine its quality
and the value it generated towards the overall
litigation and ultimate settlement. For example,
those attorneys who spent their time passively
involved in meetings, reviewing emails, telephone
conferences, or attending hearings or depositions to
merely observe were viewed as not having
contributed to the common benefit on the same level
as those attorneys and firms who undertook critical
aspects of the litigation, such as (1) preparing for
and taking generic liability depositions, (2) meeting
and working with experts, (3) preparing experts for
and defending their depositions, (4) presenting
43a

motions and briefs and oral arguments before the
Court or on appeal, (5) preparing for and
participating in trials and (6) leading settlement
negotiations. In fact, a number of firms submitted
time that conferred no common benefit whatsoever.
I also took into account the length of the applicant
firm’s involvement in the litigation, its overall time
and resource commitment to the case, whether
attorneys in the firm assumed a leadership role, and
the reputation and experience of the attorneys
performing work.
Certain of the objecting firms point out their
participation in the trial of cases, some of which
resulted in verdicts, that they believe were
beneficial to the litigation. I would first point out
that not all work spent related to a given “trial” are
of equal value. Some firms performed the work
related to preparing for and trying the case from the
time the case was identified for trial and their work
continued through the post-trial appeal process.
Others may have provided valuable support at some
point before or during trial, and still others may have
participated in the trial itself, but in different roles.
Moreover, as Judge Fallon observed in the Vioxx
litigation, not all trials are equal in terms of common
benefit and the evaluation of trial-related work must
take into consideration whether and the extent to
which that work was beneficial to others. Vioxx, 802
F. Supp. 2d at 773 (“In allocating common benefit
fees to trial counsel it is important to determine
when the trial occurred, whether the work was
shared with other counsel, whether the work was
helpful in other cases or just in that one case. In this
latter event, it does not mean that such counsel
would not be entitled to some common benefit fee
44a

because there is a salutary rippling effect which a
win or ‘hard fought case’ has on other cases. But it
also does not mean that such counsel may be entitled
to the same common benefit fee as a colleague whose
work was shared with other counsel and had a
meaningful effect on subsequent trials.”). I am aware
that certain of the trials in which the objecting firms
were involved were built upon work product from
others and occurred after the liability case had been
established for the product at issue by others. I am
also aware that certain of the objecting firms
outwardly resisted sharing information and work
product with others, and the value of the trials inured
largely to the clients in those individual cases. All of
these factors must be taken into account.
Finally, some objectors argue that the
outcome reflected in the FCC’s Final Written
Recommendation was predetermined. This allegation
is without merit. I have personal knowledge from my
observation of and participation in the review of
common benefit time and my observation of the
FCC’s analysis of the value of those contributions
that the FCC did not discuss specific allocations
until after all of the submitted time and expense was
evaluated. Certainly, that review and analysis
informed the FCC’s determination about the value of
the common benefit contributions of each applicant
firm, but there was never a discussion of specific
values for allocations until the arduous work of
analyzing the time and expense submitted was
complete. To the extent that any objector—especially
given that they were not present for these
deliberations— alleges otherwise, they are quite
simply misinformed.

45a

I also evaluated each attorney who was
appointed to a leadership position to determine if
they performed common benefit work. In some
instances, certain members of Plaintiffs’ Leadership
did limited work, and in some instances, no
substantive work contributing to the common benefit
of the litigation at all even though this Court made
clear that leadership appointments were individual
in nature. There were members of the MDL PSC
that utilized work product developed in the MDL for
benefit outside of the MDL without making
substantive contribution to the common benefit of
the MDL litigation. Having assisted the FCC in its
evaluation of the efforts and effectiveness of
leadership, I find that the FCC properly evaluated
the contributions of Plaintiffs’ Leadership. I did
consider that PSC firms contributed substantial
capital to fund the litigation. Where appropriate,
I considered information that was harmful to the
advancement of the litigation. Actions by certain
attorneys caused the Plaintiffs’ Leadership and the
FCC to incur significant additional costs and were
disruptive to the advancement of this litigation.
These negative consequences to the litigation as a
whole are referred to as “common detriment,” and I
was directed to consider common detriment pursuant
to the Protocol and the FCC Orders.
My methodology in assigning a percentage to
each applicant firm of the aggregate award based on
the firm’s relative contribution to the outcome of the
litigation is consistent with the methodology in
similar multi-plaintiff product liability MDLs,
including those in which I have served in a similar
role. In In re Nuvaring Prods. Liab. Litig., 2014 WL
7271959, *2 (E.D.Mo.2014), the MDL court affirmed
46a

my recommended allocation of common benefit fees
that was based on the quality and value of the work
performed rather than on a “lodestar” analysis of
rates multiplied by hours. Id. at *6. Likewise, in
the In re Yasmin and Yaz Prods. Liab. Litig. MDL,
I recommended an allocation based on the quality
and value of the work to the litigation and resolution
and I expressly declined the “lodestar” approach as
both arbitrary and inappropriate because it would
not properly consider the value and quality of the
work involved. In re Yasmin and Yaz Prods. Liab.
Litig., 3:09-md-02100, Doc. 3843 (Special Master’s
Report and Recommendation Regarding the
Allocation and Distribution of Common Benefit Fees
and Expenses) (S.D.Ill. Nov. 6, 2015), pp. 7-8. The
Yaz MDL Judge, the Hon. David R. Herndon,
adopted my allocation recommendation in its
entirety. Id., Doc. 3856 (Minute Order adopting
Special Master’s recommended allocation in its
entirety) (S.D. Ill. Nov. 20, 2015).
The First Circuit in In re Thirteen Appeals

Arising Out of San Juan Dupont Plaza Hotel Fire
Litig., 56 F.3d 295, 307-08 (1st Cir.1995), expressly

held that “in a common fund case the district court,
in the exercise of discretion, may calculate counsel
fees either on a percentage of the fund basis or by
fashioning a lodestar…. [W]e rule the court below
did not err in purposing to allocate fees based on the
[percentage of fund] method, emphasizing the
attorneys’ ‘relative contribution’ to the creation of
the Fund.” Similarly, the MDL court in In re FEMA
Trailer Formaldehyde Prods. Liab. Litig., 2013 WL
1867117, *4-*15 (E.D.La.2013) approved the
common benefit fee allocation proposed by the
steering committee and the court-appointed special
47a

master, which awarded a stated percentage of
available common benefit fees to each of the firms
applying for common benefit. Similarly, in In re
Prempro Prods. Liab. Litig., 2014 WL 3809101, *1-*2
(E.D. Ark. 2014), the MDL court adopted a
percentage-based common benefit allocation as
recommended by fee committee and proposed by
the special master.
More recently, in In re

Fresenius Granuflo/Naturalyte Dialysate Prods.
Liab. Litig., MDL 2428 (“Granuflo”), the court-

appointed fee committee recommended an allocation
to each applicant firm of a percentage of the total fee
award based on the committee’s experience and the
facts submitted and after receiving input from the
interested firms. Granuflo, 1:13-md-2428, Doc. 1983
(Memorandum in Support of Plaintiff Leadership’s
Petition for Award and Allocation of Common Benefit
Fees) (D.Mass. Dec. 12, 2017). The fee committee in
Granuflo emphasized in its petition that it did not
undertake to apply “an unyielding mathematical
formula,” which it noted could not properly account
for the subjective differences that must be considered
in making such an award, such as the differing skills
and contributions of the attorneys and varying
nature and complexity of the tasks involved. Id.,
p. 22. The MDL court approved the committee’s
recommendation. Granuflo, 2018 WL 2163627
(D.Mass.2018).
At the time of this Recommendation, half of
the objectors to the FCC’s Final Written
Recommendation have agreed to withdraw their
objection. This is a direct result of the more than
adequate Due Process safeguards put into place by
the Court in the Fee Protocol and its implementation
by the FCC. It is further a testament to the
48a

reasonableness of certain objectors and the FCC, as
well as a willingness to reach compromise despite
good faith disagreements concerning the ultimate
common benefit value provided by a particular firm.
Only four objectors remain, and I discuss each in
turn below. I am satisfied that the methods
employed by the FCC, as well as my methodology in
making allocations, is consistent with applicable
precedent, as well as the directives given to me by
this Court. For each of the four firms that continue
to
object
to
the
FCC’s
Final
Written
Recommendation
after
my
meetings
and
conversations with them, I make the following
findings and recommendations regarding allocation
of common benefit funds:
1. Anderson Law Offices: I received the
materials submitted by this objector, met
with this objector and considered the
contribution of the firm to the common
benefit of the litigation. I participated in
observing the review of the hours submitted
by this objector, and I remain concerned
regarding the hours submitted by this
firm. In balancing the information gained
from representatives of this objector with
the information gleaned from the evidence
developed throughout the common benefit
review process under the Protocol, I
recommend an increase of 0.1142858%
which when considered in light of the
anticipated $350,000,000 initial fund for
distribution for common benefit fees
results in an effective increase of
$400,000.00. This increase in the
recommended award results in a total
49a

percentage of 2.1742858%% as reflected in
Exhibit 1 hereto.
2. Bernstein Liebhard: I received the
materials submitted by this objector, met
with this objector and considered the
contribution of the firm to the common
benefit of the litigation. In balancing the
information gained from representatives
of this objector with the information
gleaned from the evidence developed
throughout the common benefit review
process under the Protocol, I recommend
an increase of 0.1285715% which when
considered in light of the anticipated
$350,000,000 initial fund for distribution
for common benefit fees results in an
effective increase of $450,000.00. This
increase in the recommended award
results in a total percentage of 0.3978090%
as reflected in Exhibit 1 hereto.
3. Kline & Specter: I received the materials
submitted by this objector, met with this
objector and considered the contribution of
the firm to the common benefit of the
litigation. In making my recommendation,
I reviewed and considered the time and
effort expended by this objector and
recognize that a great deal of their work
was done in individual cases filed in the
Court of Common Pleas in Philadelphia,
Pennsylvania. Most of the information and
argument during our meeting was related
to the number of State Court cases they
had tried with successful verdicts, their
continuing trials of cases, the number of
50a

cases accepted by other plaintiffs’ counsel,
and the settlement value of cases obtained
by other firms. In balancing the
information gained from representatives of
this objector with the information gleaned
from the evidence developed throughout
the common benefit review process under
the Protocol, I recommend no change in the
amount allocated for common benefit fees
as reflected in Exhibit 1 hereto.
4. Mazie Slater Katz & Freeman: I received
the materials submitted by this objector,
met with this objector and considered the
contribution of the firm to the common
benefit of the litigation. In making my
recommendation,
I
reviewed
and
considered the time and effort expended by
this objector and recognize that a great
deal of their work was done in individual
cases filed in the state courts of New
Jersey and that multiple firms sought
compensation for the same work as was
sought by this objector. I first met with
Mssrs. Slater and Mazie as representatives
of this objector after the firm’s objection to
the
FCC’s
Preliminary
Written
Recommendation in their offices in
Morristown, NJ together with Mssrs.
Thomas Cartmell and Jeff Kuntz. The
meeting was unproductive. I later met with
the objector again in St. Louis during my
process of attempting to resolve objections
to the Final Written Recommendation.
While the meeting was very cordial, and
arguments were made, it still appeared to
51a

me that the objector’s central argument
was that early cases tried in New Jersey as
well as the one expert developed by Mr.
Slater were almost solely responsible for
the success of all of the MDLs. I was
unable to arrive at any amount of common
benefit compensation that would be
reasonable in amount and satisfactory to
the objector. In balancing the information
gained from representatives of this objector
with the information gleaned from the
evidence
developed
throughout
the
common benefit review process under the
Protocol, I recommend no change in the
amount allocated for common benefit fees
as reflected in Exhibit 1 hereto.
III.

REIMBURSEMENT
OF
EXPENSES AND HELD COSTS

SHARED

The common fund doctrine also authorizes
reimbursement of the reasonable amounts paid outof-pocket to achieve a common benefit recovery or to
advance the common goals of all plaintiffs in MDL
litigation. As discussed above, this Court
previously ordered that 5% of all proceeds of cases
be held back for “payment of attorneys’ fees and
approved common benefit and MDL expenses.” The
common benefit attorneys have incurred a
substantial amount in common benefit “held”
expenses and the PSC funded substantial “shared”
expenses to advance the litigation. These expenses
include, but are not limited to: housing all of the
discovery produced by the parties to this litigation
and making it searchable and accessible to all
common benefit attorneys; travel costs for attending
depositions around the country and in Europe;
52a

expert fees and expenses; deposition transcript and
video costs; hearing transcript costs; PSC group
administration matters, such as meetings and
conference calls; and other litigation expenses,
including the significant costs of preparing for and
trying the MDL bellwether and consolidated trials to
verdict and handling of the defendants’ appeals of
those verdicts. All the submitted expenses were
audited and inappropriate or excessive expenses
were disallowed or reduced.
Through my participation in the FCC’s review
of expenses submitted by each common benefit
attorney, I observed that the same due process
protections provided to applicant firms with regard
to common benefit time submissions were also
applied to the review of expense submissions. The
FCC ensured that each request complied with this
Court’s direction as set forth in the Protocol and the
FCC Order. All the expenses that the FCC has
recommended for reimbursement were incurred in
the ordinary course of litigation for the common
benefit of all plaintiffs and are reasonable. I also
note that additional common benefit expenses will be
incurred for the further administration of the
litigation, and therefore, funds should be maintained
in the common benefit fund until the litigation is
concluded.
IV.

ALLOCATION OF COMMON BENEFIT
FEES, SHARED EXPENSES AND HELD
COSTS

Based upon all of this work, I made my
determination for each firm independently of the
FCC. The FCC’s process for evaluation of firms was
the most thorough that I have ever encountered.
53a

While I am convinced that the FCC process was
thorough and fair, I did reach different conclusions
as to a number of firms - including adjusting
allocations for firms on the FCC. For those firms
which did not accept the FCC recommendation and
objected to the Final Written Recommendation of
the FCC, I engaged in discussions with those firms
in an attempt to reach a global consensus.
The allocations of fees and expenses are
attached as Exhibits 2 and 3, and for the detailed
reasons
set-forth
herein,
I
make
the
recommendation that this Court approve these
allocations. Further, it is anticipated that additional
monies will be added to the common benefit fee fund
as additional cases are resolved, although the precise
amount is incapable of determination at this time. I
recommend that the Court (1) allocate thirty percent
(30%) of future funds received in the MDL common
benefit fund as being subject to future orders of the
Court regarding payment; and (2) allocate seventy
percent (70%) of future funds received in the MDL
common benefit fund amongst applicant firms
utilizing the same percentages as set forth in this
Recommended Allocation. Any future distributions
of the thirty percent (30%) should be at an
appropriate time and method as directed by this
Court, and it is my recommendation such
distributions must be made upon Order of the Court.
V.

CONCLUSION

For the reasons set forth above, in my capacity
as External Review Specialist, I respectfully request
that this Court adopt my Recommended Allocation,
including the following:

54a

1. To approve the allocation of common benefit
fees as set forth in Exhibit 1, and order that
those funds be distributed from the common
benefit fund account to those firms promptly;
2. To approve the reimbursement of common
benefit expenses as set forth in Exhibit 2, and
order that those amounts be distributed
from the common benefit fund account
promptly;
3. To allocate thirty percent (30%) of future
funds received in the MDL common benefit
fund as being subject to future orders of the
Court regarding payment; and
4. To allocate seventy percent (70%) of future
funds received in the MDL common benefit
fund amongst applicant firms utilizing the
same percentages as set forth in this
Recommended Allocation in Exhibit 1.
Respectfully submitted this 11th day of March,
2019.
/s/ Daniel J. Stack, Court Appointed External
Review Specialist
Daniel J. Stack
1529 Anton Drive
Columbia, IL 62236
618-792-8604

55a

Exhibit 3

61a

APPENDIX E
IN THE UNITED STATES DISTRICT COURT FOR
THE SOUTHERN DISTRICT OF WEST VIRGINIA
CHARLESTON DIVISION

IN RE: C.R. BARD, INC., PELVIC
REPAIR MDL SYSTEM PRODUCTS
LIABILITY LITIGATION
MDL No. 2187
IN RE: AMERICAN MEDICAL SYSTEMS,
INC. PELVIC REPAIR SYSTEMS
PRODUCTS LIABIILITY LITIGATION
MDL No. 2325
IN RE: BOSTON SCIENTIFIC CORP.,
PELVIC REPAIR SYSTEM PRODUCTS
LIABILITY LITIGATION
MDL No. 2326
IN RE: ETHICON, INC., PELVIC
REPAIR SYSTEM PRODUCTS
LIABILITY LITIGATION

MDL No. 2327

IN RE: COLOPLAST CORP., PELVIC
REPAIR SYSTEM PRODUCTS
LIABILITY LITIGATION
MDL No. 2387

62a

IN RE: COOK MEDICAL, INC.,
PELVIC REPAIR SYSTEM PRODUCTS
LIABILITY LITIGATION
MDL No. 2440
IN RE NEOMEDIC PELVIC REPAIR
SYSTEM PRODUCT LIABILITY
LITIGATION
MDL No. 2511

This Document Relates To All Cases
Final Written Recommendation of the Common
Benefit Fee and Cost Committee Concerning the
Allocation of Common Benefit Fees and the
Reimbursement of Shared Expenses and Held Costs
COMES NOW, The Common Benefit Fee and
Cost Committee (“FCC”) and issues its Final Written
Recommendation concerning the allocation of
common benefit fees and the reimbursement of
shared expenses and held costs.
1.

Formation of the FCC:

The Court, on January 15, 2016, entered its
Pretrial Order Establishing Criteria for Applications
to the MDL Fund to Compensate and Reimburse
Attorneys for Services Performed and Expenses
Incurred for MDL Administration and Common
Benefit and Appointment of Common Benefit Fee
and Cost Committee in MDL Nos. 2187, 2325, 2326,
63a

2327, 2387, 2440, and 2511 (the “FCC Order”).1 Much
like the litigation had been conducted by a cross-MDL
leadership team tasked with working across MDL
lines, the FCC Order appointed nine individuals to
serve as members of the Common Benefit Fee and
Cost Committee for purposes of recommending an
allocation of a singular common benefit fund. The
nine members of the FCC are Chairperson Henry
G. Garrard III (Blasingame, Burch, Garrard &
Ashley), Renee Baggett (Aylstock, Witkin, Kreis &
Overholtz), Riley L. Burnett, Jr. (Burnett Law
Firm), Thomas P. Cartmell (Wagstaff & Cartmell),
Clayton A. Clark (Clark, Love & Hutson), Yvonne
M. Flaherty (Lockridge, Grindal, Nauen), Carl N.
Frankovitch (Frankovitch, Anetakis, Colantonio &
Simon), William H. McKee, Jr., and Joseph F. Rice
(Motley Rice).2
On June 23, 2017, the Court entered its
Pretrial Orders establishing the Fee Committee
Protocol for the review and evaluation of time and
expense for consideration by the FCC (the
“Protocol”).3 Pursuant to the terms of the Protocol,
on October 13, 2017, the Court entered its Order
Bard MDL 2187 PTO 207, AMS MDL 2325 PTO 204, BSC
MDL 2326 PTO 136, Ethicon MDL 2327 PTO 211, Cook MDL
2440 PTO 71, Coloplast MDL 2387 PTO 85, Neomedic MDL
2511 PTO 23.
1

The FCC members have no financial arrangement with one
another with regard to the payment of funds associated with
common benefit awards. Each member’s conduct is independent
and guided by the Court’s Orders.
2

Bard MDL 2187 PTO 257, AMS MDL 2325 PTO 244, BSC
MDL 2326 PTO 166, Ethicon MDL 2327 PTO 262, Cook
3

MDL 2440 PTO 81, Coloplast MDL 2387 PTO 133,
Neomedic MDL 2511 PTO 38.

64a

Granting Motion to Appoint the Honorable Daniel J.
Stack, Retired, as External Review Specialist to
work with the FCC in accomplishing the Court’s
directives under the FCC Order and the Protocol.4
2.

History of the Litigation:

The pelvic mesh multi-district litigations
(“MDLs”)
pending
before
this
Court
are
unprecedented. What began with the Judicial Panel
on Multidistrict Litigation’s order consolidating 36
individual cases involving the Avaulta line of pelvic
organ prolapse repair devices—sold by C.R. Bard,
Inc. (“Bard”)—in 2010, ultimately led to the
consolidation of seven multidistrict litigations
(“MDLs”) in the Southern District of West Virginia.5
As pelvic mesh cases began to be filed against
various pelvic mesh defendants in different federal
courts, the firms involved in leadership came
together to discuss potential MDL strategy. In light
of the presence of numerous cases where a single
plaintiff was implanted with multiple products, and
the similar defects and complications associated with
the various products, the firms involved in the
leadership of the litigation decided to request the
JPML to send all of the pelvic mesh cases to this
Court for coordination pursuant to 28 U.S.C. § 1407.
The JPML agreed, holding that the presence of
Bard MDL 2187 Doc. No. 4663, AMS MDL 2325 Doc. No 5112,
BSC MDL 2326 Doc No. 4422, Ethicon MDL 2327 Doc. No. 4783,
Cook MDL 2440 Doc. No. 592, Coloplast MDL 2387 Doc. No.
1572, Neomedic MDL 2511 Doc. No. 177.
4

In re Avaulta Pelvic Support Sys. Prods. Liab. Litig. (later
expanded to include a range of other pelvic repair mesh
devices sold by Bard, and renamed the C.R. Bard, Inc. Pelvic
Repair Sys. Prod. Liab. Litig. ), 746 F.Supp.2d 1362, MDL No.
2187 (J.P.M.L. 2010).
5

65a

several common fact issues shared by all MDLs,
and the fact that many individual cases involved
the implantation of multiple products from different
manufacturers, supported centralization of all of
these products before the same Court. In re

American Med. Sys., Inc., et al., Pelvic Repair
Systems Prods. Liab. Litig. , 844 F.Supp.2d 1359,

1360-61 (J.P.M.L. 2012) (“The actions in each MDL
share factual issues arising from allegations of
defects in pelvic
surgical
mesh
products
manufactured by AMS, Boston Scientific, and
Ethicon, respectively. Centralization therefore will
eliminate duplicative discovery; prevent inconsistent
pretrial rulings; and conserve the resources of the
parties, their counsel and the judiciary .”; “Chief
Judge Joseph R. Goodwin of that district is
currently presiding over MDL No. 2187, which
involves claims of defects in similar pelvic surgical
mesh products, and is uniquely situated to preside
over the similar claims in these three MDLs. The
pelvic surgical mesh products at issue in MDL Nos.
2325, 2326, and 2327 are used to treat similar
conditions as those at issue in MDL No. 2187, and
they have allegedly resulted in similar injuries….
Finally, a number of these actions are brought by
plaintiffs who were implanted with multiple
products made
by multiple manufacturers.
Centralization of the three MDLs in one court will
allow for coordination of any overlapping issues of
fact in such multi-product, multi-defendant
actions.”) (Emphasis added).
At the request of the Plaintiffs, the MDL
Panel sent four additional MDLs to this Court in

66a

2012, another in 2013, and a seventh MDL in 2014. 6
These seven (7) related pelvic mesh MDLs involved
different medical device manufacturers along with
other related defendants, and included dozens of
related pelvic mesh devices.7 Never before in the
history of MDL practice has the JPML sent multiple,
large-scale product liability MDLs involving
different products and manufacturers to a single
MDL court for inter-MDL coordinated proceedings.
The pelvic mesh litigation coordinated before this
Court ultimately grew to include 104,836 filed cases,
comprising one of the largest mass tort litigations in
history. 8
As explained in the Plaintiffs’ Proposed
Counsel Organizational Structure (a copy of which is
attached hereto as Exhibit 1), which was submitted to
the Court on March 17, 2012, the common medical,
scientific and legal claims and theories, common
defenses, and common experts, as well as the
presence of numerous plaintiffs implanted with
different defendants’ products, called for a singular
“cross-MDL” Plaintiffs’ leadership structure. The
In re American Med. Sys., Inc., et al., Pelvic Repair Systems
Prods. Liab. Litig. , 844 F.Supp.2d 1359, MDLs Nos. 2325, 2326,
2327 (J.P.M.L. 2012) (3 separate MDLs); In re Coloplast Corp.
Pelvic Repair Support Sys. Prods. Liab. Litig., 883 F.Supp.2d
1348, MDL 2387 (J.P.M.L. 2012); In re Cook Medical, Inc.,
Pelvic Repair Sys. Prods. Liab. Litig., 949 F.Supp.2d 1373,
MDL 2440 (J.P.M.L. 2013); In re Neomedic Pelvic Repair Sys.
Prods. Liab. Litig. , 999 F.Supp.2d, MDL 2511 (J.P.M.L. 2014).
6

For example, the Bard MDL 2187 involved claims against
two international medical device companies (C.R. Bard, Inc.
and subsidiaries of Covidien, PLC (now Medtronic)), both of
which represented by different counsel.
7

Illustrating the impact of this litigation, the filing fees ($450
per case) for this number of cases totals $47,176,200.
8

67a

Proposed Counsel Organizational Structure was
vetted and agreed upon by every attorney who was
included in the proposal. As stated in the Proposed
Counsel Organizational Structure, “[t]his [singular
leadership] structure is the product of numerous
meetings and many more conversations by
attorneys from across the country who have devoted
a substantial amount of time, effort and resources
into the investigation and development of these
cases, and who are committed to working together
for the mutual interests of their respective
clients…. The serious health risks generally
associated with these women’s pelvic repair products
also warrant legal inquiry that is not confined to a
single product or manufacturer…. [T]he problems
associated with transvaginal mesh products are
inherent in the use of mesh in the female pelvic
region, and thus are not limited to any one product.
Instead, these are issues that need to be explored
and addressed globally. Many experts for both
Plaintiffs and Defendants will traverse company
and product lines. The efficient conduct of these
cases will require coordination by Plaintiffs’ counsel
across MDL lines, while still maintaining the
[multiple] MDL’s. Additionally, discovery relating to
corporate liability issues will involve common
themes, and coordination between the four MDL’s
will be beneficial.” The Proposed Counsel
Organizational Structure further stated as follows:
The interrelationship between these products
is but one significant issue that lends itself to
coordinated investigation across MDL lines….
In light of the interrelationship between the
products, the serious health problems generally
associated with these devices, and the commonality
68a

of the defenses anticipated in every case, a
coordinated and unified leadership that spans the
four related pelvic repair product MDL’s before this
Court is essential to the effective and efficient
prosecution in these cases….
Perhaps most importantly, because of the
interrelationship between these MDL’s in terms of
common product defect allegations, similar injuries,
and the prevalence of cases involving multiple
products by the various defendants, the leadership
structure in these MDL’s should be composed of
attorneys who have the ability and the expressed
desire to work with one another in a concerted effort
to seek a timely and just resolution of these cases….
As set forth in more detail below, the
undersigned propose a Coordinating Co-Lead
Counsel, an Executive Committee made up of CoLeads for each MDL, and a singular PSC all to
coordinate across MDL lines. If such proposal is
accepted by the Court, then the Coordinating CoLead Counsel in conjunction with the Executive
Committee will be able to work across MDL lines in
conjunction with one PSC to determine which
lawyers are best suited to handle a given Task….
Many of these tasks will not be MDL-specific, but
rather will be common issues that will need a
coordinated effort. It is also the intent that the
Coordinating Co-Lead Counsel will be in a position to
determine when separate groups from the PSC
should be designated to work on MDL-specific issues
that do not cross MDL lines. However, it is vital to
this proposal that there be a cohesive and
coordinated structure that spans these four related
MDL’s so as to best achieve the efficiency and
69a

effectiveness of representation that will move this
litigation forward.
[T]his proposal calls for a singular PSC to
coordinate across MDL lines in four separate MDL’s,
each of which involves a different manufacturer (and
related defendants in some cases) and several
different products….
The undersigned submit that a PSC composed
of a significant number of attorneys is necessary to
accommodate the large amount of work that will be
necessary to prepare these cases effectively, and
with many coordinated litigation activities occurring
simultaneously across MDL lines.
At the Initial Case Management Conference in
the first of the additional related pelvic mesh MDLs
transferred to this Court, the Court made clear its
intent to coordinate and consolidate across MDL lines
to the fullest possible extent, stating “[i]n its most
simplistic form, we have similar pelvic mesh
products manufactured by different defendants
that allegedly caused a variety of injuries to
women. We suspect and we hope that there are
commonalities among the four MDLs, and
[Magistrate] Judge Stanley and I believe that the
most efficient way to handle the four MDLs,
particularly for discovery purposes, is to coordinate
them as much as possible…. I believe that the most
efficient way to handle the four MDLs is to
consolidate as much as possible.” (April 13, 2012
Hearing T., 33:1-15) (Emphasis added). The Court
similarly observed that “[a] coordinated and unified
Plaintiffs’ leadership team that spans the four related
pelvic repair mesh MDLs before this Court is

70a

essential to the efficient, effective prosecution…of
this case.” (Id., 22:19-22).
The Plaintiffs’ lawyers involved in the
litigation from the outset foresaw the onerous task
that lay ahead and assembled a Plaintiffs’ Steering
Committee (“PSC”) of 61 attorneys from law firms
across the country, who were ultimately appointed
and assigned by the Court the responsibility of
marshaling resources and leading this sprawling
litigation under a unified leadership structure. The
Court entered Orders in each of the MDLs stating
that “[i]t shall be the responsibility of Coordinating
Co-Lead Counsel to work across MDL lines in
conjunction with the Executive Committee named
below to determine which attorneys are best suited
to handle a given task….” and appointing “[a]
singular PSC to coordinate across MDL lines in the []
separate pelvic mesh MDLs before this court….”
(Emphasis added).9
As envisioned and directed by the Court, the
Court-appointed PSC coordinated and collaborated
across MDL lines to plan the litigation strategy,
develop theories and confront legal issues, identify
experts, and ultimately bear the cost and expended
the labor necessary to develop the general liability
cases against numerous products made and sold by
a variety of corporate defendants. This singular
PSC and leadership structure enabled such
coordinated development of litigation strategy and
theories and allowed the work product from one
MDL to be utilized across product and manufacturer
Bard MDL 2187 PTO 33, AMS MDL 2325 PTO 4, BSC MDL
2326 PTO 4, Ethicon MDL 2327 PTO 4, Cook MDL 2440 PTO
4, Coloplast MDL 2387 PTO 2, Neomedic MDL 2511 PTO 7.
9

71a

lines. Important legal decisions by the Court and by
counsel impacted all MDLs due to the commonality
of the products and issues involved. This single,
unified leadership structure was also necessary to
avoid potential conflicts and cross-purpose work.
As anticipated, the time, effort and expense of
simultaneously pursuing and developing multiple
legal theories against a range of products
manufactured and sold by a disparate group of
defendants, has been enormous.
The defendants in these MDLs are several of
the largest medical device manufacturers in the
world, and this litigation has been vigorously
defended by this country’s largest and most
experienced medical device defense law firms.
Prosecuting multiple MDLs simultaneously before
one court presented unique logistical and procedural
difficulties and taxed the resources of the firms
leading this litigation. To address the economic
disparity between the parties, the PSC firms were
required to expend tens of millions of dollars to
prosecute this massive litigation. The PSC firms
contributed a total of $17,825,000 in common benefit
assessments, which were used to fund the litigation
generally. “Held costs” in the amount of
$28,986,811.38 were recognized by the FCC as
common benefit, which have not yet been reimbursed
out of the MDL fund. An additional $12,037,448.66
has been paid from the common benefit fund as
costs associated with general expert fees, special
master fees, data warehousing and management
fees, and to the Court-appointed accountant
overseeing the MDL fund. These costs continue to be
incurred and to be paid from the common benefit
fund.
72a

At
the
outset,
Plaintiffs’
leadership
undertook to define the parameters of the litigation
through Master Pleadings, Plaintiff Profile Forms
and Plaintiff Fact Sheets, and pushed the litigation
forward through a series of procedural and
scheduling orders. After establishing these baseline
documents and schedules, Plaintiffs’ leadership
undertook the onerous process of discovery.
Discovery in these cases was among the first
areas to be tackled by leadership. ElectronicallyStored Information protocols and search parameters,
plaintiff and defendant fact sheets/profile forms,
joint records collection, protective orders, and
procedures for the collection and preservation of
pathology were the subject of intense negotiation,
and in several instances, disputes with defendants.
Because certain of the Defendants had been involved
in prior litigation relating to the same products,
Plaintiffs’ leadership undertook the motions practice
necessary to obtain documents produced by those
Defendants in those prior cases over their objection.
The number of different products, defendants, and
related third parties (materials processors,
component or materials manufacturers), necessitated
multiple rounds of written discovery and ESI term
search requests to defendants related to a variety of
subjects and from a number of non-party sources.
Plaintiffs’ leadership established and funded the
shared electronic document depository (Crivella
West) where all defense-produced documents and
other important materials were made accessible to
all MDL plaintiffs’ counsel in searchable format.
Plaintiffs’ leadership identified the important issues
in these cases and created “issue codes” for purposes
of document review, and documents were reviewed
73a

and “coded” according to their relevance. Plaintiffs’
leadership and other Participating Counsel10
reviewed and analyzed Defendants’ discovery
responses and objections and handled disputes
regarding confidentiality, privilege and work product
claims by the defense, typically by way of informal
meet and confer, but occasionally necessitating
motions practice before the Magistrate Judge or the
Court. Other discovery disputes necessitated
numerous meet and confers with defense counsel,
discovery conferences with the Court’s Magistrate
Judge, and motions to compel or responses to
motions for protective order or motions to quash.
The production of documents in these cases was
voluminous. To date, more than 21,504,590
documents totaling over 199,740,958 pages have
been produced across the pelvic mesh MDLs, and
production is on-going in some of the MDLs.
Plaintiffs’ leadership was responsible for the
oversight and coordination of this massive review
effort and bore responsibility for culling the
thousands of documents used in expert preparation
and the preparation of these cases for trial, and at
trial, and identification of important documents for
use by other attorneys with cases in these MDLs.
Depositions were taken in these MDLs by
Plaintiffs’ leadership and other Participating
Counsel of a variety of former and current employees
of the defendants, including representatives from
As used in this Petition, “Participating Counsel” has the
same definition as that set forth in the Agreed Order Regarding
Management of Timekeeping, Cost Reimbursement and
Related Common Benefit Issues, to wit: “‘Participating Counsel’
are counsel who subsequently desire to be considered for
common benefit compensation….”
10

74a

sales and marketing, regulatory, post-market
surveillance,
manufacturing,
research
and
development/product design, risk management, as
well as managerial and executive employees. More
than two-hundred (200) individual and 30(b)(6)
corporate depositions were eventually taken of the
Defendants in these MDLs. Plaintiffs fought multiple
“apex” motions relative to depositions sought of
Defendants’ executive employees. The cases also
involved
significant
third-party
depositions,
including depositions of “key opinion leader
physicians,”
representatives
of
medical
organizations who issued “position statements” in
support of the products at issue, and various
individuals and entities that participated in the
design or testing of the devices or that manufactured
or processed components or materials used in the
pelvic mesh products.
The scope and complexity of these MDLs also
complicated expert discovery. Plaintiffs’ leadership
was required to identify and cultivate general
experts from an array of scientific and medical
fields, from biomaterials, pathology, physicians
(including pathologists, pelvic pain specialists,
urologists, gynecologists and Female Pelvic
Reconstructive Surgeons) to regulatory.
The theories and concepts relating to the
defective design of the TVM devices in these MDLs –
what made these devices problematic in the female
pelvis – required knowledge of the applicable
anatomy, medicine, and the scientific principles and
literature applicable to synthetic and biologic
surgical mesh devices. Proving to a jury the complex
scientific and medical reasons that these products
caused the Plaintiffs’ injuries required education.
75a

Plaintiffs’ leadership developed and presented expert
reports addressing the important scientific product
defect principles, such as the in vivo degradation of
polypropylene, chronic and excessive foreign body
reaction to the mesh, inadequate pore size (scarinduced mesh contracture), mechanical instability,
anatomical mismatch, mesh arm “sawing,” and
asymmetrical mesh contracture utilized across all
MDLs.
Due to the number of products and
defendants involved, as well as the number of cases
that were ultimately worked up towards potential
trial, the plaintiffs’ leadership were required to
develop numerous qualified experts from a relatively
limited pool. Because much of the innovation related
to these products occurred in Europe, several of the
foremost plaintiffs’ experts were in Europe, which
entailed additional expense and effort as a result of
travel, translation and compliance with foreign
applicable law regarding discovery. Several of these
experts conducted extensive laboratory testing of the
materials and products involved utilizing a variety of
laboratory and scientific equipment, and plaintiffs’
leadership oversaw the issuance of extensive reports
outlining, in detail, these experts’ medical and
scientific findings and opinions.
For example,
biomaterials
experts
conducted
testing
to
demonstrate scientifically the phenomenon of mesh
degradation,
showing
through
microscopic
photographs actual images of degraded mesh that
had been removed from the bodies of plaintiffs. The
potential for mesh degradation, and the clinical
effects, was vigorously disputed by the defense.
Establishing this important theory through scientific
testing (which was admitted despite repeated
76a

Daubert challenges) was key to conveying these
matters to a jury. Pathology experts examined
numerous explanted mesh samples and pathology
slides from plaintiffs under electron microscopy to
explain the chronic negative effects of body’s
reaction to the mesh and the results of scarification
of tissue due to the mesh design. Plaintiffs’ experts
conducted testing and developed demonstrative
exhibits, including 3D models, to show how the
design of these products caused asymmetrical
contracture, which pulled the mesh and caused
chronic pain and sexual dysfunction. These tests and
exhibits demonstrated the experts’ theories and
opinions in a tangible way.
Ultimately, Plaintiffs’ leadership identified
and served 84 Rule 26 Reports for 52 general
plaintiffs’ experts. As anticipated from the outset,
many of Plaintiffs’ experts designated by leadership
to provide general testimony crossed MDL lines.
Nineteen of Plaintiffs’ 52 experts (36.5%) provided
general expert testimony in more than one MDL,
while nine (17.3%) provided testimony in more than
three or more MDLs.
Defendants likewise had their own respective
teams of experts, and Plaintiffs’ leadership was
responsible for preparing for and taking their
depositions. One hundred nine (109) general
experts were identified by the defense in these
cases, and nearly all of them were deposed by
Plaintiffs’ leadership, some of them multiple times.
Many of the defense experts issued voluminous
reports, citing to reams of scientific testing and
clinical and animal study results, all of which had to
be meticulously reviewed and analyzed by Plaintiffs’
leadership, and ultimately addressed by way of
77a

cross-examination, Daubert motions and testimony
from Plaintiffs’ experts.
While some of the MDL defendants undertook
early efforts to attempt to compromise, most made
clear that they had no interest in settlement, at
least not without first trying multiple cases. This
necessitated the preparation of numerous cases for
trial across the MDLs, which process was handled
and overseen by Plaintiffs’ leadership. Some of the
trial selection cases were resolved prior to trial, but
only after all of the extensive pre-trial work had
been done and the cases were ready for trial.11
Preparing a case for trial in these MDLs was an
expensive and difficult undertaking in light of the
complexity of the issues involved, and the number of
fact and expert witnesses whose testimony is
necessary to meet the burden of proof and to
address the litany of defenses asserted. Every MDL
trial case entailed additional rounds of motions and
briefing on procedural and substantive legal issues,
arguments over deposition designations and other
evidence to be offered at trial and a variety of other
pre-trial issues.
Following initial “bellwether” trials, the Court
ordered several successive “waves” of cases to be
prepared for trial in several of the MDLs. Each of
these waves consisted of dozens, if not hundreds, of
individual plaintiffs. These trial waves required an
extensive amount of orchestration and effort in a
condensed time frame by Plaintiffs’ leadership.
The FCC also recognized as common benefit time expended
preparing for and trying cases in certain state court venues,
provided that the cases were the first involving the product at
issue to be tried.
11

78a

These hundreds of wave cases necessitated the
identification and depositions of numerous general
experts for both plaintiff and defense, and an
intensive general motions practice that involved
briefing of dozens of additional dispositive, Daubert
and in limine motions. The same legal issues had to
be addressed by Plaintiffs’ leadership under
numerous different states’ substantive law.
Responses to these motions prepared by leadership
were then provided to other MDL counsel, and
served as the template for responses in future trial
selection or remanded cases.
Plaintiffs’ leadership oversaw the preparation
of case-specific discovery to be served by individual
plaintiffs on the defendants in the wave process
and led efforts to ensure consistent responses from
the Defendants to this discovery. To assist the
several firms outside of leadership who had cases
included in the bellwether process and later in the
trial waves, Plaintiffs’ leadership conducted, and
continue to conduct, in-person educational sessions in
various locations throughout the country to help
educate these attorneys about the liability case
generally, as well as how to handle the individual
case-specific issues in their cases, such as preparing
for and taking plaintiff and treating physician
depositions and responding to the motions
anticipated from the defense. Educational materials,
including legal and factual outlines, template
response briefing, sample expert reports, collections
of important documents, corporate deposition
transcripts and exhibits, sample plaintiff and doctor
depositions, deposition outlines, trial exhibits and
trial transcripts, were prepared by leadership and
provided to or made available to counsel for the MDL
79a

plaintiffs. Expert reports and expert depositions for
both Plaintiffs’ and Defendants’ general experts, as
well as all corporate and third-party depositions,
were also made available to MDL Plaintiffs’ counsel
by way of the Crivella West shared document
depository.
During the course of the pelvic mesh MDLs
pending in this Court, volumes of pre-trial, trial and
post-trial motions have been argued and decided and
orders have been issued by the Court pursuant to the
laws of many different states, including: Daubert
motions against nearly every expert (and other
witnesses); summary judgment motions on issues
relating to design defect, punitive damages,
warnings sufficiency, the learned intermediary
doctrine, preemption, statute of limitations, general
causation and specific causation; and numerous
motions in limine seeking to limit or exclude
Plaintiffs’ evidence. Because certain of the
defendants were affiliated corporate entities,
Plaintiffs’ leadership undertook the discovery and
motions practice necessary to establish liability on
the part of each of the named defendants, which
resulted in important stipulations regarding the
liability of parent corporations for conduct of their
subsidiaries. Plaintiffs’ leadership briefed important
procedural issues related to joinder, remand, choiceof-law, jurisdiction, venue and Lexecon, and the
Court’s ability to try MDL cases upon remand to
other federal jurisdictions. Plaintiffs’ leadership
handled the Daubert and dispositive responsive
briefing, as well as Plaintiffs’ “offensive” summary
judgment motions and reply briefing, and
Plaintiffs’ motions in limine. Important legal issues
regarding consolidation of multiple MDL plaintiffs
80a

for purposes of trial pursuant to Rule 42 were
briefed and argued by leadership. Plaintiffs’
leadership also handled the briefing regarding the
exclusion of evidence regarding the FDA 510(k)
clearance process. The Court’s ruling on this motion
proved a seminal ruling that impacted all of the
MDLs. This critical evidentiary ruling spurred a
litany of related motions for reconsideration,
motions for new trial and evidentiary proffers across
the MDLs, as well as grounds for appeal in multiple
cases. Leadership also prepared the briefing
regarding the admissibility of important productrelated evidence used by all Plaintiffs. Hundreds of
instructive opinions from the Court in these pelvic
mesh MDLs are available through online legal
research sites, such as Westlaw, most of which were
directly the result of the work of Plaintiffs’
leadership.12
Several of the bellwether cases were resolved
shortly before trial, but the pre -trial preparation for
these cases was no different than the cases that
ultimately went to verdict. When MDL bellwether
cases were tried, the verdicts were subject to various
post-trial motions and eventually appealed. The
appeals often involved amicus briefing by multiple
interested third parties due to the significance of
the issues involved in this litigation. The extensive
pre-trial briefing (pre-trial orders, jury charges,
evidentiary motions), trial briefing (motion for
directed verdict, evidentiary motions), and postverdict briefing (motion for judgment as a matter of
For example, a recent Westlaw search of the terms “pelvic
OR transvaginal WITHIN THE SAME SENTENCE AS mesh
AND goodwin” within the West Virginia Federal Courts
database yields 1,970 results.
12

81a

law, motion for new trial) in the bellwether cases
were handled primarily by Plaintiffs’ leadership.
Plaintiffs’ leadership also handled the appellate
briefing in these cases, and these rulings helped
shape the course of this litigation.
• Lewis v. Johnson & Johnson, 601 Fed.
App’x 205 (4th Cir.2015) (affirming grant
of motion for judgment as a matter of law
for Defendants)
• Cisson v. C.R. Bard, Inc., 810 F.3d 913
(4th Cir. 2016) (affirming $2 million
verdict for plaintiffs)
• Huskey v. Ethicon, Inc., 848 F.3d 151 (4th
Cir.2017) (affirming $3.2 million verdict for
plaintiffs)
• Eghnayem v. Boston Scientific Corporation,
873 F.3d 1304 (11th Cir. 2017) (affirming
verdicts for four separate plaintiffs tried
together in consolidated trial totaling
$26.7 million)
• Campbell

v.

Boston

Scientific

Corporation, 882 F.3d 70 (4th Cir. 2018)

(affirming verdicts for four separate
plaintiffs tried together in consolidated
trial totaling $18.5 million)
The results of these post-trial motions and
appellate rulings have likewise provided instructive
guidance for the participants in this MDL, as well as
for future product liability MDLs. Disparate legal
and factual issues such as the propriety of
consolidated, multi-plaintiff trials, the admissibility
of evidence related to FDA, statutes of limitations,
gross negligence and punitive damages, and the
82a

sufficiency of the evidence to sustain multi-million
dollar verdicts on design defect and failure to warn
have been addressed and resolved in plaintiffs’ favor
by the Fourth and Eleventh Circuits, providing
substantial benefit to all MDL claimants and further
certainty across MDL lines.
Plaintiffs’ leadership also coordinated efforts
with attorneys who were handling related litigation
against the same defendants in various State courts
across the country.
Eventually, and due in large part to the
continuing efforts of the plaintiffs’ leadership and
the Court’s innovative approaches to move cases
forward, the defendants, who had generally resisted
settlement discussions, began to consider resolution.
However, resolution in these MDLs has proven
nearly as challenging as the litigation itself. The
range of products involved, the varying nature of the
injuries or damages claimed by Plaintiffs, the “multiproduct” issue, and the differing financial status and
interest in resolution among the different
Defendants presented difficulties in resolutions that
required perseverance and creativity by Plaintiffs’
leadership. Plaintiffs’ leadership coordinated efforts
to conduct “censuses” of thousands of MDL cases in
order to inform the Court and the parties of the
range of products and injuries involved. At the
request of the Court, certain Plaintiffs’ leadership
has been involved in attempting to facilitate the
settlement process for other MDL firms. The Court
has conducted multiple mandatory settlement
conferences with various Defendants in which
Plaintiffs’ leadership has played an important role.

83a

Through December 21, 2016, ninety-four law
firms submitted more than 900,000 hours of time for
common benefit consideration, and the Courtappointed FCC has recognized a total of 679,191.20
of those hours as being for common benefit.
To date, over ninety percent of cases in these
MDLs have reached resolution or otherwise been
dismissed, which has resulted in approximately
$366,500,000 in payments into the common benefit
fund by Defendants. Based on the number of cases
that have been resolved pursuant to a Master
Settlement Agreement but not yet processed or that
remain in the MDLs, it is anticipated that the
common benefit fund will ultimately equal or exceed
$550,000,000.
3.

Process of Allocation of Funds for Common
Benefit Fees and Expenses.

On October 4, 2012, the Court entered its
Pretrial
Order
Regarding
Management
of
Timekeeping, Cost Reimbursement and Related
Common Benefit Issues.13 In this Order, the Court
set
preliminary
procedures
for
attorneys
establishing standards for maintaining and
submitting time and expenses for possible future
consideration as common benefit and established the
account to receive and disburse funds for the
common benefit of the litigation. The Court directed
attorneys to submit time and expense records to
the Court-appointed accountant on a periodic basis
of every six weeks beginning November 1, 2012. As
Bard MDL 2187 PTO 54, AMS MDL 2325 PTO 20, BSC MDL
2326 PTO 17, Ethicon MDL 2327 PTO 18, Cook MDL 2440 PTO
11 (entered on 10/28/2013), Coloplast MDL 2387 PTO 6,
Neomedic MDL 2511 PTO 20 (entered on 12/22/2015).
13

84a

part of this Order, which was approved by all
members of the PSC and signed and submitted by
all members of the Plaintiffs’ Executive Committee,
counsel who desire to be considered for common
benefit compensation acknowledged – as a condition
for such consideration – that the Court will have
“final, non-appealable authority regarding the award
of fees, the allocation of those fees and awards for
cost reimbursements in this matter” and they “have
(or will have) agreed to and therefore will be bound by
the court’s determination on common benefit
attorney fee awards, attorney fee allocations, and
expense awards, and…knowingly and expressly
waive any right to appeal those decisions or the
ability to assert the lack of enforceability of this
Agreed Order or to otherwise challenge its
adequacy.” (Emphasis added).
Upon the entry of the FCC Order on January
15, 2016, the FCC began to meet for the purpose of
performing the tasks required under the FCC
Order so as to evaluate the common benefit work
performed by applicant firms. The FCC met in
Atlanta, Georgia on February 8, 9 and 10, 2016,
along with members of the PSC for a portion of the
time to discuss the entry of the FCC Order and to
discuss the upcoming work of the FCC. The FCC
invited the PSC to provide input and feedback into
the process during this meeting and after. Several
members of the PSC and Executive Committee met
with the FCC and expressed thoughts and opinions
about the process, including some concerns, that
were considered by the FCC in establishing its
review process.
The FCC met with the Court-appointed
accountants on February 16 and 22, 2016 to discuss
85a

the time and expense submissions by firms and
funds received into the MDL common benefit fund.
Thereafter, the FCC met to begin the process of
proposing a set of policies and procedures for the
review of time and expense submissions for common
benefit funds. During the period from March through
October of 2016, the FCC consulted the Co-Lead
Counsel for the MDLs regarding the appropriate
policies and procedures for evaluating the common
benefit contributions of applicant firms. These
meetings included a meeting with the PSC on
April 4 and 5, 2016, in Charleston, West Virginia.
On November 3 and 4, 2016, the FCC met in
Charleston, South Carolina to draft a proposed set of
policies and procedures for the review of time and
expense submissions for common benefit funds. On
December 1, 2016, FCC Chairperson Henry Garrard
appeared before the Court for the purpose of
addressing the entry of an order establishing policies
and procedures for common benefit fund application
review. Thereafter, the FCC met via conference
calls, virtual meetings, and in-person meetings to
refine the proposed policies and procedures. The
FCC met in Atlanta, Georgia on May 17, 2017,
regarding the contents of the proposed policies and
procedures for the evaluation of common benefit
contributions of firms to the litigation. On June 23,
2017, the Protocol was entered by the Court, which
established the baseline policies and procedures to be
utilized by the FCC in determining the value of the
common benefit work performed by each applicant
firm.
Shortly after the Court’s entry of the Protocol,
the FCC began preparations for the review of
common benefit work and recommending an
86a

allocation to the Court in accordance with the
Protocol. On June 26 and 27, 2017, the FCC met in
Washington, DC, for the purpose of planning the
process of review of time and expense submissions
by firms seeking payment for common benefit work
performed. The FCC focused its efforts and attention
on how the time and expense submissions of firms
would be evaluated for the purpose of determining
the overall contribution of each applicant firm to the
common benefit of the litigation. At the conclusion of
the meeting, FCC members continued to discuss the
timeframe and procedures that would be necessary
within the requirements of the Protocol.
Pursuant to the Protocol, the CPA returned to
each applicant firm the time and expense
documentation received by the CPA through
December 21, 2016. Thereafter, each firm had sixty
days in which to audit its time and confirm that the
time and expense submitted was true, accurate,
clear, and for the common benefit of the litigation.
Once complete, each firm was to resubmit its time
and expense along with an affidavit from a senior
member of the firm attesting that the time and
expenses submitted were for common benefit. The
required affidavit was also to designate whether the
party billing time was a full-time or contract
employee, and to provide an individual biography
not exceeding two (2) pages for each attorney
billing time. The FCC received the audited time
and expense from firms and accompanying
affidavits in September of 2017. The FCC met on
September 8, 19 and 20, 2017 in Atlanta, Georgia,
and October 2 and 3, 2017 in Athens, Georgia, to
plan the process of reviewing the time submissions
received from applicant firms. The FCC Chairperson
87a

then met with The Honorable Daniel J. Stack,
Retired, regarding his willingness and availability
to serve as the External Review Specialist under
the Protocol. The FCC Chairperson also interviewed
another potential candidate for the External Review
Specialist. Upon appointment by the Court on
October 13, 2017, Judge Stack began serving as the
External Review Specialist and attended almost all
meetings of the FCC. The FCC met on October 16
and 17, 2017, to establish the procedure for review of
all applicant firms.
The process of the Initial Review under the
Protocol began in October of 2017. The FCC’s
methodology in evaluating the submissions of
applicant firms follows the Protocol and the Court’s
prior common benefit orders. The FCC’s review of
the
time
and
expense
submissions
and
accompanying
affidavits
was
conducted
in
accordance with the fifteen items enumerated in
Section B of the Protocol, the ten factors identified
in Section C of the Protocol (which are the same as
the items in Section B of the FCC Order), as well as
the factors enumerated in Barber v. Kimbrell’s, Inc.,
577 F.2d 216 (4th Cir. 1978). The FCC assigned
each firm seeking payment of common benefit funds
to two members of the FCC for initial review. Those
two FCC members worked together to review every
time and expense entry received from the applicant
firm. In reviewing the time and expense
submissions and affidavits, the reviewers were
guided by the Protocol and the FCC Order in
determining the firm’s contribution to the common
benefit of the overall litigation. The FCC continued
to meet during the process of review to discuss and
ensure the consistent application of the review for
88a

each applicant firm’s submission. The FCC was
assisted in its review process by certain other
attorneys who were requested to assist the FCC
pursuant to Section A of the FCC Order. Those
attorneys were Amy Collins (Burnett Law Firm),
Thomas Hollingsworth (Blasingame, Burch, Garrard
& Ashley), Jeff Kuntz (Wagstaff & Cartmell), Don
Migliori (Motley Rice), and Mike Moreland (Clark,
Love & Hutson). These attorneys assisted the FCC
in the preparation of materials for FCC meetings.
Upon commencement of the Initial Review of
the time submission by applicant firms, the FCC
recognized that some firms diligently self-audited
their time entries and submitted time for review
that was substantially compliant with the
instructions from the Court regarding hours that
would be considered as contributing to the common
benefit of the litigation. However, other firms made
little or no changes to their time submission during
the Court-ordered self-audit process, which resulted
in submissions for time that did not satisfy the
Court’s instructions. The elimination of time that
clearly did not satisfy the Court’s criteria for
common benefit consideration, which should have
been identified in the self-audit process, resulted in
the FCC’s recognition of a relatively lower
percentage of submitted hours as common benefit
for firms that failed to adequately self-audit.
Conversely, firms that made a good-faith effort to
review their time submission during the self-audit
period had a higher percentage of submitted time
recognized as contributing to the common benefit.
The FCC met on November 16 and 17, 2017 in
Atlanta, Georgia to discuss ongoing reviews and
ensure that all firms were receiving consistent
89a

evaluations pursuant to the Protocol. The FCC met
again on December 4 and 5, 2017, in Houston,
Texas, for the purpose of discussing firms whose
review had been completed by the two FCC
members primarily assigned the task of reviewing
time submissions. The FCC met again on December
12, 13 and 14, 2017, and continued to discuss those
firms whose review had been completed by the two
FCC members primarily assigned the task of
reviewing time submissions. Finally, the FCC met
on January 5 (by telephone), 10, 23 and 24, and
February 1, 2018 in Atlanta, Georgia, to complete
the process of discussing those firms whose review
had been completed by the two FCC members
primarily assigned the task of reviewing time
submissions. During these meetings, each firm was
thoroughly discussed by the entire FCC. While the
number of FCC meetings was significant, far greater
time was invested by FCC members between
meetings. FCC members routinely worked on
matters in preparation for the next FCC meeting.
During its meetings from November 16, 2017
through February 1, 2018, the FCC received detailed
presentations about each firm seeking common
benefit compensation. As discussed above, except for
the telephonic meeting on January 5, 2018, the FCC
meetings were conducted in-person. With the
exception of a single instance where an FCC member
was participating in a jury trial, all members of the
FCC were in attendance at the FCC meetings. The
FCC also consulted with the Co-Leads of the MDLs,
including an in-person meeting with the MDL CoLeads in Houston, Texas on December 5, 2017, and
discussed the quality and value of the contribution
of applicant firms to the common benefit of the
90a

litigation. The work of the FCC during this period
was not simply to determine the number of hours
that might be considered compensable, but also (and
more significantly to the FCC) the quality of those
hours and the extent such time was of benefit to the
litigation. As each firm was discussed, the FCC
decided which time entries would (at that stage) be
considered as common benefit, which time entries
were deemed of no compensable value, and which
entries required additional information in order for
the FCC to properly evaluate the submission.
Simultaneously, the FCC evaluated the
nature of the legal work reflected in the time
submissions. The FCC considered for each firm
whether the work for which time was submitted was
performed by attorneys or non-attorney staff, and
the experience and seniority of the attorney
performing work, as well as whether multiple
lawyers or firm members were performing the same
or similar tasks that could appropriately be handled
by a single attorney. The FCC discussed the nature
of the work and the role of the applicant firm as
reflected in the time submissions, including for
example whether the firm was engaged in document
review, expert identification and preparation,
written discovery, depositions, trials, briefing or
appellate work, or settlement negotiation. With
regard to the venue of cases, and in accordance with
the Court’s instruction in the FCC Protocol, the FCC
considered whether trial work was performed within
the MDLs or in various state courts, and the extent
to which it contributed to the outcome of the
litigation and benefited the MDL. In addressing
trials, the FCC considered whether a trial was the
first successful trial of a particular mesh product,
91a

whether the trial attorneys created common benefit
materials and shared such materials with other
plaintiffs’ firms within the litigation without
compensation (and at what point in time that
material was shared), and whether the trial
attorneys consulted with MDL leadership in case
selection, trial preparation and trial strategy.
Further, the FCC considered whether a firm
participated in a lead role, a back-up role, or was
simply an observer of the activity in the litigation. As
directed in the Protocol, emphasis was placed on
work product and materials that were provided to
Plaintiffs’ counsel to prepare for trial. In some
instances, the low quality of information delivered to
the FCC by the applicant firm made it impossible for
the FCC to identify any common benefit derived
from the submitted time. The foregoing examples
are not meant to be exhaustive but are meant to be
illustrative of the attention given to each firm
during the Initial Review. Throughout the Initial
Review, the FCC was mindful of the Court’s
instruction that “the over-arching guideline that the
FCC must consider is the contribution of each
common benefit attorney to the outcome of the
litigation.” The FCC received time entries totaling
more than nine hundred thousand (900,000) hours.
The FCC reviewed every time entry from every firm
in conducting its Initial Review. Where the FCC
had questions requiring further evaluation of
applicant firms, the FCC members continued their
review and returned at subsequent meetings to
respond. No applicant firm’s time was approved for
distribution to the firm until the FCC unanimously
approved the time.

92a

On February 16, 2018, the FCC provided its
Initial Review to the applicant firms. Each firm
received a letter detailing the process utilized by the
FCC along with four exhibits. Exhibit A identified
those time entries where the FCC found that there
was no compensable basis for the time. Exhibit B
identified those time entries requiring more
information from the applicant firm. Exhibit C
identified the dates beyond which the FCC
determined that time did not contribute to the
common benefit of the litigation. Exhibit D set forth
categories of expenses which applicant firms were to
remove from their submission. The letter to each
firm instructed the applicant firm how and when to
respond and also provided the reasons why time was
placed on Exhibits A and B for that firm. Each
letter was unique and tailored to the specific firm
providing only those reasons that were applicable to
the particular firm’s time. Firms were required to
provide an affidavit in the format provided in the
Protocol signed by a senior firm member setting
forth the reasons, grounds and explanation for the
Firm’s entitlement to common benefit fees under the
factors outlined in the FCC Order and in the FCC
Protocol. Firms were also given the opportunity to
provide a response for each time entry that the firm
believed was placed on Exhibit A or B in error, and
to provide revised expenses in accordance with the
instructions given. For any firm that did not provide
a complete response, the FCC sent letters on April
18, 2018, requesting that the applicant firm
complete its response.
After receipt of the affidavits and responsive
materials from the firms, the FCC once again
reviewed each time entry for which the applicant
93a

firm sought reimbursement, as well as their
affidavits, in order to further evaluate the
contribution made by each firm to the common
benefit of the litigation. The FCC met on March 29
and 30, 2018 in Atlanta, Georgia. During the
meeting the FCC received presentations from its
members regarding the responses received from
applicant firms. The FCC discussed and decided on
whether time submissions placed on Exhibits A and
B delivered to the firms should be considered as
compensable. Revised expenses were reviewed by
FCC members in the same manner as had
previously been used for the evaluation of time
entries. The FCC also heard reports and discussed
the amount of expenses for consideration for each
applicant firm. The meetings of the FCC continued
and were conducted on April 23, 24 and 25, 2018
and May 7, 2018 in Atlanta, Georgia. In addition,
there was an FCC conference call conducted on May
2, 2019, to address firms’ time and expense and
affidavit review. As discussed above, the FCC’s focus
during its review of responses of applicant firms was
not directed toward a mechanical calculation of the
numbers reflected in time and expense entries.
Rather, the FCC endeavored to analyze the benefit
and value of the work reflected in these submissions
in light of each firm’s role in the litigation and in
accordance with the Court’s directives set forth in
the common benefit orders, based on the FCC’s
experience in the litigation and the materials and
information submitted by each Firm. Specifically,
the FCC considered the final time and expense
submissions and affidavits of each firm in light of
the items enumerated in Section B of the Protocol,

94a

the factors enumerated in Section C of the Protocol,
and the factors set forth in Barber v. Kimbrell’s, Inc.
On May 18, 2018, the FCC delivered to each
applicant firm the results of the FCC’s evaluation of
the firm’s affidavit and materials in response to the
Initial Review. At that time, the FCC notified each
firm of the hours and expenses that the FCC found
to be eligible for consideration as common benefit. In
accordance with Section D of the Protocol, each firm
was given notice of the opportunity to be heard by
the FCC. The letter provided to each firm was
accompanied by a revised version of Exhibits A and
B reflecting the FCC’s decision to allow or disallow
each entry based upon the information provided by
the applicant firm in its final submission of time,
expense and its affidavit. The letter provided
instructions on how to request an opportunity to be
heard by the FCC. Of the ninety-four firms whose
time was reviewed, twenty- seven elected to be heard
by the FCC. The FCC conducted in-person meetings
with representatives of each firm who made a
request. The FCC conducted in-person meetings in
Charleston, West Virginia on June 12, 13, 14 and 15,
2018, and in Atlanta, Georgia on July 17, 18 and 19,
2018. In accordance with Section C of the FCC
Order, each firm was permitted to “present the
reasons, grounds, and explanation for their
entitlement to common benefit,” and was generally
allowed to be heard by and to discuss with the FCC
any matter of its choosing during these in-person
meetings. The FCC received and considered all of the
oral presentations of all applicant firms who availed
themselves of this opportunity. Based on the
presentations of firms, the FCC reviewed, and
where appropriate, revised the hours or expenses
95a

considered for common benefit. Additionally, the
FCC met and discussed the presentation of firms in
light of the value that each firm contributed to the
litigation. At the conclusion of the in-person
meetings, the FCC finalized the number of hours
and amount of expenses for its preliminary
recommendation.
The FCC met on August 1 and 2, 2018 in
Atlanta, Georgia for the purpose of finalizing its
allocation of funds available for compensation of
common benefit. In so doing, the FCC relied upon its
detailed knowledge and understanding of the work
performed accumulated throughout the process of
thoroughly reviewing each firm’s time and expense
submissions,
affidavits,
written
materials
accompanying affidavits, and in-person meetings.
The FCC also relied upon the collective personal
knowledge and experience of its members in this
litigation and the input received from other
leadership within the litigation. The process of
allocating the potential fund was not a new process
for the FCC, rather it was the continuation of the
process that began with the entry of the FCC
Order. Members of the FCC continued to meet on
August 15, 2018 in Washington, DC and discussed
the allocation of the potential fund for common
benefit. The FCC met again on August 21, 2018, in
Atlanta, Georgia to continue its discussion of the
allocation of potential funds for common benefit
awards. At the request of the FCC, the Chairperson
proposed a series of awards utilizing a percentage of
the funds for each of the applicant firms. The FCC
then addressed each of the firms individually and
discussed whether the proposed percentage award
was appropriate. The percentage value assigned to
96a

each firm was then adjusted to reflect the decision of
the FCC for each firm. Some adjustments were
upwards, some downwards and some remained
unchanged. In discussing an appropriate percentage
for the applicant firms, the FCC was again guided
by their experience and familiarity with the
litigation, the nature and value of the work
performed, the FCC Order and the FCC Protocol
with focus being given to the items enumerated in
Section C of the Protocol and the Barber factors.
Only FCC members participated in the discussion
and decision regarding the allocation of common
benefit funds. Attorneys who assisted the FCC in its
review process did not participate in the decision
by the FCC regarding allocation of funds to
applicant firms.
The FCC did not request any information
regarding billing rates utilized by applicant firms.
The FCC did not apply a formulaic or grid approach
whereby an applicant’s recommended common
benefit award was the sum of points or the product
of an “hours x rate x multiplier” equation. The FCC
observed that the hours submitted by firms varied
widely in quality, with some applicants submitting
significant numbers of hours of limited value, while
others submitted fewer hours that provided
substantial benefit to the litigation. The FCC
identified its directive under the Protocol to focus on
(and reward) firms based on their substantive
contributions rather than the bulk submission of
hours.
Upon the completion of the allocation process,
the FCC was unanimous in its agreement that the
process used throughout the review of time and
expense was performed in accordance with the
97a

Court’s Orders and the applicable legal authority,
and the FCC was unanimous in its agreement to the
amounts allocated to each firm in the Preliminary
Written Recommendation. The FCC met and
collectively prepared the materials for distribution
of the FCC’s Preliminary Written Recommendation
on September 11, 2018. The FCC reviewed the
information being delivered to each applicant firm
and discussed the Protocol with regard to the
Preliminary
Written
Recommendation,
the
opportunity for objections thereto and the Final
Written Recommendation. The FCC’s Preliminary
Written Recommendation was delivered to all
applicant firms on September 13, 2018.
Applicant firms were permitted to make any
objection
to
the
Preliminary
Written
Recommendation on or before September 28, 2018.
Of the ninety-four firms receiving the Preliminary
Written Recommendation, the FCC received
objections from twenty-four firms. The FCC
considered the written objections of firms and met
on October 22 and 23, 2018, in Athens, Georgia to
deliberate and discuss the objections. The FCC
then continued to confer regarding objections, and
on November 16, 2018, the FCC met to approve the
form and content of this Final Written
Recommendation. Of the twenty-four objections
eleven have now been resolved. After due
consideration of the remaining objections, the FCC
unanimously agreed to its proposed allocation of
funds for compensation of common benefit to each
applicant firm as set forth in this Final Written
Recommendation.
The FCC received certain objections from
counsel to its Preliminary Written Recommendation,
98a

which remain unresolved. Some of the remaining
objectors argue that their awards are insufficient in
light of their contribution, while others objected that
those same firms’ award was excessive in light of the
same factors. Some objectors took umbrage with the
FCC’s stated intention of requesting the Court set
aside 30% of future common benefit funds for work
completed post-December 21, 2016 as too much,
while others argued the percentage set aside should
be significantly more than 30% to prevent firms that
did less work after that date from being
overcompensated. Some objectors took the position
that the FCC’s recommendations for the members of
the FCC were too high, while others commended the
FCC members for their hard work, dedication, and
the value they added to the litigation. Often,
objectors claimed to have performed the same work
as was performed by other applicant firms. In
summary, the objections raised generally took both
sides of virtually any given issue. Accordingly, the
FCC revisited its preliminary recommendations with
an eye toward ensuring compliance with the Courts
directives in the applicable pretrial orders, with
careful attention paid to recommending awards on a
firm-by-firm basis that reflected as accurately as
possible the value provided by that firm to MDL
claimants.
The FCC notes that certain of the remaining
objections received focus upon the “implied” or
“effective” hourly rates that objecting firms
calculated in order to subjectively compare
themselves to other firms. These objections
necessarily substitute the objecting firm’s subjective
evaluation of the firm’s contribution to the common
benefit of the litigation in place of the analysis
99a

performed by the FCC. The essential crux of each
such objection is that the firm seeks an increase in
its award based on its self-evaluation in
comparison to other firms. The FCC reviewed the
objections and determined that no new factual
information was provided by the objectors beyond
that already received and considered by the FCC in
making its recommended percentage allocation. The
FCC, as discussed in detail in this Final Written
Recommendation, did not use an hourly rate method
in arriving at its percent allocation for each
applicant firm. However, in an effort to ensure that
the method employed by the FCC delivered a fair
result, the FCC performed a review of the effective
hourly rates resulting from its percentage award set
forth in its Preliminary Written Recommendation.
The FCC reviewed and considered each of the
effective hourly rates for the applicant firms and
determined that the result was consistent with the
FCC’s determination of the appropriate percentage
award, which was determined in accordance with
the factors and instructions set forth in the FCC
Protocol and the Court’s prior common benefit
orders. Further, the range of effective hourly rates
was within the range of other MDL litigations.14
Having conducted this additional crosscheck of its
recommended allocations, the FCC unanimously
See, e.g., In re Actos (Pioglitazone) Prods. Liab. Litig. , 274
F. Supp. 3d 485 (W.D. La. Jul. 17, 2017) (Order adopting
Special Masters Report and Recommendation which
awarded effective hourly rates ranging from $270.00 to
$1,305.00); see also In re Oil Spill by the Oil Rig “Deepwater
Horizon” in the Gulf of Mexico, on April 20, 2010 , Case No.
2:10-md-02179, Doc. 23574 (E.D. La. Oct. 24, 2017) (Order
adopting Special Master’s Recommendations which awarded
effective hourly rates ranging from $60.89 to $2,162.41).
14

100a

agreed to its proposed allocation of funds for
compensation of common benefit to each applicant
firm as set forth in this Final Written
Recommendation.
The overarching theme of the unresolved
objections received can be summarized as follows:
my firm did not receive enough money and/or
another firm (or other firms) received too much
money. However, the subjective comparisons
proffered by the objecting firms are often
contradictory, if not self-defeating. For example,
certain of the objecting firms seek the lion’s share of
credit for the same litigation, but in varying State
Court venues and in MDL. As a specific example, one
firm claims that its work in a specific State Court
trial was of significant benefit to the litigation while
another firm contends that same trial was only of
limited value compared to a subsequent trial(s) in
which their firm was involved (for example, the
verdict addressed only failure to warn and not design
defect). Certain of the same objecting firms claim to
have developed the same experts for the same
litigation. These varying proposals with disparate
accounts only serves to underscore the inherent
subjectivity of the allocation process, and the
difficulty in reaching a recommendation that
matches every firm’s own subjective expectation and
view of their self-worth. Stated otherwise, it readily
appears that the objecting firms’ true intent is to
substitute their own subjective judgment for that of
the FCC with respect to the value of their and other
firms’ work in the allocation process.
It was further noted that the remaining
objecting firms generally sought to compare their
effective hourly rate to that which they calculated for
101a

other firms (typically those whose rates they
calculated as being higher than their own). However,
in challenging why another firm (or other firms)
received a higher rate than theirs, several of the
objecting firms focused primarily on their subjective
views regarding the quality or value of the work of
only one member of their firm (typically the one
lawyer from the firm who served in a Courtappointed leadership position). This analysis is
fundamentally flawed. The FCC did not base its
analysis solely on whether or not the firm had a
member who was appointed to a leadership
position, or whether any of the firm’s members
contributed value to the litigation, but instead
necessarily focused on the value contributed to the
litigation by the firm as a whole. As required under
the FCC Protocol, the FCC considered the skill,
reputation and experience of each of the individuals
who submitted time for each firm, as well as the
nature and quality of work being performed by each
of those individuals. It is impossible to make a sideby-side comparison between applicant firms without
considering the nature, quality and value of the
work of the firm as a whole versus just one person
within that firm. For example, a law firm may have
one attorney who served in a leadership position
and whose work contributed value to the litigation,
but that attorney’s time may only account for a
small fraction of the firm’s overall time submitted as
common benefit. The firm’s other time may have
been performed primarily by young associates,
paralegals, or other lawyers or staff who did routine
work that did not add significant value to the
litigation. In that situation, such firm should not be
heard to object on the basis that the firm’s “effective
102a

hourly rate” was less than another firm who had
multiple partner-level attorneys who submitted
consistent and substantial time that provided
significant value to the litigation.
Furthermore, all hours are not created equal.
One common example is that hours spent actively
trying an MDL case are considered more valuable
than hours on other tasks, such as document
review or administrative tasks. This analysis may
also be true, however, even between hours spent on

the same task by similarly skilled or experienced
lawyers. For example, not all hours spent on
“document review” are equivalent in value. Time
spent identifying the documents that were later used
in significant motions or briefing, provided to
general experts, used during important corporate
depositions or at trial, or made part of “trial
packages” provided to other lawyers is necessarily
more valuable than hours submitted for document
review with no tangible work product. Firms that
consistently billed time for “document review” with
little or no tangible work product to show for that
time provided less of a benefit, and more of a
detriment. Likewise, not all “trial” hours are the
same. Some firms shouldered the brunt of the trial
work from the day the trial setting was obtained
through the day the appellate court issued its
opinion affirming the verdict. Others may have
provided valuable support prior to or during the
trial, and others may have participated in the trial
itself, but each to varying degrees. It is not
practicable, nor equitable, to declare that all
attorney hours are of the same value or that all
“trial” time is deserving of equal weight. Variances
in consistency, duration, skill, responsibility, role,
103a

and task all must be taken into account in
determining the firm’s collective value to the
litigation. To evaluate the efforts of counsel
otherwise is to reward the professional biller or the
inefficient worker.
4.

Legal analysis of
allocation process.

common

benefit

fee

“It is beyond dispute that a court may
‘appoint a committee of plaintiffs’ counsel to
recommend how to divide up an aggregate fee
award.’” In re Vioxx Prods. Liab. Litig., 802 F.
Supp. 2d 740, 773 (E.D. La. 2011). As recognized in
In re Diet Drugs Prods. Liab. Litig., 2003 WL
21641958, *6 (E.D. Pa. 2003), a committee allocating
attorneys’ fees is “well suited” for that task where it
is “comprised of respected attorneys with in-depth
knowledge of the work performed throughout the
course of . . . the litigation.”; see also, In re Diet
Drugs Prods. Liab. Litig., 2002 WL 32154197, at
*23 (E.D. Pa. 2002) (finding it “both more efficient
and fairer” to permit a committee of counsel
involved in the litigation to make an initial attempt
at allocating a fee award among the applicant
counsel, rather than having the court make those
determinations in the first instance); Vioxx, 802 F.
Supp. 2d at 764 (observing that fee committee
appointees were “heavily involved” in the litigation
and thus “had firsthand knowledge of the nature
and extent of the common benefit work which was
done and who did it”); Victor v. Argent Classic
Convertible Arbitrage Fund L.P., 623 F.3d 82, 90
(2d Cir. 2010) (“Since lead counsel is typically wellpositioned to weigh the relative merit of other
counsel’s contributions, it is neither unusual nor
inappropriate for courts to consider lead counsel’s
104a

proposed
allocation
of
attorneys
fees,
particularly…where the district court retains the
ultimate power to review applications and
allocations and to adjust them where appropriate.”);
In re Cathode Ray Tube (CRT) Antitrust Litig., 2016
WL 6909680, *2 (N.D.Ca.2016) (“In class actions lead
counsel commonly propose the initial plan of fee
allocation since ‘class counsel are the most familiar
with the amount of work actually contributed by
each of the…firms,’ and can assess ‘in a manner
that they believe, in good faith, reflects the
contributions of counsel to the prosecution and
settlement of the claims.’” ) (Cits. omitted).
“As a general principle, ... [attorneys’] fees are
to be allocated in a manner that reflects the relative
contribution of the individual firms and attorneys to
the overall outcome of the litigation.” Diet Drugs,
2003 WL 21641958, at *6. See also, In re Copley
Pharmaceutical, Inc., Albuterol Prods. Liab. Litig.,
50 F.Supp.2d 1141, 1149-50 (D.Wyo.1999) (“The
Court’s research reveals that courts unanimously
make allocations based ‘upon the quantity and
quality of effort expended by the attorneys in
obtaining the common fund.’”) (Internal cits.
omitted); Turner v. Murphy Oil USA, Inc., 582
F.Supp.2d
797,
812
(E.D.La.2008)
(“This
apportionment [of common benefit funds among
counsel] is largely dependent on an analysis of the
amount, nature, and significance of the work of each
counsel and how it relates to the work of the other
counsel.”). Consistent with such authority, and as
discussed above, the Court instructed in its Order
Establishing Criteria for Applications to MDL
Common Benefit Fund that “the over-arching
guideline that the FCC must consider [in allocating
105a

common benefit attorney’s fees] is the contribution of
each common benefit attorney to the outcome of the
litigation.” (Order Establishing Criteria for
Applications to MDL Common Benefit Fund, p. 5).
Stated plainly, the “allocation of fees is not an
exact science,” and the methodology used may vary,
so long as it is designed to produce results that are
both fair and reasonable. See Diet Drugs, 2003 WL
21641958, at *7, *11. See also, In re Motor Fuel
Temperature Sales Practices Litig., 2016 WL
4445438, *13 (D.Kan.2016) (“In determining
reasonable attorneys’ fees, the essential goal ‘is to
do rough justice, not to achieve auditing
perfection.’”). Because subjective factors, such as the
nature of the work performed, the skill and
experience of the counsel doing it, and the results
achieved are relevant considerations, “some
subjectivity is unavoidable in allotting common
benefit fees.” Vioxx, 802 F. Supp. 2d at 774. “[I]n
the real and imperfect world of litigation it is an
accepted fact that not all work hours are entitled to
the same compensation rate. The nature of the work,
the skill and experience of the party doing the work,
and the result achieved all factor into the
appropriate allocation. How these factors are
weighed injects an unavoidable amount of
subjectivity in the analysis. The best that can be
done to assure the validity of the analysis is to base
the subjectivity quotient on sufficient facts and
experience, and to invite input from those affected.”
Id. (Emphasis added). “With so much money at
stake and so much time invested by skilled
attorneys on valuable common benefit work, it is
not surprising that disputes exist concerning the
proper method and dollar amount of the individual
106a

allocations. We emphasize, however, that the
allocation of fees is not an exact science.” Diet
Drugs, 2003 WL 21641958 at *10-*11.
The process used in allocating attorneys’ fees
generally should also offer the opportunity for
meaningful input by the fee applicants. Diet Drugs,
2003 WL 21641958 at *6 (noting that applicants
had the opportunity to object to their proposed fee
allocation, meet with the fee committee and discuss
their objections, suggest revisions before a final
recommended allocation was determined, and, if still
dissatisfied, seek relief from the court).
The proposed fee allocation in this case
plainly satisfies all of the necessary criteria
discussed in the applicable legal authority, as well
as the protocols and procedures established by the
Court. In their objections to the FCC’s preliminary
recommendation, certain of the applicant firms have
suggested that the FCC was required to utilize a
“lodestar” methodology, where the hours credited to
the firm are multiplied by an hourly rate. Several
courts have considered and rejected similar
arguments, and to be clear, the FCC was not
required to and did not attempt to employ any
“lodestar” calculation. See, In re Thirteen Appeals

Arising Out of San Juan Dupont Plaza Hotel Fire
Litig., 56 F.3d 295, 307-08 (1st Cir.1995) (rejecting

argument that common fund must be allocated
among counsel using lodestar method, stating “[W]e
hold that in a common fund case the district court, in
the exercise of discretion, may calculate counsel fees
either on a percentage of the fund basis or by
fashioning a lodestar…. [W]e rule the court below
did not err in purposing to allocate fees based on the
107a

[percentage of fund] method, emphasizing the
attorneys’ ‘relative contribution’ to the creation of
the Fund.”); Glaberson v. Comcast Corp., 2016 WL
6276233 (E.D.Pa. 2016) (observing that in allocation
of common fund attorneys’ fees, “a mathematical
application of a ratio of the firms’ lodestars is not
mandated.”) Here, the FCC considered the submitted
time of counsel for common benefit fee purposes as
entitled to allocation weight only in relationship to
outcome contribution. Not simply how much time an
attorney has spent and submitted, but whether and
how an attorney’s time contributed to the outcome
of the litigation, has been a consistent, and even
primary, focus of the FCC in its analysis and
recommendation.
In a similar vein, the dollar-specific
allocations recommended by the FCC are not driven
by mathematical formulation, any more than they
are based upon the mere counting of attorney hours.
The FCC was charged by the Court with the task of
reviewing time and expense submissions and
accompanying affidavits from ninety-four different
law firms. As described above, a painstaking,
detailed review by the FCC of submitted time
records was conducted over several months. The
Initial Review, along with the required affidavits
and other materials submitted from the applicant
firms, and the feedback and input from objecting
firms, assisted the FCC in analyzing inter alia the
nature, quantity and duration of the work
performed, the identity of the attorneys performing
the work and their respective experience and
abilities, and generally how the work contributed
(or did not contribute) to the overall common
benefit of the MDL plaintiffs. As outlined in detail
108a

above, this review and allocation process that
involved hundreds of hours over several months was
thorough. Each applicant firm was allowed to
provide substantive input to the process, and to
receive feedback from the FCC. While the FCC
extensively reviewed the hours submitted by every
firm and took the approved time into consideration
in making its proposed allocation, the FCC did not
request hourly rates from any firm or attempt to
mechanically apply any “hours x rate” analysis. See,
Vioxx, 802 F.Supp.2d at 773 (“To simply total the
hours spent, apply an appropriate lodestar factor,
and allocate the fee on that basis alone would not be
appropriate in this case.”). Instead, the FCC
reviewed the submitted time and applicant input in
light of the Court’s directives set forth in the Fee
Committee Protocol and prior common benefit
orders, the ultimate purpose of which is to
“evaluat[e] what work and expenses furthered the
common benefit of the litigation.” (Fee Committee
Protocol, p. 10). See, In re Thirteen Appeals Arising
Out of San Juan Dupont Plaza Hotel Fire Litig., 56
F.3d 295, 307 (1st Cir.1995) (“While the time logged
is still relevant to the court’s inquiry – even under
the [percentage of fund] method, time records tend
to illuminate the attorney’s role in the creation of
the fund, and, thus, inform the court’s inquiry into
the reasonableness of a particular percentage….”);

In re Copley Pharmaceutical, Inc., Albuterol Prods.
Liab. Litig. , 50 F.Supp.2d 1141, 1149-50

(D.Wyo.1999) (“[t]he value of time expended with
appropriate adjustments may provide a rough
starting point for assessing the respective roles of
counsel, but it should not be used rigidly as a precise

109a

measure to
factors.”).

the

exclusion of

other intangible

The FCC’s approach in making this proposed
allocation is consistent with the allocation
methodology applied in similar multi-plaintiff
product liability settlements. Recently, in In re

Fresenius Granuflo/Naturalyte Dialysate Prods.
Liab. Litig. , MDL 2428 (“Granuflo”), the court-

appointed fee committee recommended an allocation
to each applicant firm of a percentage of the total fee
award based on the committee’s experience and the
facts submitted, and after receiving input from the
interested firms. Granuflo, 1:13-md-2428, Doc. 1983
(Memorandum in Support of Plaintiff Leadership’s
Petition for Award and Allocation of Common Benefit
Fees) (D.Mass. Dec. 12, 2017). The fee committee in
Granuflo emphasized in its petition that it did not
undertake to apply “an unyielding mathematical
formula,” which it noted could not account for the
multitude of subjective differences that must be
considered in making such an award, such as the
differing skills and contributions of the attorneys
and varying nature and complexity of the tasks
involved. (Id., p. 22). The MDL court approved the
fee committee’s recommendation. Granuflo, 2018 WL
2163627 (D.Mass.2018). Similarly, in In re Nuvaring
Prods. Liab. Litig., 2014 WL 7271959, *2
(E.D.Mo.2014) (Order approving recommendation of
Special
Master’s
Recommendation
Regarding
Allocation and Distribution of Common Benefit Fees
and Expenses), the Court affirmed the Special
Master’s recommended allocation of common benefit
fees. As noted there, the recommended allocations
were based on the quality and value of the work
performed, not on a “lodestar” analysis of rates
110a

multiplied by hours. Id. at *6. Likewise, in the In re
Yasmin and Yaz Prods. Liab. Litig. MDL, the Special
Master recommended an allocation based on the
quality and value of the work to the litigation and
resolution and expressly rejected the “lodestar”
approach as both arbitrary and inappropriate
because it would not properly consider the value
and quality of the work involved. In re Yasmin and
Yaz Prods. Liab. Litig., 3:09-md-02100, Doc. 3843
(Special Master’s Report and Recommendation
Regarding the Allocation and Distribution of
Common Benefit Fees and Expenses) (S.D.Ill. Nov. 6,
2015), pp. 7-8. The Yaz MDL Judge, the Hon. David
R. Herndon, adopted the Special Master’s allocation
recommendation in its entirety. Id., Doc. 3856
(Minute
Order
adopting
Special
Master’s
recommended allocation in its entirety) (S.D. Ill.
Nov. 20, 2015).
5.

Objections claiming lack of “discovery” from
FCC.

Certain of the objecting firms have sought to
conduct discovery regarding the FCC’s deliberations,
and complain generally about an alleged lack of
“transparency” about the process. Initially, as all
applicant firms are aware, the Court charged the
FCC “with engaging in confidential discussions as
part of the FCC’s function.” (FCC Order, Section A)
(Emphasis added). As the Court’s Order recognizes,
confidentiality is necessary for the FCC to have
candid and frank discussions and deliberations about
the value and benefit of the contribution of the firms
involved.
In In re Genetically Modified Rice Litig., 764
F.3d 864, 872 (8th Cir. 2014), the Eighth Circuit
111a

considered and rejected a similar objection to a
common fund allocation for lack of discovery,
observing as follows:
Although the court did not appoint an external
auditor or permit discovery, cf. In re Diet
Drugs, 582 F.3d at 533–34, discovery in
connection with fee motions is rarely
permitted, In re Prudential Ins. Co. Am. Sales
Practice Litig., 148 F.3d 283, 338 (3d
Cir.1998), and a “request for attorney’s fees
should not result in a second major litigation.”
Hensley v. Eckerhart, 461 U.S. 424, 437, 103
S.Ct. 1933, 76 L.Ed.2d 40 (1983).
In In re Pradaxa (Dabigatran Etexilate) Prods. Liab.
Litig. , C.A. No. 3:12-md-02385, Doc. 613 (Case
Management Order No. 89 - Denying Motion to Stay
and Prohibiting Discovery Relating to Common
Benefit Fee Determination) (S.D.Ill. Jan. 8, 2015),
the Hon. David R. Herndon, an experienced MDL
Judge, similarly rejected a firm’s (“CDL”) request
for discovery regarding a common benefit fee
allocation. Instructively, Judge Herndon stated there
“The Court finds that it has imposed appropriate
guidelines and ground rules with regard to the
common benefit fee determination. [The law firm
seeking discovery] has not presented the Court with
any reason to doubt the methodology that has been
employed, conclude that informal or formal
discovery is genuinely needed, or doubt the billing
information that has been provided to date.
Accordingly, the Court sees no reason to depart from
the principle that discovery in connection with fee
motions should rarely be permitted.”

112a

Here, the Court provided detailed guidance
and established rules and criteria that have
governed the FCC’s common benefit allocation
process. The facts and information considered by the
FCC have been provided and explained in detail to
every firm that applied for common benefit. As
detailed above, every applicant firm has been
provided substantial information about how their
work was evaluated, including written explanations
regarding the applicant firm’s submitted time
considered – or not considered – as common benefit,
and an opportunity to respond in writing and inperson. Each firm also has now received information
about each of the other applicant firms’ submitted
time considered for common benefit (total hours
submitted, and number of hours and amount of
expenses recognized as common benefit).
As the Court-Ordered Protocol and this Final
Written Recommendation reflect, applicant firms
were given several opportunities to receive feedback
from the FCC about the review and allocation
process, both in writing and in-person. All
applicant firms were allowed to make a
presentation and/or provide a written submission to
the FCC which they felt would establish the value of
their work and/or their contribution to the common
benefit of this MDL. (See, e.g., FCC Protocol, Section
C (each applicant firm must submit affidavit that
“shall set forth the reasons, grounds and explanation
for the firm’s entitlement to common benefit fees.”);
FCC Order, Section C (“It is the responsibility of the
FCC to conduct meetings, at the appropriate time,
during which any counsel who has submitted an
application for common benefit compensation may,
at his or her discretion, separately appear and
113a

present the reasons, grounds, and explanation for
their entitlement to common benefit fees.”).
Likewise, pursuant to Court’s Protocol, the FCC
provided ample opportunity for applicant firms to
provide substantive feedback and input regarding
the process – again, both in-person and in writing –
including any input regarding the relative
contributions or benefit provided by any applicant
firm. Not only has every applicant firm had
multiple opportunities to both provide and receive
information and feedback to and from the FCC, the
Court’s Protocol provides additional opportunities to
present objections to the Court-appointed External
Review Specialist and to the Court. Any complaint
about an alleged lack of information here is
unfounded.
6.

Final Recommended Allocation of Funds:

Comprised of attorneys whose work spanned
the entire litigation, the FCC was well-informed of
the substantive contributions made by each
applicant firm and endeavored to appropriately
recognize those contributions. The FCC has
exhaustively reviewed all of the facts and
information provided by common benefit applicant
firms, has applied the principles and complied with
the directives established in the Court’s protocol, and
relied upon its experience and familiarity with the
litigation and with the facts, providing multiple
opportunities to provide and receive input by
common benefit applicant firms in writing and in
person. After several months of deliberations
regarding the applications, the FCC reached its
recommendations.

114a

Based on the foregoing, the FCC makes the
following observations regarding the contribution of
each common benefit applicant to the outcome of the
litigation and recommends the following awards. In
making its Final Recommendation, the FCC utilized
the following method. First, the FCC considered
the total anticipated funds available in the MDL
common benefit fund at the time of the first
anticipated distribution by the Court to be
approximately $400,000,000.00 (specifically the
assumption of $396,811,811.38 was utilized). Next,
the FCC deducted the total of $17,825,000.00 for
repayment of MDL PSC assessments paid by firms
for the purpose of funding the initial work of
plaintiffs’ counsel in the litigation. The FCC then
deducted the total of $28,986,811.38 for the purpose
of reimbursing applicant firms for held costs which
were for the common benefit of the litigation. After
the total deduction of $46,811,811.38 (the sum of
$17,825,000.00 and $28,986,811.38), the remaining
anticipated funds in the MDL common benefit fund
at the time of the first distribution total
$350,000,000.00. Using the percentage method
discussed previously in this Final Written
Recommendation, the FCC recommends that upon
application of the recommended percentages for each
applicant firm, the following amounts should be
distributed to each firm.15 The FCC further
anticipates that additional funds will continue to be
received by the MDL common benefit fund. The
Protocol limits the temporal scope of the FCC’s
review and recommendation regarding the award of
The FCC’s Final Written Recommendation is premised upon
the Court’s grant of the FCC’s Petition for an Award of
Common Benefit Attorneys’ Fees filed November 12, 2018.
15

115a

funds for common benefit to those activities
occurring on or before December 21, 2016. The FCC
is aware of work that has been performed and
continues to be performed beyond December 21, 2016,
which the FCC believes would merit consideration as
common benefit. In order to discharge its assigned
duties while also providing adequate funds to address
work performed beyond December 21, 2016, the FCC
recommends that with regard to future funds, the
Court (1) allocate thirty percent (30%) of future
funds received in the MDL common benefit fund as
being subject to future orders of the Court regarding
payment; and (2) allocate seventy percent (70%) of
future funds received in the MDL common benefit
fund amongst applicant firms utilizing the same
percentages as set forth herein below. Some
objecting firms have urged that the percentage of
funds recommended by the FCC to be retained for
distribution pursuant to a future order of the Court
(30% of funds received in the future) is too high,
while other objectors contend that the percentage is
not high enough. The FCC recommends that the sum
is adequate to address future payment needs, though
any recommendation regarding the allocation of
such funds is beyond the scope of the FCC pursuant
to the Court’s Protocol.
The FCC recommends that allocation of funds
for common benefit be paid as follows:16

In Vioxx, 802 F. Supp.2d at 774-825, Judge Fallon similarly
recited the total hours logged by each applicant, as well as the
relevant factors applicable to that counsel’s or law firm’s
service. See also, Turner v. Murphy Oil, supra at 812-827 (J.
Fallon) (similar synopses of firms’ allocations).
16

116a

Anapol Weiss. Anapol Weiss partner Tom Anapol is
a member of the Plaintiffs’ Steering Committee.
The firm contributed to the common benefit of the
MDLs through its payment of the MDL assessment.
The firm contributed $100,000.00 in assessments.
The Fee Committee recommends reimbursement of
the firm’s $100,000.00 in assessments.
Anderson Law Office. Anderson Law Office partner
Ben Anderson is a member of the Plaintiffs’ Steering
Committee and served as Co-Lead of the Cook MDL.
The firm’s work in Cook with Co-Lead Counsel
resulted in a global settlement, although there were
issues with the terms of the settlement. The firm
contributed to the MDLs, with an emphasis on work
with experts. The firm worked with experts in
science and medicine, and Ben Anderson was a
member of the Science Committee. The firm
participated in some trials. All of the firm’s work
was performed by one attorney and two paralegals,
with more than 40% of the total approved time
coming from paralegal hours. The firm’s work
ultimately resulted—in targeted areas—in expert
witnesses, although the Fee Committee takes note
that the work was often done in an inefficient
manner. The firm submitted 33,220.93 hours for
review by the FCC. The Fee Committee recognized
a total of 22,209.68 hours and $666,993.81 in
expenses. The firm contributed $350,000.00 in
assessments. Based on a complete review of the
time and expense records, the Fee Affidavit, the
firm’s in-person presentation to the Fee Committee,
and evaluation of the firm’s overall contribution to
the common benefit of the MDLs, the Fee Committee
recommends an allocation of $7,210,000.00
(2.0600000%), plus reimbursement of the firm’s
117a

$350,000.00 in assessments, and reimbursement of
$666,993.81 in expenses.
Andrus Wagstaff. Andrus Wagstaff partner Amy
Wagstaff is a member of the Plaintiffs’ Steering
Committee, was appointed to serve as Co-Lead
Counsel for the Boston Scientific MDL, and was
appointed as a member of the Executive Committee.
In her role as Co-Lead Counsel, Ms. Wagstaff
participated in Executive Committee and Plaintiffs’
Steering Committee conferences, attended hearings
and status conferences, managed BSC discovery,
assisted in motion practice and also participated in a
BSC MDL trial. Ms. Wagstaff and her colleagues
also prepared annotated work product which was
made available to lawyers with BSC cases. The
firm also had wave work, document review and
travel. The firm submitted 31,549.55 hours for
review by the FCC. The Fee Committee recognized a
total of 29,563.85 hours and $505,275.50 in
expenses. The firm contributed $350,000.00 in
assessments. Based on a complete review of the
time and expense records, the Fee Affidavit, the
firm’s in-person presentation to the Fee Committee,
and evaluation of the firm’s overall contribution to
the BSC MDL, the Fee Committee recommends an
allocation of $8,715,000.00 (2.4900000%), plus
reimbursement of the firm’s $350,000.00 in
assessments, and reimbursement of $505,275.50 in
expenses.
Ashcraft Gerel. Ashcraft Gerel partner Michelle
Parfitt is a member of the Plaintiffs’ Steering
Committee. The firm contributed to the common
benefit of the AMS, BSC, Bard, and Ethicon MDLs.
The firm participated primarily in limited expert
development and also performed document review
118a

for the BSC and AMS MDLs. The firm submitted
846.76 hours for review by the FCC. The Fee
Committee recognized a total of 773.40 hours and
$7,200.40 in expenses. The firm contributed
$350,000.00 in assessments. Based on a complete
review of the time and expense records, the Fee
Affidavit, and evaluation of the firm’s overall
contribution to the common benefit of the MDLs, the
Fee Committee recommends an allocation of
$174,667.50 (0.0499050%), plus reimbursement of
the firm’s $350,000.00 in assessments, and
reimbursement of $7,200.40 in expenses.
Aylstock, Witkin, Kries & Overholtz, PLLC.
Aylstock, Witkin, Kreis & Overholtz, PLLC
(“AWKO”) was an early participant in the TVM
litigation. AWKO began its work in TVM litigation
in New Jersey as part of the New Jersey
Consolidation. Upon formation of the Federal MDL,
AWKO partner Bryan Aylstock was assigned as one
of the three Coordinating Co-Leads in the overall
TVM MDLs, was a member of the Executive
Committee and the Plaintiffs’ Steering Committee;
and AWKO partner Renee Baggett was assigned to a
Co-Lead position in the Ethicon MDL and is a
member of the Plaintiffs’ Steering Committee. AWKO
briefed and argued discovery hearings, took
corporate depositions, fact witness depositions,
expert depositions and managed the Ethicon
litigation. AWKO was also involved in trials that
the Committee recognized. AWKO participated in
the development of the material science and experts
in the Ethicon MDL. AWKO worked to coordinate
the efforts of plaintiffs’ counsel and provided
information to plaintiffs’ counsel regarding
developments in the litigation. AWKO participated
119a

in bringing a large number of cases to an AMS
settlement. The firm submitted 55,031.00 hours for
review by the FCC. The Fee Committee recognized a
total of 43,932.50 hours and $1,108,942.51 in
expenses. The firm contributed $350,000.00 in
assessments. Based on a complete review of the time
and expense records, the Fee Affidavit, the firm’s inperson presentation to the Fee Committee, and
evaluation of the firm’s overall contribution to the
common benefit of the MDLs, the Fee Committee
recommends an allocation of $27,125,000.00
(7.7500000%), plus reimbursement of the firm’s
$350,000.00 in assessments, and reimbursement of
$1,108,942.51 in expenses.
Babbitt Johnson Osborne & LaClainche, P.A.
Babbitt Johnson Osborne & LaClainche, P.A.
partner Joseph Osborne is a member of the
Plaintiffs’ Steering Committee. The firm contributed
to the BSC and Ethicon MDLs. The firm participated
in bellwether cases for the BSC and Ethicon MDLs.
The firm also participated in document review for
the BSC MDL. The firm submitted 6,002.55 hours
for review by the FCC. The Fee Committee
recognized 4,308.80 hours and $200,816.91 in
expenses. The firm contributed $350,000.00 in
assessments. Based on a complete review of the time
and expense records, the Fee Affidavit, and
evaluation of the firm’s overall contribution to the
common benefit of the MDLs, the Fee Committee
recommends an allocation of $1,355,000.50
(0.3871430%), plus reimbursement of the firm’s
$350,000.00 in assessments, and reimbursement of
$200,816.91 in expenses.

120a

Baron and Blue. Baron and Blue partner Lisa Blue
is a member of the Plaintiffs’ Steering Committee.
The firm contributed to the Bard MDL. The firm
participated in the development of damages theories
and bellwether trial preparation for Bard MDL
cases through jury selection in two cases. The firm
submitted 439.30 hours for review by the FCC. The
Fee Committee recognized 436.05 hours and
$33,687.74 in expenses.
The firm contributed
$350,000.00 in assessments. Based on a complete
review of the time and expense records, the Fee
Affidavit and evaluation of the firm’s overall
contribution to the common benefit of the MDLs, the
Fee Committee recommends an allocation of
$137,375.00 (0.0392500%), plus reimbursement of
the firm’s $350,000.00 in assessments, and
reimbursement of $33,687.74 in expenses.
Baron & Budd, P.C. Baron & Budd partner Russell
Budd is a member of the Plaintiffs’ Steering
Committee. The firm contributed to the common
benefit of the MDLs through its payment of the MDL
assessment. The firm contributed $350,000.00 in
assessments.
The Fee Committee recommends
reimbursement of the firm’s $350,000.00 in
assessments.
Beasley, Allen, Crow, Methvin, Portis & Miles, P.C.
Beasley, Allen, Crow, Methvin, Portis & Miles, P.C.
partner Leigh O’Dell was appointed to the Plaintiffs’
Steering Committee and contributed to the discovery
process by taking the depositions of some corporate
witnesses, as well as conducting third-party
discovery. Beasley Allen worked on science and
bellwether cases in the AMS MDL. The firm’s
members assisted with MDL briefing in the Boston
Scientific MDL, and worked up general causation
121a

experts for the AMS, Bard, BSC and Ethicon MDLs.
The firm also performed document review and had
more than 50 wave cases that required significant
pre-trial discovery and briefing resulting in a large
number of the firm’s hours relating to its wave
cases. The firm submitted 24,097.70 hours for review
by the FCC. The Fee Committee recognized a total of
22,295.45 hours and $308,978.75 in expenses. The
firm contributed $350,000.00 in assessments. Based
on a complete review of the time and expense
records, the Fee Affidavit, the firm’s in-person
presentation to the Fee Committee and evaluation of
the firm’s overall contribution to the common benefit
of the MDLs, the Fee Committee recommends an
allocation of $5,250,000.00 (1.5000000%), plus
reimbursement
of
the
firm’s
outstanding
$350,000.00 in assessments, and reimbursement of
$308,978.75 in expenses.
Bell Law Firm. Bell Law Firm partner Harry Bell was
appointed as Plaintiffs’ Co-Liaison Counsel and is a
member of the Plaintiffs’ Steering Committee. The
firm contributed to the common benefit of all the
mesh MDLs, with its greatest benefit occurring in
the AMS and Ethicon MDLs. As Co- Liaison counsel,
Mr. Bell worked with John Jenkins, the PSC, and the
Executive Committee in the initial phases of the
litigation. The firm also performed document
review. The firm submitted 4,208.49 hours for
review by the FCC. The Fee Committee recognized
a total of 3,724.59 hours and $6,253.68 in expenses.
The firm contributed $350,000.00 in assessments.
Based on a complete review of the time and expense
records, the Fee Affidavit, and evaluation of the
firm’s overall contribution to the common benefit of
the MDLs, the Fee Committee recommends an
122a

allocation of $814,159.50 (0.2326170%), plus
reimbursement of the firm’s $350,000.00 in
assessments, and reimbursement of $6,253.68 in
expenses.
Bernstein Liebhard, LLP.
Bernstein Liebhard
former partner Jeffrey Grand is a member of the
Plaintiffs’ Steering Committee. The firm contributed
to the common benefit of the Ethicon MDL, but their
work was primarily for the New Jersey litigation as
they served as co-liaison counsel in New Jersey. The
firm participated in depositions and worked up state
bellwether trial candidates in the New Jersey
litigation. The firm served on the trial team for
Gross v. Ethicon. The firm performed document
review for the Ethicon MDL. The firm submitted
4,407.00 hours for review by the FCC. The Fee
Committee recognized a total of 3,951.50 hours and
$102,445.59 in expenses. The firm contributed
$350,000.00 in assessments. Based on a complete
review of the time and expense records, the Fee
Affidavit, and analysis of the firm’s contribution to
the common benefit of the Ethicon MDL, the Fee
Committee recommends an allocation of $942,331.25
(0.2692375%), plus reimbursement of the firm’s
$350,000.00 in assessments, and reimbursement of
$102,445.59 in expenses.
Bertram & Graf. The firm contributed to the Bard
and BSC MDLs. The firm participated in the
discovery and workup of wave cases for the Bard MDL
and BSC MDL. The firm submitted 469.50 hours for
review by the FCC. The Fee Committee recognized
a total of 401.50 hours and $12,404.24 in
expenses. The firm did not pay an assessment.
Based on a complete review of the time and expense
records, the Fee Affidavit, and evaluation of the
123a

firm’s overall contribution to the common benefit of
the MDLs, the Fee Committee recommends an
allocation of $83,580.00 (0.0238800%), plus
reimbursement of the firm’s $12,404.24 in expenses.
Blasingame, Burch, Garrard & Ashley, PC.
Blasingame, Burch, Garrard & Ashley, PC (“BBGA”)
helped start the Pelvic Mesh litigation. BBGA
partner Henry Garrard was appointed by Judge
Goodwin
to
numerous
positions,
including
Coordinating Co-Lead Counsel for all of the
transvaginal mesh MDLs, Co-Lead Counsel for the
Bard MDL, a member of the Executive Committee,
as well as a member of the Plaintiffs’ Steering
Committee. BBGA partner Josh Wages was also
appointed to the Plaintiffs’ Steering Committee.
BBGA started the TVM litigation that resulted in
creating all the MDLs. BBGA brought considerable
experience in developing TVM liability theories to
the MDLs, and, as a result of having successfully lead
the Mentor Obtape MDL and trying cases in it,
BBGA’s insight advanced the common benefit of the
MDLs. BBGA led the Bard MDL and participated
from the early stages of discovery, document
review, motion practice, depositions of corporate
witnesses, consulting and obtaining experts and trial
preparation. BBGA was lead counsel in the first four
MDL bellwether cases and was lead counsel in the
first MDL case tried to a verdict for the Plaintiff.
BBGA managed and coordinated the ongoing
activities of the MDLs and assisted attorneys across
the country in handling their cases. BBGA led in the
preparation of briefs in the MDLs, the Fourth Circuit
Court of Appeals and the Eleventh Circuit Court of
Appeals. BBGA played a role in helping shape legal
issues and obtaining rulings regarding the
124a

admissibility of FDA evidence and evidence
regarding the MSDS. BBGA handled dozens of
experts including drafting reports, defending
depositions and defending Daubert motions. The
firm contributed significantly to the initial funding
of the litigation. At the direction of the Court
beginning in August of 2013, Henry Garrard focused
on the resolution and settlement of cases for MDL
firms which helped move the litigation to
resolution. Henry Garrard helped others resolve
more than 52,000 of their cases. This work was
undertaken without compensation from those cases.
The firm submitted 69,685.30 hours for review by the
FCC. The Fee Committee recognized a total of
63,719.30 hours and $9,545,824.63 in expenses.
The firm contributed $350,000.00 in assessments.
Based on a complete review of the time and expense
records, the Fee Affidavit, the firm’s in-person
presentation to the Fee Committee, and evaluation
of the firm’s overall contribution to the common
benefit of the MDLs, the Fee Committee
recommends an allocation of $56,634,392.50
(16.1812550%), plus reimbursement of the firm’s
$350,000.00 in assessments, and reimbursement of
$9,545,824.63 in expenses.
Blizzard & Nabers, LLP. Blizzard & Nabers partner
Ed Blizzard is a member of the Plaintiffs’ Steering
Committee. The firm contributed to the common
benefit of the AMS, BSC, Bard, and Ethicon MDLs.
The firm participated in corporate depositions in
Ethicon and BSC and aided in preparation of the
first AMS bellwether defense pick. The firm also
performed document review for the BSC and Ethicon
MDLs, and Holly Gibson was co-chair of the
sales/marketing document review. The firm
125a

submitted 3,905.67 hours for review by the FCC. The
Fee Committee recognized a total of 3,693.90 hours
and $241,576.56 in expenses. The firm contributed
$350,000.00 in assessments. Based on a complete
review of the time and expense records, the Fee
Affidavit, and evaluation of the firm’s overall
contribution to the common benefit of the MDLs, the
Fee Committee recommends an allocation of
$1,435,000.00 (0.4100000%), plus reimbursement of
the firm’s $350,000.00 in assessments, and
reimbursement of $241,576.56 in expenses.
Burke Harvey, LLC. Burke Harvey partner Todd
Harvey is a member of the Plaintiffs’ Steering
Committee. The firm worked at the direction of and
with members of the Executive Committee and on
the Bard and Ethicon MDLs. The firm participated
in discovery and workup of wave cases for the
Ethicon MDL. The firm also participated in research
and briefing in the Bard MDL. The firm submitted
364.30 hours for review by the FCC. The Fee
Committee recognized a total of 349.40 hours and
$14,197.66 in expenses.
The firm contributed
$300,000.00 in assessments. Based on a complete
review of the time and expense records, the Fee
Affidavit, and evaluation of the firm’s overall
contribution to the common benefit of the MDLs, the
Fee Committee recommends an allocation of
$96,915.00 (0.0276900%), plus reimbursement of the
firm’s
$300,000.00
in
assessments,
and
reimbursement of $14,197.66 in expenses.
Burnett Law Firm. Burnett Law Firm partner Riley
Burnett is a Co-lead in the Coloplast and Neomedic
MDLs and a member of the Plaintiffs’ Steering
Committee. In reviewing the firms’ time submission,
the FCC notes that 9,004.1 hours submitted by
126a

Burnett Law Firm were originally submitted jointly
by the Potts Law Firm and the Burnett Law Firm for
the time period of June 2012 through December
2013. The joint time submitted was originally
credited solely to Potts Law Firm. During the selfauditing time period, Potts Law Firm and Burnett
Law Firm agreed to transfer 9,004.1 hours of the
jointly-submitted time from Potts Law Firm to
Burnett Law Firm with a corresponding reduction of
time by Potts Law Firm. The firm contributed to the
common benefit of the Coloplast, Neomedic, AMS
and Bard MDLs. The firm negotiated settlements in
these MDLs. Riley Burnett played a major role in
developing a complex settlement program with AMS
at the request of the Court that benefitted many
firms and resolved thousands of cases. The firm also
reviewed documents in the Bard, AMS and Coloplast
MDLs. The firm continues to work as the main lead
in the Coloplast MDL. The firm submitted 10,763.15
hours for review by the FCC. The Fee Committee
recognized a total of 10,490.35 hours and $10,941.33
in expenses. The firm contributed $350,000.00 in
assessments. Based on a complete review of the time
and expense records, the Fee Affidavit, the firm’s inperson presentation to the Fee Committee, and
evaluation of the firm’s overall contribution to the
common benefit of the MDLs, the Fee Committee
recommends an allocation of $5,075,000.00
(1.4500000%), plus reimbursement of the firm’s
$350,000.00 in assessments, and reimbursement of
$10,941.33 in expenses.
Carey Danis & Lowe, LLP. Carey Danis & Lowe
contributed to the common benefit of the Boston
Scientific, Bard, and Cook MDLs. The firm
performed document review, prepared experts for
127a

depositions, and attended depositions of experts.
The firm submitted 10,474.25 hours for review by
the FCC. The Fee Committee recognized a total of
8,840.80 hours. The firm did not pay an assessment.
Based on a complete review of the time and expense
records, the Fee Affidavit, and evaluation of the
firm’s overall contribution to the common benefit of
the MDLs, the Fee Committee recommends an
allocation of $700,000.00 (0.2000000%).
Chaffin Luhana, LLP. Chaffin Luhana partner Eric
Chaffin is a member of the Plaintiffs’ Steering
Committee. The firm contributed to the common
benefit of the Ethicon MDL. The firm performed
document review and assisted in developing the
Plaintiff Profile Form. The firm submitted 382.87
hours for review by the FCC. The Fee Committee
recognized a total of 301.57 hours and $1,578.10 in
expenses. The firm contributed $50,000.00 in
assessments. Based on a complete review of the time
and expense records, the Fee Affidavit, and
evaluation of the firm’s overall contribution to the
common benefit of the MDLs, the Fee Committee
recommends
an
allocation
of
$58,170.00
(0.0166200%), plus reimbursement of the firm’s
$50,000.00 in assessments, and reimbursement of
$1,578.10 in expenses.
Clark, Love & Hutson, G.P. Clark, Love & Hutson,
G.P. (“CLH”) performed a leadership role in the state
and federal transvaginal mesh litigation from its
inception. CLH partner Clayton Clark was appointed
to serve as Co-Lead Counsel for the Boston Scientific
MDL, is a member of the Executive Committee and
the Plaintiffs’ Steering Committee. CLH partner
Scott Love is a member of the Plaintiffs’ Steering
Committee. Mr. Clark participated in Executive
128a

Committee and Plaintiffs Steering Committee
conferences, and developed litigation strategies
applied across MDLs. In his role as Co-Lead Counsel
of the BSC MDL, Mr. Clark attended hearings and
status conferences, managed BSC discovery, experts,
motion practice and trials. CLH developed experts
and defended those experts through Daubert
challenges, deposed liability witnesses, and
negotiated resolution structures. CLH was lead
counsel for three MDL trials, including two
consolidated trials for eight plaintiffs, despite not
having a fee interest in the outcome of the majority
of those plaintiffs. Additionally, CLH tried a
remanded bellwether case. The firm participated in
two separate appeals to the Fourth and Eleventh
Circuits, successfully affirming jury verdicts on the
consolidated trials in both. The firm also performed
wave work, document review and travel associated
with its pursuit of MDL litigation. CLH managed
and coordinated the ongoing activities of the Boston
Scientific MDL and assisted attorneys in handling
their cases. The firm had common benefit work
recognized in each of the major MDLs. The firm
submitted 50,268.00 hours for review by the FCC.
The Fee Committee recognized a total of 47,226.50
hours and $4,230,319.61 in expenses. The firm
contributed $350,000.00 in assessments. Based on
a complete review of the time and expense records,
the Fee Affidavit, the firm’s in-person presentation
to the Fee Committee, and evaluation of the firm’s
overall contribution to the common benefit of the
MDLs, the Fee Committee recommends an
allocation of $45,500,000.00 (13.0000000%), plus
reimbursement of the firm’s $350,000.00 in

129a

assessments, and reimbursement of $4,230,319.61 in
expenses.
Cohen, Placitella & Roth, PC. Cohen, Placitella &
Roth partner Chris Placitella is a member of the
Plaintiffs’ Steering Committee. The firm contributed
to the common benefit of the Ethicon and Bard
MDLs, but their work was primarily for the New
Jersey litigation as they served as co-liaison counsel.
They attended CMCs and participated in the
preparation of depositions as well as document
review for the Ethicon MDL. The firm submitted
865.40 hours for review by the FCC. The Fee
Committee recognized a total of 614.50 hours and
$71,444.10 in expenses. The firm contributed
$350,000.00 in assessments. Based on a complete
review of the time and expense records, the Fee
Affidavit, the firm’s in-person presentation to the
Fee Committee, and evaluation of the firm’s overall
contribution to the common benefit of the MDLs, the
Fee Committee recommends an allocation of
$343,105.00 (0.0980300%), plus reimbursement of
the firm’s $350,000.00 in assessments, and
reimbursement of $71,444.10 in expenses.
Davis & Crump, L.L.P. Davis & Crump partner
Martin Crump is a member of the Plaintiffs’
Steering Committee and served as Co-Lead of the
Cook MDL. The firm developed experts, obtained
Daubert orders, and later reached a global
settlement with the defendant in the Cook MDL. The
firm’s work in Cook with Co-Lead Counsel resulted
in a global settlement, although there were issues
with the terms of the settlement. The firm was very
active in document review— predominantly in AMS
and Cook—which comprised more than half of the
firm’s time. Although the firm was active in wave
130a

work in the MDLs and worked on a bellwether case
in BSC, the firm obtained no verdicts and the firm’s
sole BSC bellwether was dismissed prior to trial on
summary judgment. The firm was [ s i c ] played an
important supportive role across multiple MDLs,
including AMS, Boston Scientific, and Bard. The
firm submitted 12,751.95 hours for review by the
FCC. The Fee Committee recognized a total of
11,381.65 hours and $120,902.90 in expenses. The
firm contributed $350,000.00 in assessments. Based
on a complete review of the time and expense
records, the Fee Affidavit, and evaluation of the
firm’s overall contribution to the common benefit of
the MDLs, the Fee Committee recommends an
allocation of $2,695,000.00 (0.7700000%), plus
reimbursement of the firm’s $350,000.00 in
assessments, and reimbursement of $120,902.90 in
expenses.
Davis, Bethune & Jones, L.L.C. The firm
contributed to the common benefit of the Bard and
BSC MDLs. The firm participated in discovery,
briefing, expert development, trial preparat ion and
the joint trial of a Bard and BSC product. The firm
submitted 2,968.70 hours for review by the FCC.
The Fee Committee recognized a total of 1,397.80
hours and $346,652.48 in expenses. The firm did not
pay an assessment. Based on a complete review of
the time and expense records, the Fee Affidavit, the
firm’s in-person presentation to the Fee Committee,
and evaluation of the firm’s overall contribution to
the common benefit of the MDLs, the Fee
Committee recommends an allocation of $551,845.00
(0.1576700%), plus reimbursement of the firm’s
$346,652.48 in expenses.

131a

Doyle Lowther, LLP. The firm contributed to the
common benefit of the BSC and Cook MDLs. The
firm participated in discovery for both the Cook
MDL and for a BSC Wave One case. The firm
submitted 1,409.35 hours for review by the FCC.
The Fee Committee recognized a total of 1,150.90
hours and $2,751.93 in expenses. The firm did not
pay an assessment. Based on a complete review of
the time and expense records, the Fee Affidavit, and
evaluation of the firm’s overall contribution to the
common benefit of the MDLs, the Fee Committee
recommends
an
allocation
of
$210,026.25
(0.0600075%), plus reimbursement of the firm’s
$2,751.93 in expenses.
Edwards Kirby, LLP. The firm contributed to the
common benefit of the Bard MDL. The firm
participated in preparation of a Bard bellwether case
for trial. The firm submitted 577.90 hours for review
by the FCC. The Fee Committee recognized a total
of 499.50 hours. The firm did not pay an
assessment. Based on a complete review of the time
and expense records, the Fee Affidavit, and
evaluation of the firm’s overall contribution to the
common benefit of the MDLs, the Fee Committee
recommends
an
allocation
of
$157,360.00
(0.0449600%).
Evers & Preston. The firm contributed to the
common benefit of the Ethicon MDL. The firm
participated in document review in the Ethicon
MDL. The firm submitted 2,579.65 hours for review
by the FCC. The Fee Committee recognized a total of
2,512.35 hours and the firm did not submit
expenses. The firm did not pay an assessment. Based
on a complete review of the time and expense
records, the Fee Affidavit, and evaluation of the firm’s
132a

overall contribution to the common benefit of the
MDLs, the Fee Committee recommends an allocation
of $472,500.00 (0.1350000%).
Fibich, Leebron, Copeland & Briggs. Fibich,
Leebron, Copeland & Briggs partner Erin Copeland
is a member of the Plaintiffs’ Steering Committee.
The firm worked with Co-Leads in the BSC, AMS,
Bard and Cook MDLs, providing deposition support
and assisting with discovery. The firm submitted
11,888.76 hours for review by the FCC. The Fee
Committee recognized a total of 10,124.26 hours and
$155,301.31 in expenses. The firm contributed
$350,000.00 in assessments. Based on a complete
review of the time and expense records, the Fee
Affidavit, and evaluation of the firm’s overall
contribution to the common benefit of the MDLs, the
Fee Committee recommends an allocation of
$4,000,003.00 (1.1428580%), plus reimbursement of
the firm’s $350,000.00 in assessments, and
reimbursement of $155,301.31 in expenses.
Fleming Nolen Jez, LLP. Fleming Nolen Jez’s former
partner Laura Yaeger was a member of the Plaintiffs’
Steering Committee and her seat was replaced by
Karen Beyea-Schroeder in 2013 when Yaeger left the
firm. Ms. Beyea-Schroeder was also Co-Lead in the
Neomedic MDL. The firm contributed to the common
benefit of the AMS, BSC, Bard, Cook, and Ethicon
MDLs. The firm participated in discovery related to
wave cases as well as the preparation of depositions
in the BSC, Bard, and Ethicon MDLs. The firm also
performed document review for all MDLs. The
firm submitted 9,843.86 hours for review by the
FCC. The Fee Committee recognized a total of
8,378.07 hours and $15,862.79 in expenses. The
firm contributed $350,000.00 in assessments. Based
133a

on a complete review of the time and expense
records, the Fee Affidavit, and evaluation of the
firm’s overall contribution to the common benefit of
the MDLs, the Fee Committee recommends an
allocation of $1,435,000.00 (0.4100000%), plus
reimbursement of the firm’s $350,000.00 in
assessments, and reimbursement of $15,862.79 in
expenses.
Frankovitch, Anetakis, Simon, Decapio & Pearl,
LLP. Frankovitch, Anetakis, Simon, Decapio & Pearl
partner Carl Frankovitch serves as Plaintiffs’ CoLiaison Counsel and is a member of the Plaintiffs’
Steering Committee. The firm contributed to the
common benefit of all the MDLs through his role in
leadership. Carl Frankovitch was important to the
MDLs as a member of the West Virginia bar and a
trusted liaison in the litigation. The firm also
reviewed a large number of documents in the Cook
MDL. The firm submitted 1,622.90 hours for review
by the FCC. The Fee Committee recognized a total of
1,524.75 hours and $28,892.78 in expenses. The firm
contributed $350,000.00 in assessments. Based on a
complete review of the time and expense records, the
Fee Affidavit, the firm’s in-person presentation to
the Fee Committee, and evaluation of the firm’s
overall contribution to the common benefit of the
MDLs, the Fee Committee recommends an
allocation of $1,610,000.00 (0.4600000%), plus
reimbursement of the firm’s $350,000.00 in
assessments, and reimbursement of $28,892.78 in
expenses.
Freese & Goss, PLLC. Freese & Goss partner Tim
Goss is a member of the Plaintiffs’ Steering
Committee. In reviewing the firm, the Committee
notes the close working relationship between Freese
134a

& Goss and Matthews and Associates. The firm
performed common benefit work in the AMS, Boston
Scientific and Ethicon MDLs.
The firm’s
contribution to common benefit was principally
through the trial of cases in state and federal court,
including a bellwether MDL trial (Lewis) which
resulted in a directed verdict for the Defendant. The
firm tried six cases and resolved an additional two
shortly before trial. The firm also participated in
depositions and document review, primarily related
to its state court and wave cases. The trial efforts of
the firm assisted the overall progress of the MDL
through continued pressure upon the defendants
with focus on BSC and Ethicon. The firm made
contributions to the common benefit of the MDLs
through its state court work. The firm submitted
49,788.99 hours for review by the FCC. The FCC
recognized a total of 38,744.48 hours and
$910,588.03 in expenses. The firm contributed
$350,000.00 in assessments. Based on a complete
review of the time and expense records, the Fee
Affidavit, the firm’s in-person presentation to the
Fee Committee, and evaluation of the firm’s overall
contribution to the common benefit of the MDLs,
the Fee Committee recommends an allocation of
$14,097,828.50 (4.0279510%), plus reimbursement of
the firms’ $350,000.00 in assessments, and
reimbursement of $910,588.03 in expenses.
Girard Gibbs. Girard Gibbs partner AJ De
Bartolomeo is a member of the Plaintiffs’ Steering
Committee. The firm contributed to the common
benefit of the AMS, BSC, Coloplast, and Ethicon
MDLs. The firm participated in the development of
the Plaintiff Fact Sheet and attended Science Day.
The firm submitted 132.08 hours for review by the
135a

FCC. The Fee Committee recognized a total of 67.26
hours and $4,337.32 in expenses. The firm did not
pay an assessment. Based on a complete review of
the time and expense records, the Fee Affidavit, and
evaluation of the firm’s overall contribution to the
common benefit of the MDLs, the Fee Committee
recommends
an
allocation
of
$15,907.50
(0.0045450%), plus reimbursement of the firm’s
$4,337.32 in expenses.
Goza Honnold. The firm contributed to the
common benefit of the Ethicon MDL. The firm
participated in discovery, expert development and
document review in the Ethicon MDL. The firm
submitted 1,483.35 hours for review by the FCC.
The Fee Committee recognized 1,305.60 hours and
$17,629.76 in expenses. The firm did not pay an
assessment. Based on a complete review of the time
and expense records, the Fee Affidavit, and
evaluation of the firm’s overall contribution to the
common benefit of the MDLs, the Fee Committee
recommends
an
allocation
of
$410,655.00
(0.1173300%), plus reimbursement of the firm’s
$17,629.76 in expenses.
Greene Ketchum Farrell Bailey & Tweel, L.L.P.
Greene Ketchum Farrell Bailey & Tweel partner
Paul T. Farrell, Jr. serves as Co-Liaison Counsel for
the MDLs and is a member of the Plaintiffs’ Steering
Committee. The firm contributed to the common
benefit of the Bard and BSC MDLs. The firm
contributed to bellwether trials and performed wave
discovery. The firm submitted 4,912.20 hours for
review by the FCC. The Fee Committee
recognized a total of 4,392.40 hours and $26,653.16
in expenses. The firm contributed $350,000.00 in
assessments. Based on a complete review of the time
136a

and expense records, the Fee Affidavit, and
evaluation of the firm’s overall contribution to the
common benefit of the MDLs, the Fee Committee
recommends an allocation of $2,415,000.00
(0.6900000%), plus reimbursement of the firm’s
$350,000.00 in assessments, and reimbursement of
$26,653.16 in expenses.
Gustafson Gluek. Gustafson Gluek contributed to
the common benefit of the AMS MDL. The firm
performed discovery work and briefed issues at the
request of leadership. The firm submitted 1,075.50
hours for review by the FCC. The Fee Committee
recognized a total of 725.00 hours and $1,707.61 in
expenses. The firm did not pay an assessment.
Based on a complete review of the time and expense
records, the Fee Affidavit, and evaluation of the
firm’s overall contribution to the common benefit of
the MDLs, the Fee Committee recommends an
allocation of $158,900.00 (0.0454000%), plus
reimbursement of the firm’s $1,707.61 in expenses.
Heninger Garrison Davis, LLC. The firm
contributed to the BSC MDL. The firm performed
document review for the BSC MDL. The firm
submitted 895.85 hours for review by the FCC. The
Fee Committee recognized 784.6 hours and
$3,639.07 in expenses. The firm did not pay an
assessment. Based on a complete review of the time
and expense records, the Fee Affidavit, and
evaluation of the firm’s overall contribution to the
common benefit of the MDLs, the Fee Committee
recommends
an
allocation
of
$177,292.50
(0.0506550%), plus reimbursement of the firm’s
$3,639.07 in expenses.

137a

Herman Gerel. The firm contributed to the AMS and
BSC MDLs. The firm participated in the preparation
and taking of corporate representative depositions
for the AMS MDL. The firm also performed
document review for the BSC MDL. The firm
submitted 1,169.05 hours for review by the FCC. The
Fee Committee recognized 907.45 hours and
$25,861.53 in expenses. The firm did not pay an
assessment. Based on a complete review of the
time and expense records, the Fee Affidavit, and
evaluation of the firm’s overall contribution to the
common benefit of the MDLs, the Fee Committee
recommends
an
allocation
of
$173,670.00
(0.0496200%), plus reimbursement of the firm’s
$25,861.53 in expenses.
Herman & Katz. The firm contributed to the
common benefit of the AMS MDL. The firm
participated in document review and preparation for
corporate representative depositions for the AMS
MDL. The firm submitted 837.80 hours for review
by the FCC. The Fee Committee recognized 699.00
hours and $15,810.91 in expenses. The firm did not
pay an assessment. Based on a complete review of
the time and expense records, the Fee Affidavit, and
evaluation of the firm’s overall contribution to the
common benefit of the MDLs, the Fee Committee
recommends
an
allocation
of
$119,175.00
(0.0340500%), plus reimbursement of the firm’s
$15,810.91 in expenses.
Hersh and Hersh. Hersh and Hersh former partner
Amy Eskin is a member of the Plaintiffs’ Steering
Committee, the Executive Committee, and Co-Lead
of the AMS MDL. The firm contributed to the
common benefit of the AMS MDL. While employed
by Hersh and Hersh, Ms. Eskin appeared at status
138a

conferences,
attended
Executive
Committee
meetings, and drafted pleadings and discovery
motions. The firm contributed to the Delaware
Consolidated AMS litigation, performed document
review, and prepared for and contributed to Science
Day. The firm submitted 2,448.15 hours for review
by the FCC. The Fee Committee recognized a
total of 1,005.60 hours and $5,114.80 in expenses.
The firm did not pay an assessment. Based on a
complete review of the time and expense records, the
Fee Affidavit, the firm’s in-person presentation to
the Fee Committee, and evaluation of the firm’s
overall contribution to the common benefit of the
MDLs, the Fee Committee recommends an allocation
of $266,255.50 (0.0760730%), plus reimbursement of
the firm’s $5,114.80 in expenses.
Hissey Kientz. Hissey Kientz partner Erik Walker is
a member of the Plaintiffs’ Steering Committee. The
firm contributed to the common benefit of the Cook
and Ethicon MDLs. The firm participated in the
preparation of the Ethicon Bellwether case,
Bellew. The firm submitted 1,266.10 hours for
review by the FCC. The Fee Committee recognized a
total of 1,145.90 hours and $2,619.91 in expenses.
The firm contributed $350,000.00 in assessments.
Based on a complete review of the time and expense
records, the Fee Affidavit, and evaluation of the
firm’s overall contribution to the common benefit of
the MDLs, the Fee Committee recommends an
allocation of $306,978.00 (0.0877080%), plus
reimbursement of the firm’s $350,000.00 in
assessments, and reimbursement of $2,619.91 in
expenses.

139a

Hunt & Lees, L.C. Hunt & Lees contributed to the
common benefit of the Bard MDL. The firm
conducted a focus group, performed document
review, and assisted with trial preparation for a
Bard bellwether case. The firm submitted 278.40
hours for review by the FCC. The Fee Committee
recognized a total of 261.70 hours and $14,895.21 in
expenses. The firm did not pay an assessment.
Based on a complete review of the time and expense
records, the Fee Affidavit, and evaluation of the
firm’s overall contribution to the common benefit of
the MDLs, the Fee Committee recommends an
allocation of $82,425.00 (0.0235500%), plus
reimbursement of the firm’s $14,895.21 in expenses.
Irpino Avin & Hawkins Law Firm. The firm
contributed to the Bard, Cook and Ethicon MDLs.
The firm participated in discovery, specifically
privilege matters, in the Bard, Cook and Ethicon
MDLs. The firm submitted 3,286.90 hours for review
by the FCC. The Fee Committee recognized a total of
3,285.80 hours and a total of $6,999.14 in expenses.
The firm did not pay an assessment. Based on a
complete review of the time and expense records, the
Fee Affidavit, and evaluation of the firm’s overall
contribution to the common benefit of the MDLs, the
Fee Committee recommends an allocation of
$785,074.50 (0.2243070%), plus reimbursement of
the firm’s $6,999.14 in expenses.
Johnson Becker, PLLC. Johnson Becker partner
Lisa Gorshe is a member of the Plaintiffs’ Steering
Committee. The firm contributed to the common
benefit of the AMS and BSC MDLs. The firm
participated in discovery, law and briefing and
conducted depositions for the AMS MDL. The firm
submitted 3,243.40 hours for review by the FCC. The
140a

Fee Committee recognized a total 3,126.40 hours and
a total of $34,897.65 in expenses. The firm
contributed $350,000.00 in assessments. Based on a
complete review of the time and expense records, the
Fee Affidavit, and evaluation of the firm’s overall
contribution to the common benefit of the MDLs, the
Fee Committee recommends an allocation of
$715,102.50 (0.2043150%), plus reimbursement of
the firm’s $350,000.00 in assessments, and
reimbursement of $34,897.65 in expenses.
Junell & Associates. Junell & Associates contributed
to the common benefit of the AMS MDL. The firm
participated in settlement negotiations with AMS
with implications for all cases in the MDL and
assisted with drafting a Master Settlement
Agreement. The firm submitted 2,249.76 hours for
review by the FCC. The Fee Committee recognized a
total of 526.90 hours. The firm did not pay an
assessment. Based on a complete review of the
time and expense records, the Fee Affidavit, and
evaluation of the firm’s overall contribution to the
common benefit of the MDLs, the Fee Committee
recommends
an
allocation
of
$165,970.00
(0.0474200%).
Keith Miller Butler. Keith Miller Butler contributed
to the common benefit of the Ethicon MDL. The firm
performed document review, participated in general
discovery work, prepared for and conducted
depositions, and drafted motions. The firm
submitted 4,130.00 hours for review by the FCC. The
Fee Committee recognized a total of 3,926.30 hours
and $17,151.53 in expenses. The firm did not pay an
assessment. Based on a complete review of the time
and expense records, the Fee Affidavit, and
evaluation of the firm’s overall contribution to the
141a

common benefit of the MDLs, the Fee Committee
recommends
an
allocation
of
$904,638.00
(0.2584680%), plus reimbursement of the firm’s
$17,151.53 in expenses.
Kell Lampin, L.L.C. Kell Lampin contributed to
the common benefit of the AMS, Bard, and Ethicon
MDLs.
The firm performed general Ethicon
discovery, including preparing for depositions,
conducting depositions, and document review.
Additionally, the firm deposed plaintiffs and casespecific witnesses for a Bard Wave case, an Ethicon
bellwether case, and a compensable AMS state court
case. The firm submitted 1,714.60 hours for review
by the FCC. The Fee Committee recognized a total of
1,609.90 hours and $43,541.16 in expenses. The firm
did not pay an assessment. Based on a complete
review of the time and expense records, the Fee
Affidavit, and evaluation of the firm’s overall
contribution to the common benefit of the MDLs, the
Fee Committee recommends an allocation of
$327,101.25 (0.0934575%), plus reimbursement of
the firm’s $43,541.16 in expenses.
Kline & Specter, P.C. Kline & Specter partner Lee
B. Balefsky is a member of the Plaintiffs’ Steering
Committee. Although in a position of leadership in
the MDL, the firm generally preferred to work in
state court in their home venue of Philadelphia,
Pennsylvania, and expended significant hours
fighting removal of Ethicon cases from state court
there. This effort included thousands of hours of
document review on the discrete issue of whether
remand was appropriate. The Mass Tort Program in
Philadelphia was an additional pressure point in the
Ethicon litigation. The firm participated in early
Ethicon document review as well. However, the firm’s
142a

efforts often conflicted with the cooperative efforts in
the MDL, and the firm mandamused the Court,
which the Fourth Circuit denied in turn. In the
Philadelphia Mass Tort Program in Pennsylvania
State Court, the firm assisted in obtaining several
successful verdicts against Ethicon, although most of
those verdicts came on products where Plaintiffs’
verdicts were already obtained either in the MDL or
in prior state courts. The firm acknowledges that
much of the work product used in their state court
trials was obtained from the MDL, and MDL
attorneys – including leadership in the Ethicon MDL,
BSC MDL and others –also participated in the workup and trial of those cases. The firm appeared at a
number of MDL corporate witness liability
depositions by telephone but asked no questions at
most of them. The firm tried no cases in the MDL and
was not an active participant in the overall strategy
and decision-making of the PSC. The Fee
Committee notes that the firm declined to
participate meaningfully in the fee allocation
process, declining to provide additional information
to specific entries whose appropriateness was
questioned. The firm has ultimately performed good
work in representing their individual clients in state
court in Pennsylvania. The firm’s efforts largely
consisted of utilizing common benefit work from the
MDL rather than working to create common benefit
to share with and make available to MDL claimants.
The firm submitted 32,270.19 hours for review by
the FCC. The Fee Committee recognized a total of
9,402.19 hours and $667,584.48 in expenses. The
firm contributed $350,000.00 in assessments. Based
on a complete review of the time and expense
records, the Fee Affidavit, the firm’s in-person
143a

presentation to the Fee Committee, and evaluation of
the firm’s overall contribution to the common benefit
of the MDLs, the Fee Committee recommends an
allocation of $3,745,000.00 (1.0700000%), plus
reimbursement of the firm’s $350,000.00 in
assessments, and reimbursement of $667,584.48 in
expenses.
Laminack, Pirtle & Martines, L.L.P. Laminack,
Pirtle & Martines contributed to the common benefit
of the BSC MDL. The firm prepared for and
conducted the depositions of corporate witnesses and
defense experts for the BSC MDL. The firm
submitted 756.75 hours for review by the FCC. The
Fee Committee recognized a total of 756.75 hours
and $37,286.70 in expenses. The firm did not pay an
assessment. Based on a complete review of the time
and expense records, the Fee Affidavit, and
evaluation of the firm’s overall contribution to the
common benefit of the MDLs, the Fee Committee
recommends
an
allocation
of
$639,037.00
(0.1825820%), plus reimbursement of the firm’s
$37,286.70 in expenses.
The Lanier Law Firm. Lanier Law Firm partner
Rick Meadow is a member of the Plaintiffs’
Steering Committee. The firm contributed to the
common benefit of the AMS, BSC, Bard, and Ethicon
MDLs. The firm participated in discovery for wave
cases in the Bard, BSC, and Ethicon MDLs. The firm
also performed document review for the BSC MDL.
The firm submitted 3,847.04 hours for review by
the FCC. The Fee Committee recognized a total of
3,660.64 hours and $15,671.35 in expenses. The
firm contributed $350,000.00 in assessments. Based
on a complete review of the time and expense
records, the Fee Affidavit, and evaluation of the
144a

firm’s overall contribution to the common benefit of
the MDLs, the Fee Committee recommends an
allocation of $654,228.75 (0.1869225%), plus
reimbursement of the firm’s $350,000.00 in
assessments, and reimbursement of $15,671.35 in
expenses.
Levin, Papantonio, Thomas, Mitchell, Rafferty,
Proctor, P.A. Levin, Papantonio, Thomas, Mitchell,
Rafferty, Proctor partner Robert Price is a member of
the Plaintiffs’ Steering Committee. The firm
contributed to the AMS, Bard, BSC and Ethicon
MDLs. The firm participated in discovery for wave
cases for the Ethicon MDL. The firm appeared to
have excessive time for many of the work
assignments. The firm also performed document
review and research and briefing for the Bard MDL.
The firm submitted 2,938.50 hours for review by the
FCC. The Fee Committee recognized a total of
1,975.08 hours and $41,058.32 in expenses. The firm
contributed $350,000.00 in assessments. Based on a
complete review of the time and expense records, the
Fee Affidavit, and evaluation of the firm’s overall
contribution to the common benefit of the MDLs, the
Fee Committee recommends an allocation of
$383,643.75 (0.1096125%), plus reimbursement of
the firm’s $350,000.00 in assessments, and
reimbursement of $41,058.32 in expenses.
Levin Simes, LLP. Levin Simes partner Amy Eskin
started litigation against AMS before the creation
of the MDL and was named Co-Lead of the AMS
MDL upon its creation as well as a member of the
Executive Committee and the Plaintiffs’ Steering
Committee. The firm participated in the preparation
of the strategy for proving liability in the AMS MDL.
The firm also participated in depositions and
145a

document review in the AMS MDL. Despite the
firm’s leadership position in AMS, Levin Simes’
commitment to the litigation waned at times and
other firms were forced to increase their
participation. There were depositions taken by the
firm which had to be re-taken in the MDL because
the original deposition was taken for specific cases
and not for MDL purposes. There were no trials in
the AMS MDL, and the firm had limited work in the
other MDLs. The firm submitted 26,072.65 hours
for review by the FCC. The Fee Committee
recognized a total of 14,298.14 hours and
$484,095.89 in expenses. The firm contributed
$400,000.00 in assessments. Based on a complete
review of the time and expense records, the Fee
Affidavit, the firm’s in-person presentation to the
Fee Committee, and evaluation of the firm’s overall
contribution to the common benefit of the MDLs, the
Fee Committee recommends an allocation of
$5,510,001.00 (1.5742860%), plus reimbursement of
the firm’s $400,000.00 in assessments, and
reimbursement of $484,095.89 in expenses.
Lockridge Grindal Nauen. Lockridge Grindal Nauen
partner Yvonne Flaherty was appointed to the
Plaintiffs’ Steering Committee. The firm primarily
contributed to the AMS litigation. The firm
conducted document review, took AMS liability
depositions, worked up experts, and worked with
leadership and the AMS team to develop and
implement a bellwether strategy. As the AMS
litigation moved towards trial, the firm assisted with
deposition designations. The firm was also
responsible for managing the Minnesota State court
litigation as Co-Lead Counsel and briefed and argued
issues related to release of the Ambroff documents, a
146a

motion which occurred prior to the MDL hearing
and provided motion papers and transcripts to
MDL leadership in advance of a comparable MDL
hearing. In the BSC litigation, the firm assisted
the development of expert witnesses. In Ethicon,
the firm responded to calls for assistance in
managing the volume of production and deposition
preparation. The firm submitted 17,487.30 hours for
review by the FCC. The Fee Committee recognized
15,871.50 hours and $79,703.00 in expenses. The
firm contributed $350,000.00 in assessments. Based
on a complete review of the time and expense
records, the Fee Affidavit, the firm’s in-person
presentation to the Fee Committee, and evaluation
of the firm’s overall contribution to the common
benefit of the MDLs, the Fee Committee
recommends
an allocation of $6,405,000.00
(1.8300000%), plus reimbursement of the firm’s
$350,000.00 in assessments, and reimbursement of
$79,703.00 in expenses.
Lopez McHugh. The firm contributed to the common
benefit of the BSC, Bard, and AMS MDLs. The firm
primarily participated in the workup of two early
BSC potential bellwethers, Simmons and Meadows.
The firm submitted 264.78 hours for review by the
FCC. The Fee Committee recognized a total of
255.58 hours and $3,293.31 in expenses. The firm did
not pay an assessment. Based on a complete review
of the time and expense records, the Fee Affidavit,
and evaluation of the firm’s overall contribution to
the common benefit of the MDLs, the Fee Committee
recommends
an
allocation
of
$43,601.25
(0.0124575%), plus reimbursement of the firm’s
$3,293.31 in expenses.

147a

Lyon Firm. The firm contributed to the common
benefit of the Ethicon MDL. The firm performed
document review for the Ethicon MDL. The firm
submitted 307.00 hours for review by the FCC. The
Fee Committee recognized a total of 232.00 hours.
The firm did not pay an assessment. Based on a
complete review of the time and expense records, the
Fee Affidavit, and evaluation of the firm’s overall
contribution to the common benefit of the MDLs, the
Fee Committee recommends an allocation of
$43,601.25 (0.0124575%).
Matthews & Associates. Matthews & Associates
partner David Matthews is a member of the
Plaintiffs’ Steering Committee. In reviewing the
firm, the Committee notes the close working
relationship between Freese & Goss and Matthews
and Associates. The firm performed common benefit
work in the AMS, Boston Scientific and Ethicon
MDLs. The firm’s contribution to common benefit
was principally through the trial of cases in state
and federal court, including a bellwether MDL trial
(Lewis) which resulted in a directed verdict for the
Defendant. The firm tried six cases and resolved an
additional two shortly before trial. The firm also
participated in depositions and document review,
primarily related to its state court and wave cases.
The trial efforts of the firm assisted the overall
progress of the MDL through continued pressure
upon the defendants with focus on BSC and Ethicon.
The firm made contributions to the common benefit
of the MDLs through its state court work. The firm
submitted 8,140.00 hours for review by the FCC.
The FCC recognizes a total of 6,602.00 hours and
$376,254.76 in expenses. The firm contributed
$350,000.00 in assessments. Based on a complete
148a

review of the time and expense records, the Fee
Affidavit, the firm’s in-person presentation to the
Fee Committee, and evaluation of the firm’s overall
contribution to the common benefit of the MDLs, the
Fee Committee recommends an allocation of
$4,122,174.00 (1.1777640%), plus reimbursement
of the firm’s $350,000.00 in assessments, and
reimbursement of $376,254.76 in expenses.
Mazie Slater Katz & Freeman. Mazie Slater Katz &
Freeman contributed to the common benefit of the
Ethicon MDL. The firm was one of the first to bring
TVM lawsuits and focused almost entirely upon
litigation in New Jersey state court. In pursuit of
the New Jersey litigation, the firm undertook
discovery, document review, trial preparation and
trial. The firm tried the Gross case in New Jersey
and that work has been recognized. The Fee
Committee notes that multiple firms submitted
substantial time related to the trial of the Gross case.
The firm’s work contributed to the common benefit of
the MDL in the pursuit of claims against Ethicon
and in the availability of documents discovered in
the New Jersey litigation. For a period of time there
was reluctance by the firm to make expert witnesses
available for the common benefit of the MDL
without seeking a personal financial arrangement
with the specific plaintiff’s firm involved in the
request. The firm submitted 29,752.27 hours for
review by the FCC. The Fee Committee recognized a
total of 19,482.75 hours and $1,815,034.41 in
expenses. The fee and expense submission of the firm
were very difficult for the committee to examine and
much effort was expended by the Fee Committee in
evaluating the submission of the firm. The firm did
not pay an assessment. Based on a complete review
149a

of the time and expense records, the Fee Affidavit,
the firm’s in-person presentation to the Fee
Committee, and evaluation of the firm’s overall
contribution to the common benefit of the MDLs, the
Fee Committee recommends an allocation of
$6,020,000.00 (1.7200000%), plus reimbursement of
the firm’s $1,815,034.41 in expenses.
Meyers & Flowers, LLC. Meyers & Flowers partner
Pete Flowers is a member of the Plaintiffs’ Steering
Committee. The firm contributed to the common
benefit of the Bard, BSC and Ethicon MDLs. The
firm participated in discovery for wave cases in the
Bard, BSC and Ethicon MDLs. The firm also
performed document review for the Bard, BSC and
Ethicon MDLs. The firm submitted 2,633.38 hours
for review by the FCC. The Fee Committee
recognized 1,924.80 hours and $32,328.06 in
expenses. The firm contributed $100,000.00 in
assessments. Based on a complete review of the time
and expense records, the Fee Affidavit, and
evaluation of the firm’s overall contribution to the
common benefit of the MDLs, the Fee Committee
recommends
an
allocation
of
$454,728.75
(0.1299225%), plus reimbursement of the firm’s
$100,000.00 in assessments, and reimbursement of
$32,328.06 in expenses.
Miller Firm, LLC. Miller Firm partner Michael
Miller is a member of the Plaintiffs’ Steering
Committee. The firm contributed to the common
benefit of the MDLs through its payment of the MDL
assessment. The firm contributed $350,000.00 in
assessments. The Fee Committee recommends
reimbursement of the firm’s $350,000.00 in
assessments.
150a

The Monsour Law Firm. Monsour Law Firm partner
Douglas Monsour is a member of the Plaintiffs’
Steering Committee. The firm contributed to the
common benefit of the MDLs, with a focus in the
Ethicon and Boston Scientific MDLs. The firm was
trial counsel in two Boston Scientific cases—the first
in Massachusetts state court which resulted in a
defense verdict, and then as co-lead counsel in the
first consolidated sling trial in the MDL in Boston
Scientific in the Southern District of West Virginia,
Judge Berger presiding, which resulted in a verdict
for plaintiffs that was affirmed on appeal by the
Fourth Circuit. The firm also contributed to the
strategic development of the cases against BSC and
Ethicon, assisting in training meetings for wave
counsel that often had less exposure and experience
in these cases. The firm also conducted corporate
liability witness depositions in Boston Scientific and
Ethicon, some of which were important to the overall
litigation. The firm provided leadership in the area of
expert witnesses for Plaintiffs across MDLs. The
firm submitted 14,144.85 hours for review by the
FCC. The Fee Committee recognized a total of
13,267.75 hours and $232,499.22 in expenses. The
firm contributed $350,000.00 in assessments. Based
on a complete review of the time and expense
records, the Fee Affidavit, and evaluation of the
firm’s overall contribution to the common benefit of
the MDLs, the Fee Committee recommends an
allocation of $4,965,002.00 (1.4185720%), plus
reimbursement of the firm’s $350,000.00 in
assessments, and reimbursement of $232,499.22 in
expenses.

151a

Moody Law Firm, Inc. Moody Law Firm partner
Willard J. Moody, Jr. is a member of the Plaintiffs’
Steering Committee. The firm contributed to the
common benefit of the AMS and BSC MDLs. The
firm performed document review. The firm also
deposed AMS and BSC witnesses. The firm
submitted 4,618.06 hours for review by the FCC. The
Fee Committee recognized a total of 4,125.97 hours
and $10,555.33 in expenses. The firm contributed
$250,000.00 in assessments. Based on a complete
review of the time and expense records, the Fee
Affidavit, and evaluation of the firm’s overall
contribution to the common benefit of the MDLs, the
Fee Committee recommends an allocation of
$844,312.00 (0.2412320%), plus reimbursement of
the firm’s $250,000.00 in assessments, and
reimbursement of $10,555.33 in expenses.
Morgan & Morgan, PA. Morgan & Morgan partner
Michael Goetz is a member of the Plaintiffs’ Steering
Committee. The firm contributed to the Bard MDL.
The firm participated in the depositions of plaintiffs
and treating physicians in the Bard MDL. The firm
submitted 521.54 hours for review by the FCC. The
Fee Committee recognized 513.54 hours and $961.36
in expenses. The firm contributed $350,000.00 in
assessments. Based on a complete review of the time
and expense records, the Fee Affidavit, and
evaluation of the firm’s overall contribution to the
common benefit of the MDLs, the Fee Committee
recommends
an
allocation
of
$101,771.25
(0.0290775%), plus reimbursement of the firm’s
$350,000.00 in assessments, and reimbursement of
$961.36 in expenses.

152a

Mostyn Law Firm P.C. Mostyn Law Firm partner
Steve Mostyn was a Co-lead in the Coloplast MDL
and a member of the Plaintiffs’ Steering Committee.
The firm contributed to the common benefit of the
BSC and Coloplast MDLs. The firm conducted
discovery and liability work-up for the BSC MDL.
The firm also helped negotiate settlements in the
Coloplast MDL that benefitted other firms in the
MDL. The firm submitted 3,058.05 hours for
review by the FCC. The Fee Committee recognized
a total of 677.65 hours and $4,531.84 in expenses.
The firm contributed $350,000.00 in assessments.
Based on a complete review of the time and expense
records, the Fee Affidavit, and evaluation of the
firm’s overall contribution to the common benefit of
the MDLs, the Fee Committee recommends an
allocation of $213,465.00 (0.0609900%), plus
reimbursement of the firm’s $350,000.00 in
assessments, and reimbursement of $4,531.84 in
expenses.
Motley Rice, LLC. Motley Rice, LLC played an
active role in the state and federal litigation of
transvaginal mesh from its inception. Motley Rice
partner Fred Thompson was appointed by Judge
Goodwin Coordinating Co-Lead for all transvaginal
mesh MDLs and as a member of the Plaintiffs’
Steering Committee and Executive Committee.
Motley Rice partner Fidelma Fitzpatrick was
appointed as Co-Lead Counsel for the AMS MDL
and as a member of the Plaintiffs’ Steering
Committee. The firm managed litigation in state
and federal court, conducted discovery, tried cases,
coordinated work among the MDLs, briefed and
argued appeals, and negotiated and resolved cases.
The firm also had wave cases. Prior to formation of
153a

the MDL litigation, Motley Rice engaged in
investigation and litigation of Boston Scientific cases
in Massachusetts state court and AMS cases in
Delaware and Minnesota. Motley Rice developed and
managed general liability experts, including reports,
depositions, and briefing. Motley Rice secured the
first MDL verdict against Ethicon on a TVT-O
product. The firm had common benefit work
recognized in each of the major MDLs. The firm
submitted 87,731.44 hours for review by the FCC.
The Fee Committee recognized a total of 60,253.34
hours and $2,927,113.91 in expenses. The firm
contributed $350,000.00 in assessments. Based on a
complete review of the time and expense records, the
Fee Affidavit, the firm’s in-person presentation to
the Fee Committee, and evaluation of the firm’s
overall contribution to the common benefit of the
MDLs, the Fee Committee recommends an
allocation of $49,000,000.00 (14.0000000%), plus
reimbursement of the firm’s $350,000.00 in
assessments, and reimbursement of $2,927,113.91 in
expenses.
Mueller Law Firm. Mueller Law Firm partner Mark
Mueller is a member of the Plaintiffs’ Steering
Committee and was Co-Lead of the Coloplast
MDL. The firm was Co-chair of the Science and
Experts Committee which was functioning in the
early stages of the litigation. The firm devoted time
and resources to science and expert projects,
principally in the Bard and AMS MDLs. The firm
pursued and obtained experts for the litigation, and
was involved in developing such experts and
preparing reports for substantial numbers of
experts. The firm is credited with the discovery and
work up of the MSDS related to Bard polypropylene
154a

and helped pursue its use in the litigation. This piece
of evidence contributed to the success of the
litigation. The firm’s time submission to the
Committee was of poor quality and posed a challenge
for the Committee which required investigation by
the Committee to determine the common benefit
time and expense. The firm submitted 35,922.39
hours for review by the FCC. The Fee Committee
recognized 11,846.40 hours and $263,115.43 in
expenses. The firm contributed $350,000.00 in
assessments. Based on a complete review of the time
and expense records, the Fee Affidavit, the firm’s inperson presentation to the Fee Committee, and
evaluation of the firm’s overall contribution to the
common benefit of the MDLs, the Fee Committee
recommends an allocation of $4,760,000.00
(1.3600000%), plus reimbursement of the firm’s
$350,000.00 in assessments, and reimbursement of
$263,115.43 in expenses.
NastLaw, L.L.C. NastLaw partner Dianne Nast is a
member of the Plaintiffs’ Steering Committee. The
firm contributed to the common benefit of the AMS,
BSC, Coloplast, and Ethicon MDLs. The firm
performed
document
review,
research,
and
deposition work for the Ethicon MDL. The firm
submitted 2,165.10 hours for review by the FCC.
The Fee Committee recognized a total of 2,102.30
hours and $20,515.89 in expenses. The firm
contributed $350,000.00 in assessments. Based on a
complete review of the time and expense records, the
Fee Affidavit, and evaluation of the firm’s overall
contribution to the common benefit of the MDLs, the
Fee Committee recommends an allocation of
$399,813.75 (0.1142325%), plus reimbursement of

155a

the firm’s $350,000.00 in assessments,
reimbursement of $20,515.89 in expenses.

and

Nations Law Firm. The firm contributed to the
common benefit of the BSC MDL. The firm
participated in the deposition of a BSC bellwether
plaintiff. The firm submitted 98.60 hours for review
by the FCC. The Fee Committee recognized a total
of 65.50 hours and $30,231.86 in expenses. The
firm did not pay an assessment. Based on a complete
review of the time and expense records, the Fee
Affidavit, and evaluation of the firm’s overall
contribution to the common benefit of the MDLs, the
Fee Committee recommends an allocation of
$15,487.50 (0.0044250%), plus reimbursement of the
firm’s $30,231.86 in expenses.
Neblett, Beard & Arsenault. Neblett, Beard &
Arsenault partner Richard Arsenault is a member of
the Plaintiffs’ Steering Committee. The firm
contributed to the common benefit of the AMS,
Bard, BSC, Cook and Ethicon MDLs. The firm
participated in discovery and document review for
the Cook and Ethicon MDLs. The firm submitted
837.27 hours for review by the FCC. The Fee
Committee recognized 765.12 hours and $8,523.52
in expenses. The firm contributed $350,000.00 in
assessments. Based on a complete review of the time
and expense records, the Fee Affidavit, and
evaluation of the firm’s overall contribution to the
common benefit of the MDLs, the Fee Committee
recommends
an
allocation
of
$137,340.00
(0.0392400%), plus reimbursement of the firm’s
$350,000.00 in assessments, and reimbursement of
$8,523.52 in expenses.

156a

The Oliver Law Group, P.C. Oliver Law Group
partner Alyson Oliver is a member of the Plaintiffs’
Steering Committee. The firm contributed to the
common benefit of the AMS, Cook, and Ethicon
MDLs. The firm completed discovery for Ethicon
wave cases and performed document review. The
firm submitted 2,510.10 hours for review by the
FCC. The Fee Committee recognized a total of
2,259.30 hours and $17,040.78 in expenses. The firm
contributed $175,000.00 in assessments. Based on a
complete review of the time and expense records, the
Fee Affidavit, and evaluation of the firm’s overall
contribution to the common benefit of the MDLs, the
Fee Committee recommends an allocation of
$436,170.00 (0.1246200%), plus reimbursement of
the firm’s $175,000.00 in assessments, and
reimbursement of $17,040.78 in expenses.
Osborne & Associates. Osborne & Associates partner
Joseph Osborne is a member of the Plaintiffs’
Steering Committee. The firm contributed to the
BSC and Ethicon MDLs. The firm participated in
bellwether cases for the BSC and Ethicon MDLs.
The firm also participated in document review for
the BSC MDL. The firm submitted 1,247.20 hours
for review by the FCC. The Fee Committee
recognized 740.80 hours. The firm did not pay an
assessment. Based on a complete review of the time
and expense records, the Fee Affidavit, and
evaluation of the firm’s overall contribution to the
common benefit of the MDLs, the Fee Committee
recommends
an
allocation
of
$533,347.50
(0.1523850%).
Paul Sadler Law Firm. The firm performed common
benefit work in the CR Bard MDL. The firm’s
contribution to common benefit focused upon the
157a

taking of depositions in MDL wave cases and the
taking of expert depositions in the MDL. The firm
also took the lead in the deposition of the Chief
Operating Officer of Bard. The firm submitted 315.10
hours for review by the FCC. The Fee Committee
recognized a total of 211.10 hours and $2,332.07 in
expenses. The firm did not pay an assessment. Based
on a complete review of the time and expense records,
the Fee Affidavit, and evaluation of the firm’s overall
contribution to the common benefit of the MDLs, the
Fee Committee recommends an allocation of
$130,704.00 (0.0373440%), plus reimbursement of
the firm’s $2,332.07 in expenses.
Perdue & Kidd. Perdue & Kidd contributed to the
common benefit of the AMS, Bard, Boston Scientific
and Ethicon MDLs. The firm performed discovery,
deposition and bellwether trial work in the MDLs.
The firm took the deposition of Chevron Phillips
Sumika in furtherance of issues regarding the
Material
Safety
Data
Sheet
for
Marlex
Polypropylene. The firm submitted 3,337.05 hours
for review by the FCC. The Fee Committee
recognized a total of 3,295.80 hours and
$68,707.62 in expenses. The firm did not pay an
assessment. Based on a complete review of the time
and expense records, the Fee Affidavit, the firm’s inperson presentation to the Fee Committee, and
evaluation of the firm’s overall contribution to the
common benefit of the MDLs, the Fee Committee
recommends an allocation of $1,785,000.00
(0.5100000%), plus reimbursement of the firm’s
$68,707.62 in expenses.
Piscitelli Law Firm. The Piscitelli Law Firm
contributed to the common benefit of the Ethicon
MDL. The firm performed document review,
158a

prepared for depositions, and deposed Ethicon sales
representatives for two wave cases. The firm
submitted 58.10 hours for review by the FCC. The
Fee Committee recognized a total of 54.30 hours. The
firm did not pay an assessment. Based on a complete
review of the time and expense records, the Fee
Affidavit, and evaluation of the firm’s overall
contribution to the common benefit of the MDLs,
the Fee Committee recommends an allocation of
$12,836.25 (0.0036675%).
Potts Law Firm. Potts Law Firm partner Derek
Potts is a member of the Plaintiffs’ Steering
Committee, Executive Committee, and is a Co-Lead
Plaintiff’s Counsel in the Bard and Neomedic MDLs.
Potts Law Firm was an active participant early in
the formation of the TVM MDL. This early work
included time in document review and work in
anticipation of Bard sling trials. The firm also took
Bard corporate depositions. Further, the firm, in
connection with several other firms, gathered cases
at the request on AMS to assist in resolution under
AMS’s resolution program. In the Neomedic MDL,
the firm identified the limited financial resources of
the defendant and worked to pursue settlement
opportunities for plaintiffs. Most recently, the firm
worked at the Court’s request in resolving cases
with pro se plaintiffs or where plaintiff’s counsel has
few filings. Mr. Potts’ work in resolving cases has
aided in reducing the number of pending cases on
the active docket. The firm submitted 29,172.24
hours for review by the FCC. The Fee Committee
recognized a total of 19,287.84 hours and
$210,083.09 in expenses. The firm contributed
$350,000.00 in assessments. Based on a complete
review of the time and expense records, the Fee
159a

Affidavit, the firm’s in-person presentation to the
Fee Committee, and evaluation of the firm’s overall
contribution to the common benefit of the MDLs,
the Fee Committee recommends an allocation of
$6,975,003.00 (1.9928580%), plus reimbursement of
the firm’s $350,000.00 in assessments, and
reimbursement of $210,083.09 in expenses.
Pritzker Hageman, P.A. The firm contributed to
the common benefit of the Cook and AMS MDLs.
The firm primarily participated in the AMS
Minnesota Consolation and performed document
review for the Cook MDL. The firm submitted
178.10 hours for review by the FCC. The Fee
Committee recognized a total of 116.10 hours and
$6,455.24 in expenses. The firm did not pay an
assessment. Based on a complete review of the
time and expense records, the Fee Affidavit, the
firm’s in-person presentation to the Fee Committee,
and evaluation of the firm’s overall contribution to
the common benefit of the MDLs, the Fee
Committee recommends an allocation of $25,436.25
(0.0072675%), plus reimbursement of the firm’s
$6,455.24 in expenses.
Reilly Pozner. Reilly Pozner former partner Joseph
Zonies is a member of the Plaintiffs’ Steering
Committee. The firm participated in discovery,
briefing, expert matters, document review and
bellwether and consolidated cases in the Ethicon
MDL. The firm submitted 6,390.30 hours for review
by the FCC. The Fee Committee recognized 7,148.30
hours and $225,913.39 in expenses. The firm
contributed $350,000.00 in assessments. Based on a
complete review of the time and expense records, the
Fee Affidavit, and evaluation of the firm’s overall
contribution to the common benefit of the MDLs, the
160a

Fee Committee recommends an allocation of
$2,920,001.00 (0.8342860%), plus reimbursement of
the firm’s $350,000.00 in assessments, and
reimbursement of $225,913.39 in expenses.
Restaino Law, LLC. The firm performed common
benefit work in the Ethicon MDL. The firm
participated in the review of medical literature and
assisted in the taking of expert depositions. The firm
submitted 1,913.60 hours for review by the FCC.
The Fee Committee recognized 1,323.60 hours. The
firm did not pay an assessment. Based on a
complete review of the time and expense records, the
Fee Affidavit, and evaluation of the firm’s overall
contribution to the common benefit of the MDLs, the
Fee Committee recommends an allocation of
$264,521.25 (0.0755775%).
Robins Cloud, LLP. Robins Cloud partner Bill
Robins is a member of the Plaintiffs’ Steering
Committee. The firm performed common benefit
work in the Ethicon MDL. The firm participated in
discovery and depositions of Ethicon corporate
witnesses. The firm submitted 522.60 hours for
review by the FCC. The Fee Committee recognized
502.90 hours and $33,552.71 in expenses. The firm
contributed $350,000.00 in assessments. Based on a
complete review of the time and expense records, the
Fee Affidavit, and evaluation of the firm’s overall
contribution to the common benefit of the MDLs, the
Fee Committee recommends an allocation of
$145,390.00 (0.0415400%), plus reimbursement of
the firm’s $350,000.00 in assessments, and
reimbursement of $33,552.71 in expenses.
Robinson Calcagnie, Inc. Robinson Calcagnie former
partner Karen Menzies is a member of the Plaintiffs’
161a

Steering Committee. The firm performed common
benefit work in MDLs. The firm participated in
meetings of the Plaintiffs’ Steering Committee. The
firm submitted 278.20 hours for review by the FCC.
The Fee Committee recognized 32.00 hours and
$13,518.39 in expenses. The firm contributed
$350,000.00 in assessments. Based on a complete
review of the time and expense records, the Fee
Affidavit, and evaluation of the firm’s overall
contribution to the common benefit of the MDLs, the
Fee Committee recommends an allocation of
$7,560.00 (0.0021600%), plus reimbursement of the
firm’s
$350,000.00
in
assessments,
and
reimbursement of $13,518.39 in expenses.
Salim Beasley, L.L.C. Salim Beasley partner Robert
Salim is a member of the Plaintiffs’ Steering
Committee and serves as Co-Lead for the Coloplast
MDL. The firm contributed to the common benefit of
all the pelvic mesh MDLs, with particular focus in
Coloplast and Ethicon MDLs. As Co-Lead for the
Coloplast MDL, the firm also worked on an early
settlement resolution program. The firm conducted
Coloplast discovery and briefing. The firm submitted
7,102.72 hours for review by the FCC. The Fee
Committee recognized a total of 5,729.07 hours and
$107,219.58 in expenses. The firm contributed
$350,000.00 in assessments. Based on a complete
review of the time and expense records, the Fee
Affidavit, and evaluation of the firm’s overall
contribution to the common benefit of the MDLs, the
Fee Committee recommends an allocation of
$2,170,000.00 (0.6200000%), plus reimbursement of
the firm’s $350,000.00 in assessments, and
reimbursement of $107,219.58 in expenses.

162a

The Sanders Firm. Sanders Firm partner Victoria
Maniatis is a member of Plaintiffs’ Steering
Committee. The firm participated in discovery in the
AMS and Ethicon MDLs, science and expert matters
in the AMS MDL, and document review in the AMS,
Ethicon and BSC MDLs. The firm submitted
1,454.70 hours for review by the FCC. The Fee
Committee recognized a total of 672.30 hours and
$102,554.64 in expenses. The firm contributed
$350,000.00 in assessments. Based on a complete
review of the time and expense records, the Fee
Affidavit, the firm’s in-person presentation to the Fee
Committee, and evaluation of the firm’s overall
contribution to the common benefit of the MDLs, the
Fee Committee recommends an allocation of
$101,773.00 (0.0290780%), plus reimbursement of
the firm’s $350,000.00 in assessments, and
reimbursement of $102,554.64 in expenses.
Saunders & Walker, PA. Saunders & Walker
partner Joseph Saunders is a member of the
Plaintiffs’ Steering Committee. The firm contributed
to the common benefit of the Ethicon MDL. The firm
worked in obtaining and reviewed documents from
the Food and Drug Administration. The firm
submitted 190.05 hours for review by the FCC. The
Fee Committee recognized a total of 125.45 hours
and $134.64 in expenses. The firm contributed
$100,000.00 in assessments. Based on a complete
review of the time and expense records, the Fee
Affidavit, and evaluation of the firm’s overall
contribution to the common benefit of the MDLs, the
Fee Committee recommends an allocation of
$29,662.50 (0.0084750%), plus reimbursement of the
firm’s
$100,000.00
in
assessments,
and
reimbursement of $134.64 in expenses.
163a

Schroeder Law Office. Schroeder Law Office partner
Karen H. Beyea-Schroeder is a member of the
Plaintiffs’ Steering Committee and Co-Lead of the
Neomedic MDL. As a Co-Lead for the Neomedic
MDL, she investigated distributor liability causes
of action and distributor policies, negotiated lien
waivers with Medicare and Rawlings, and negotiated
lien resolution services to be provided at no expense.
Schroeder Law Office also contributed to negotiating
the Neomedic settlement release and substitution
process to increase settlement participation. The firm
submitted 20.40 hours for review by the FCC. The
Fee Committee recognized a total of 20.40 hours
(the majority of Ms. Schroeder’s time was submitted
while she was an attorney at Fleming, Nolen & Jez).
The firm did not pay an assessment. Based on a
complete review of the time, the Fee Affidavit, and
evaluation of the firm’s overall contribution to the
common benefit of the MDLs, the Fee Committee
recommends
an
allocation
of
$4,830.00
(0.0013800%).
Seeger Weiss, LLP. Seeger Weiss partner Jeffrey
Grand is a member of the Plaintiffs’ Steering
Committee. The firm contributed to the common
benefit of the Ethicon and Bard MDLs, but their
work was primarily for the New Jersey litigation as
they served as co-liaison counsel. The firm
participated in depositions and worked up
bellwether trial candidates in the New Jersey
litigation. The firm submitted 608.50 hours for
review by the FCC. The Fee Committee recognized a
total of 543.25 hours and $98,011.34 in expenses.
The firm did not pay an assessment. Based on a
complete review of the time and expense records, the
Fee Affidavit, and evaluation of the firm’s overall
164a

contribution to the common benefit of the MDLs,
the Fee Committee recommends an allocation of
$101,771.25 (0.0290775%), plus reimbursement of
the firm’s $98,011.34 in expenses.
Simmons Browder Gianaris Angelides & Barnerd,
L.L.C. Simmons Browder Gianaris Angelides &
Barnerd partner John Foley is a member of the
Plaintiffs’ Steering Committee. The firm contributed
to the common benefit of the Cook and Ethicon
MDLs. The firm performed document review and
deposition work for the Ethicon MDL. The firm
submitted 3,405.65 hours for review by the FCC.
The Fee Committee recognized a total of 2,987.67
hours and $23,049.47 in expenses. The firm
contributed $250,000.00 in assessments. Based on a
complete review of the time and expense records, the
Fee Affidavit, and evaluation of the firm’s overall
contribution to the common benefit of the MDLs, the
Fee Committee recommends an allocation of
$ 393,498.00 (0.1124280%), plus reimbursement of
the firm’s $250,000.00 in assessments, and
reimbursement of $23,049.47 in expenses.
Simmons Hanly Conroy, L.L.C. Simmons Hanly
Conroy partner Jayne Conroy is a member of the
Plaintiffs’ Steering Committee. The firm contributed
to the common benefit of the Cook MDL. The firm
performed document review. The firm submitted
4,907.05 hours for review by the FCC. The Fee
Committee recognized a total of 351.90 hours and
$18,754.07 in expenses. The firm contributed
$350,000.00 in assessments. Based on a complete
review of the time and expense records, the Fee
Affidavit, and evaluation of the firm’s overall
contribution to the common benefit of the MDLs, the
Fee Committee recommends an allocation of
165a

$100,100.00 (0.0286000%), plus reimbursement of
the firm’s $350,000.00 in assessments, and
reimbursement of $18,754.07 in expenses.
Sommers Schwartz, P.C. Sommers Schwartz
contributed to the common benefit of the Ethicon
MDL. The firm performed document review,
prepared for depositions, and deposed plaintiffs and
case-specific witnesses for an Ethicon bellwether
case. The firm submitted 267.15 hours for review by
the FCC. The Fee Committee recognized a total of
214.90 hours and $5,042.70 in expenses. The firm
did not pay an assessment. Based on a complete
review of the time and expense records, the Fee
Affidavit, and evaluation of the firm’s overall
contribution to the common benefit of the MDLs, the
Fee Committee recommends an allocation of
$36,330.00 (0.0103800%) and reimbursement of
$5,042.70 in expenses.
Taylor Martino. The firm contributed to the
common benefit of the AMS, BSC, and Ethicon
MDLs. The firm participated in document review in
the AMS, BSC, and Ethicon MDLs. The firm
submitted 83.30 hours for review by the FCC. The
Fee Committee recognized a total of 17.00 hours and
$49,903.58 in expenses. The firm did not pay an
assessment. Based on a complete review of the time
and expense records, the Fee Affidavit, and
evaluation of the firm’s overall contribution to the
common benefit of the MDLs, the Fee Committee
recommends
an
allocation
of
$4,016.25
(0.0011475%), plus reimbursement of the firm’s
$49,903.58 in expenses.
Turning Point Litigation – Mullins Duncan Harrell
& Russell PLLC. The firm contributed to the
166a

common benefit of the Bard MDL by providing trial
support for the first bellwether trials. The firm also
participated in discovery work-up for wave cases in
the Bard MDL. The firm submitted 10,620.50 hours
for review by the FCC. The Fee Committee
recognized a total of 5,775.10 hours and $10,799.05
in expenses. The firm did not pay an assessment.
Based on a complete review of the time and expense
records, the Fee Affidavit, the firm’s in-person
presentation to the Fee Committee, and evaluation
of the firm’s overall contribution to the common
benefit of the MDLs, the Fee Committee recommends
an allocation of $401,544.50 (0.1147270%), plus
reimbursement of the firm’s $10,799.05 in expenses.
Verhine & Verhine. The firm contributed to the
common benefit of the Bard and BSC MDLs. The
firm participated in the workup of wave cases in the
Bard and BSC MDLs. The firm submitted 182.35
hours for review by the FCC. The Fee Committee
recognized a total of 119.35. The firm did not pay an
assessment. Based on a complete review of the time
and expense records, the Fee Affidavit, and
evaluation of the firm’s overall contribution to the
common benefit of the MDLs, the Fee Committee
recommends
an
allocation
of
$25,436.25
(0.0072675%).
Wagstaff & Cartmell, LLP. Wagstaff & Cartmell,
LLP’s initial work on transvaginal mesh litigation
pre-dated the formation of the MDLs and continues
to date. Wagstaff & Cartmell partner Tom Cartmell
was appointed as member of the Executive
Committee, the Plaintiffs’ Steering Committee and
Co-Lead Counsel for the Ethicon litigation.
Wagstaff & Cartmell partner Jeff Kuntz served as
the leader of the Ethicon Expert and Bellwether
167a

Committees during the Ethicon MDL. The Firm
worked up experts for the Ethicon MDL and other
manufacturers. The Firm also successfully defended
those experts from Daubert challenges. Wagstaff &
Cartmell took depositions of opposing experts,
corporate representatives, and sales representatives
in the Ethicon, Bard and AMS litigation. The Firm
organized and led teams of document reviewers.
Wagstaff & Cartmell tried more cases to verdict as
lead or co-lead counsel than any other plaintiff’s firm
involved in the MDL. The Firm tried the first
Ethicon bellwether case and participated in the first
bellwether trial resulting in a plaintiffs’ verdict in the
MDL in a sling case. The firm submitted 64,801.00
hours for review by the FCC. The Fee Committee
recognized a total of 56,621.10 hours and
$1,634,637.93 in expenses. The firm contributed
$350,000.00 in assessments. Based on a complete
review of the time and expense records, the Fee
Affidavit, the firm’s in-person presentation to the Fee
Committee, and evaluation of the firm’s overall
contribution to the common benefit of the MDLs, the
Fee Committee recommends an allocation of
$38,500,000.00 (11.0000000%), plus reimbursement
of the firm’s $350,000.00 in assessments, and
reimbursement of $1,634,637.93 in expenses.
Waters & Kraus, L.L.P. Waters & Kraus contributed
to the common benefit of the Bard MDL. The firm
completed a Daubert briefing project at the request
of leadership. Additionally, the firm performed
document review and legal research for the Bard
MDL. The firm submitted 506.00 hours for review
by the FCC. The Fee Committee recognized a total of
414.60 hours. The firm did not pay an assessment.
Based on a complete review of the time and
168a

expense records, the Fee Affidavit, and evaluation of
the firm’s overall contribution to the common benefit
of the MDLs, the Fee Committee recommends an
allocation of $111,440.00 (0.0318400%).
Watts Guerra, LLP. The firm contributed to the
AMS, BSC, Bard and Ethicon MDLs. The firm
participated in discovery for wave cases in the BSC,
Bard and Ethicon MDLs. The firm submitted
2,985.75 hours for review by the FCC. The Fee
Committee
recognized
2,837.70
hours
and
$16,457.55 in expenses. The firm did not pay an
assessment. Based on a complete review of the time
and expense records, the Fee Affidavit, and
evaluation of the firm’s overall contribution to the
common benefit of the MDLs, the Fee Committee
recommends
an
allocation
of
$484,627.50
(0.1384650%), plus reimbursement of the firm’s
$16,457.55 in expenses.
Wexler Wallace, LLP. Wexler Wallace partner Ed
Wallace is a member of the Plaintiffs’ Steering
Committee. Out of necessity during the course of the
AMS MDL, the firm undertook an increasing role in
the management of the MDL, acted as a lead of the
MDL. The firm participated and was relied on by
AMS leadership in the MDL. The firm also
participated in spoliation briefing to the Court.
Wexler Wallace was involved with the TVM
litigation from its inception and contributed in early
discovery, document review, corporate witness
depositions, expert development and was co-lead
counsel on two early bellwether trials for two
manufacturers. The firm performed tasks across all
of the manufacturer MDLs as requested by
leadership. The firm submitted 40,763.29 hours for
review by the FCC. The Fee Committee recognized
169a

a total of 33,079.96 hours and $420,171.37 in
expenses. The firm contributed $350,000.00 in
assessments. Based on a complete review of the time
and expense records, the Fee Affidavit, the firm’s inperson presentation to the Fee Committee, and
evaluation of the firm’s overall contribution to the
common benefit of the MDLs, the Fee Committee
recommends an allocation of $11,830,000.00
(3.3800000%), plus reimbursement of the firm’s
$350,000.00 in assessments, and reimbursement of
$420,171.37 in expenses.
Wilson Law, PA. Wilson Law partner Kimberly
Wilson is a member of the Plaintiffs’ Steering
Committee. The firm contributed to the common
benefit of the Ethicon and Cook MDLs. The firm
participated in discovery for wave cases in the
Ethicon MDL. The firm submitted 344.01 hours for
review by the FCC. The Fee Committee recognized
a total of 313.20 hours and $1,421.43 in expenses.
The firm contributed $350,000.00 in assessments.
Based on a complete review of the time and expense
records, the Fee Affidavit, and evaluation of the
firm’s overall contribution to the common benefit of
the MDLs, the Fee Committee recommends an
allocation of $107,390.50 (0.0306830%), plus
reimbursement of the firm’s $350,000.00 in
assessments, and reimbursement of $1,421.43 in
expenses.
Thank you for your prompt attention to the matters
addressed herein.
Very truly yours
/s/ Henry G. Garrard, III
/s/ Yvonne M. Flaherty
/s/ Renee Baggett
/s/ Carl N. Frankovitch
/s/ Riley L. Burnett, Jr.
/s/ William H. McKee, Jr.
/s/ Thomas P. Cartmell
/s/ Joseph F. Rice
/s/ Clayton A. Clark

170a

APPENDIX F
IN THE UNITED STATES DISTRICT COURT FOR
THE SOUTHERN DISTRICT OF WEST VIRGINIA
CHARLESTON DIVISION

IN RE: C.R. BARD, INC., PELVIC
REPAIR MDL SYSTEM PRODUCTS
LIABILITY LITIGATION
MDL No. 2187
IN RE: AMERICAN MEDICAL SYSTEMS,
INC. PELVIC REPAIR SYSTEMS
PRODUCTS LIABIILITY LITIGATION
MDL No. 2325
IN RE: BOSTON SCIENTIFIC CORP.,
PELVIC REPAIR SYSTEM PRODUCTS
LIABILITY LITIGATION
MDL No. 2326
IN RE: ETHICON, INC., PELVIC
REPAIR SYSTEM PRODUCTS
LIABILITY LITIGATION

MDL No. 2327

IN RE: COLOPLAST CORP., PELVIC
REPAIR SYSTEM PRODUCTS
LIABILITY LITIGATION
MDL No. 2387

171a

IN RE: COOK MEDICAL, INC.,
PELVIC REPAIR SYSTEM
PRODUCTS LIABILITY LITIGATION
MDL No. 2440
IN RE NEOMEDIC PELVIC REPAIR
SYSTEM PRODUCT LIABILITY
LITIGATION
MDL No. 2511

This Document Relates To All Cases
Declaration of Adam M. Slater in Support of
Mazie Slater’s Objection to Recommended Allocation
of Common Benefit Fees and the Reimbursement of
Shared Expenses and Held Costs
Adam M. Slater, pursuant to 18 U.S.C.
§1746, makes this declaration under penalty of
perjury:
1.

I am a partner in the law firm of
Mazie Slater Katz & Freeman, LLC
(“Mazie Slater”). This Declaration is
based upon my personal knowledge.

2.

Mazie Slater tried four pelvic mesh
cases prior to the Ethicon cut off at the
end of 2016. The four cases include:
Gross v. Ethicon, January–February,
2013; Budke v. Ethicon, January,
172a

2015; Bellew v. Ethicon, March, 2015;
and Hammons v. Ethicon, NovemberDecember 2016.
Charts listing the
witnesses who testified at each of these
four trials, live and on video, including
the identity of the attorney who
questioned the witness, are attached
hereto as Exhibit 1.
3.

After the issuance of the Final
Written Recommendation (“FWR”), my
partner, David Mazie and I met with the
Honorable Daniel Stack. There were
two meetings: one on November 19,
2018 at our office (along with Tom
Cartmell and Jeff Kuntz), and another
on January 3, 2019 at Judge Stack’s
office in St. Louis, Missouri. We then
spoke with Judge Stack by telephone on
March 7, 2019. During the meeting on
November 19, 2018, Judge Stack, as
well as Mr. Cartmell, threatened that if
we filed an objection to the FCC’s
recommendations the amount awarded
to us could be cut by Judge Stack on his
final report.

4.

During the course of the November 19,
2018 meeting we asked questions
regarding the awards to FCC members
as well as others. For example, we
pointed to the TVM Historical Analysis
that had been provided to us during the
course of the fee committee process,
which set forth just over 1,000 hours for
Riley Burnett, Esq., a member of the
fee committee. We questioned how the
173a

fee committee ultimately recognized
more than 9,000 additional hours for
Mr. Burnett.
We were told that
Derrick Potts had shifted those hours
from his time to Mr. Burnett’s time, as
there had been time spent by contract
lawyers performing document review
and Mr. Burnett apparently had some
unexplained financial interest in those
contract lawyers reviewing documents.
We were told this was not an isolated
example, and that another attorney,
Mark Mueller, had failed to submit
time for years, but the FCC had
recognized work he had performed and
awarded him in excess of $4 million
despite the failure of Mr. Mueller to
submit that time.
5.

On January 3, 2019 my partner, David
Mazie and I travelled to St. Louis to
meet with Judge Stack. During this
meeting, Judge Stack explained to us
that he was not acting as a special
master, nor as a neutral in the process.
Rather, he was acting on behalf of the
fee committee. He clearly advised us
that he would not recommend an
increase to the fees or expenses that the
fee committee had awarded to any firm,
unless the fee committee were to first
approve and agree to pay that amount.

6.

During the course of our conversation,
Judge Stack told us about a situation
within the fee committee that he was
deeply disturbed about. Specifically, he
174a

told us he “was sickened” and “very
angry” that Brian Aylstock had
pressured
FCC
chairman
Henry
Garrard for more fees at a time when
Mr.
Garrard
was
particularly
vulnerable, and had told Mr. Garrard
that Mr. Aylstock’s partner, fee
committee member Renee Baggett,
would not sign the Preliminary Written
Recommendation unless a significantly
larger amount was awarded to Mr.
Aylstock’s law firm. As a result, Mr.
Aylstock’s law firm was apparently
awarded approximately $10 million
more. Judge Stack proceeded to tell us
in no uncertain terms that he was
“done” with the Aylstock law firm and
would never work with them again
based upon this conduct.
7.

When we advised of our concern that
there were law firms who had submitted
large numbers of hours to re-review
documents that had already been
reviewed, Judge Stack did not deny that
this had occurred. In fact, he agreed
that this had occurred, and he brought
up Motley Rice as an example of a law
firm that had “padded” its time
submissions with thousands of hours to
re-review documents; he went on to say
that they do this “in every litigation.”

8.

We again questioned Judge Stack
about the Riley Burnett situation, and
he again told us that Mr. Burnett was
provided approximately 9,000 hours by
175a

the Potts law firm, stating that Mr.
Burnett’s award was much too high and
that it would need to be severely cut.
9.

On March 7, 2019, David Mazie and I
had a conference call with Judge Stack
prior to the issuance of his report.
Judge Stack started off by telling us he
had “no good news” for us. Judge Stack
advised that the fee committee had
authorized a bit more to be allocated to
the Anderson law firm and Bernstein
Liebhard, but the fee committee gave
him “nothing to work with as to Mazie
Slater.” Judge Stack reiterated, as he
had previously told us, that his report
would not be an “independent
evaluation,” but would only include
awards which the FCC had authorized
him to make.

10.

We again questioned Judge Stack about
the serious situation he had told us
about in St. Louis with regard to the
Aylstock law firm. He told us that, “he
was put in a box” since the agreement
between Mr. Aylstock and Mr. Garrard
included a provision that Judge Stack
would not recommend a lower amount
than the amount awarded, and Judge
Stack could not upset the deal.

11.

Judge Stack made very clear to us, as he
had in St. Louis, that this process had
been far more involved and demanding
than he had expected when he was first

176a

retained in this matter, stating “it’s
been a nightmare.”
I declare under penalty of perjury that the foregoing
is true and correct.
Executed on March 26, 2019
/s/ Adam M. Slater
Adam M. Slater, Esq.
Mazie Slater Katz & Freeman, LLC
103 Eisenhower Parkway
Roseland, New Jersey 07068
973-228-9898
973-228-0303 – fax
aslater@mazieslater.com

177a

APPENDIX G
IN THE UNITED STATES DISTRICT COURT FOR
THE SOUTHERN DISTRICT OF WEST VIRGINIA
CHARLESTON DIVISION

IN RE: C.R. BARD, INC., PELVIC
REPAIR MDL SYSTEM PRODUCTS
LIABILITY LITIGATION
MDL No. 2187
IN RE: AMERICAN MEDICAL SYSTEMS,
INC. PELVIC REPAIR SYSTEMS
PRODUCTS LIABIILITY LITIGATION
MDL No. 2325
IN RE: BOSTON SCIENTIFIC CORP.,
PELVIC REPAIR SYSTEM PRODUCTS
LIABILITY LITIGATION
MDL No. 2326
IN RE: ETHICON, INC., PELVIC
REPAIR SYSTEM PRODUCTS
LIABILITY LITIGATION

MDL No. 2327

IN RE: COLOPLAST CORP., PELVIC
REPAIR SYSTEM PRODUCTS
LIABILITY LITIGATION
MDL No. 2387

178a

IN RE: COOK MEDICAL, INC.,
PELVIC REPAIR SYSTEM PRODUCTS
LIABILITY LITIGATION
MDL No. 2440
IN RE NEOMEDIC PELVIC REPAIR
SYSTEM PRODUCT LIABILITY
LITIGATION
MDL No. 2511

This Document Relates To All Cases
Declaration of David A. Mazie in Support of Mazie
Slater’s Objection to Recommended Allocation of
Common Benefit Fees and the Reimbursement of
Shared Expenses and Held Costs
David A. Mazie, pursuant to 18 U.S.C.
§1746, makes this declaration under penalty of
perjury:
1.

I am a partner in the law firm of
Mazie Slater Katz & Freeman, LLC
(“Mazie Slater”). This Declaration is
based upon my personal knowledge.

2.

On November 19, 2018, my partner,
Adam Slater and I met with the
Honorable Daniel Stack and Tom
Cartmell/Jeff Kuntz of the Wagstaff
Cartmell law firm. The purpose of the
meeting was to discuss the Fee and
179a

Cost
Committee’s
(“FCC”)
recommended fee and expense awards.
During the meeting, we were told by
Judge Stack, as well as Mr. Cartmell,
that if we filed an objection to the
FWR, the fees awarded to us could be
cut by Judge Stack on his final report.
When I asked if we were being
“threatened”, Judge Stack stated that
he was not threatening us, but that we
should
strongly
consider
the
ramifications of filing an objection
because he could award less to us in the
event we disagreed with the FWR. It
appeared to me that this was a clear
threat.
3.

On January 3, 2019 my partner, Adam
Slater and I travelled to St. Louis to
meet with Judge Stack. During this
meeting, Judge Stack explained to us
that in his final report he would only be
increasing/decreasing awards to the
extent those changes were preapproved
by the FCC.
Otherwise, the FWR
would stand.
The reason for this,
according to Judge Stack, was because
he did not want to recommend any
award that would be objected to by the
FCC.

4.

During the course of our meeting,
Judge Stack told us that he was
“sickened” and “very angry” by an
interaction between Bryan Aylstock
and Henry Garrard whereby Mr.
Aylstock pressured Mr. Garrard to
180a

award his law firm significant
additional monies; if the additional
monies were not awarded, then Renee
Baggett (Mr. Aylstock’s partner) would
not sign off on the fee recommendation.
5.

In a later phone conversation, when
we asked Judge Stack whether he
would be altering the award to Aylstock
(which he had stated that he thought
was “way too high”), he responded by
stating that he was “put in a box” and
that even though he did not agree with
the award to the Aylstock law firm, he
was not going to reduce the award
without the approval of the FCC. He
also reiterated that he would not alter
any of the FCC awards because he did
not have approval from the FCC to do
so, but that he had added to the awards
of the Anderson law firm and Bernstein
Liebhard because the FCC had
authorized him to do so.

I declare under penalty of perjury that the foregoing
is true and correct.
Executed on March 26, 2019
/s/ David A. Mazie
David A. Mazie, Esq.
Mazie Slater Katz & Freeman, LLC
103 Eisenhower Parkway
Roseland, New Jersey 07068
973-228-9898
973-228-0303 – fax
dmazie@mazieslater.com
181a

APPENDIX H
Adam Slater
From:
Sent:
To:
Subject:

Henry G. Garrard, III
<hgg@bbgbalaw.com>
Monday, February 01, 2016 4:49 PM
Adam Slater
FCC

Adam- I discussed with the Court your role,
assuming you come into the assessment process
in the MDL I raised the idea of you being an
adjunct non voting member of the FCC. My
understanding is Judge Goodwin and Judge
Martinotti have spoken. Below is what I was
informed by the Court:
“Regarding the involvement of Adam Slater in the
FCC, Judge Goodwin expects that Adam will be
the unofficial New Jersey liaison and, in that role,
he will be invited frequently to participate where
appropriate. This is consistent with the overall
goal of transparency in the process of making fee
recommendations for ultimate consideration and
decision by Judge Goodwin.”
I hope this gives you enough comfort. If so, I will
write you the letter I told you I would. I will be
happy to discuss this, if you want. Henry

182a

APPENDIX I
BLASINGAME – BURCH – GARRARD
& ASHLEY, P.C.
Attorneys at Law
Henry G. Garrard, III
Email address: hgg@bbgbalaw.com
February 16, 2016

Via Email (aslater@mskf.net)
and Regular Mail
Adam Slater
Mazie, Slater, Katz & Freeman
103 Eisenhower Parkway, 2nd Floor
Roseland, NJ 07068
Re:

MDL Benefit

Dear Adam:
I have discussed your letter of 1/21/16 that was sent
to me concerning common benefit issues with the
Fee and Compensation Committee. The agreements
we reached on the telephone are affirmed by the
FCC.
Specifically, we agree that the records of which you
have given me samples will be acceptable and that
you do not need to reconfigure them.
As I said on the phone, your leadership in the New
Jersey consolidated matters is certainly a factor that

183a

will be considered in any recommendation
concerning payment of fees and expenses to you.
The “$100,000” that you have paid in for the New
Jersey litigation will be reimbursed in the same
manner as the amounts that have been paid in by
PSC members in the MDL litigation.
As to the prior authorization for work, it is agreed
that will not be an issue.
Additionally, as to several cases where you have
already settled but did not withhold the 5%
assessment, it is agreed that 5% applicable to those
cases can simply be deducted from any award you
would ultimately get out of the common benefit fund.
Obviously, all of these agreements are contingent on
your cases coming into the MDL and being assessed,
which I believe you have indicated to me you intend
to do.
I hope that this letter comports with what you and I
previously agreed to and if not, please let me know.
I appreciate the working relationship that we have
established.
With Kindest Regards, I am
Very truly yours,

Henry
Henry G. Garrard, III
HGGIII/slh
184a

